<html>
<title> - [H.A.S.C. No. 112-102]GOVERNANCE, OVERSIGHT, AND MANAGEMENT OF THE NUCLEAR SECURITY ENTERPRISE TO ENSURE HIGH QUALITY SCIENCE, ENGINEERING, AND MISSION EFFECTIVENESS IN AN AGE OF AUSTERITY</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


                         [H.A.S.C. No. 112-102] 
 
                       GOVERNANCE, OVERSIGHT, AND 

                       MANAGEMENT OF THE NUCLEAR 

                     SECURITY ENTERPRISE TO ENSURE 

                   HIGH QUALITY SCIENCE, ENGINEERING, 

                    AND MISSION EFFECTIVENESS IN AN 

                            AGE OF AUSTERITY 

                               __________

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON STRATEGIC FORCES

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                           FEBRUARY 16, 2012

                                     
                 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

73-428 PDF                       WASHINGTON : 2012 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 



                    SUBCOMMITTEE ON STRATEGIC FORCES

                     MICHAEL TURNER, Ohio, Chairman
TRENT FRANKS, Arizona                LORETTA SANCHEZ, California
DOUG LAMBORN, Colorado               JAMES R. LANGEVIN, Rhode Island
MO BROOKS, Alabama                   RICK LARSEN, Washington
MAC THORNBERRY, Texas                MARTIN HEINRICH, New Mexico
MIKE ROGERS, Alabama                 JOHN R. GARAMENDI, California
JOHN C. FLEMING, M.D., Louisiana     C.A. DUTCH RUPPERSBERGER, Maryland
SCOTT RIGELL, Virginia               BETTY SUTTON, Ohio
AUSTIN SCOTT, Georgia
                 Drew Walter, Professional Staff Member
                Tim Morrison, Professional Staff Member
                Leonor Tomero, Professional Staff Member
                      Aaron Falk, Staff Assistant



                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2012

                                                                   Page

Hearing:

Thursday, February 16, 2012, Governance, Oversight, and 
  Management of the Nuclear Security Enterprise To Ensure High 
  Quality Science, Engineering, and Mission Effectiveness in an 
  Age of Austerity...............................................     1

Appendix:

Thursday, February 16, 2012......................................    35
                              ----------                              

                      THURSDAY, FEBRUARY 16, 2012
     GOVERNANCE, OVERSIGHT, AND MANAGEMENT OF THE NUCLEAR SECURITY 
  ENTERPRISE TO ENSURE HIGH QUALITY SCIENCE, ENGINEERING, AND MISSION 
                  EFFECTIVENESS IN AN AGE OF AUSTERITY
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Langevin, Hon. James R., a Representative from Rhode Island, 
  Subcommittee on Strategic Forces...............................     5
Turner, Hon. Michael, a Representative from Ohio, Chairman, 
  Subcommittee on Strategic Forces...............................     1

                               WITNESSES

Aloise, Eugene, Director, National Resources and Environment, 
  Government Accountability Office...............................    10
Anastasio, Dr. Michael R., Director Emeritus, Los Alamos National 
  Laboratory; Director Emeritus, Lawrence Livermore National 
  Laboratory.....................................................    23
Curtis, Hon. Charles B., Member, National Academies Panel on 
  Managing for High Quality Science and Engineering at the NNSA 
  National Security Laboratories; Senior Advisor, Center for 
  Strategic and International Studies; President Emeritus and 
  Board Member, Nuclear Threat Initiative; Former Deputy 
  Secretary of Energy, 1994-1997.................................     9
Miller, Dr. George H., Director Emeritus, Lawrence Livermore 
  National Laboratory............................................    24
Robinson, Amb. C. Paul, Director Emeritus, Sandia National 
  Laboratories...................................................    26
Shank, Dr. Charles, Co-Chair, National Academies Panel on 
  Managing for High Quality Science and Engineering at the NNSA 
  National Security Laboratories; Senior Fellow, Howard Hughes 
  Medical Institute..............................................     7

                                APPENDIX

Prepared Statements:

    Aloise, Eugene...............................................    55
    Anastasio, Dr. Michael R.....................................    75
    Langevin, Hon. James R., on Behalf of Hon. Loretta Sanchez...    43
    Miller, Dr. George H.........................................    80
    Robinson, Amb. C. Paul.......................................    91
    Shank, Dr. Charles, joint with Hon. Charles B. Curtis........    46
    Turner, Hon. Michael.........................................    39

Documents Submitted for the Record:

    Letter from Dr. Jeff Colvin and Dr. Roger Logan on Behalf of 
      the University Professional and Technical Employees Union..   134
    Memorandum for House Armed Services Committee (HASC) 
      Strategic Forces Subcommittee Members......................   113
    Statement by Ambassador Linton Brooks, Former Under Secretary 
      of Energy for Nuclear Security and Administrator of the 
      National Nuclear Security Administration (NNSA)............   140
    Statement by Dr. Siegfried S. Hecker, Co-Director of the 
      Center for International Security and Cooperation, Stanford 
      University.................................................   144

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Heinrich.................................................   219
    Ms. Sanchez..................................................   197
    Mr. Turner...................................................   171
     GOVERNANCE, OVERSIGHT, AND MANAGEMENT OF THE NUCLEAR SECURITY 
  ENTERPRISE TO ENSURE HIGH QUALITY SCIENCE, ENGINEERING, AND MISSION 
                  EFFECTIVENESS IN AN AGE OF AUSTERITY

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                          Subcommittee on Strategic Forces,
                                 Washington, DC, February 16, 2012.
    The subcommittee met, pursuant to call, at 11:11 a.m. in 
room 2212, Rayburn House Office Building, Hon. Michael Turner 
(chairman of the subcommittee) presiding.

OPENING STATEMENT OF HON. MICHAEL TURNER, A REPRESENTATIVE FROM 
        OHIO, CHAIRMAN, SUBCOMMITTEE ON STRATEGIC FORCES

    Mr. Turner. Call the Strategic Forces subcommittee to 
order.
    Good morning. I want to welcome everyone to today's hearing 
on governance, management, and oversight of the nuclear 
security enterprise in the age of austerity.
    I also want to thank Mr. Langevin for being here today 
serving in the capacity of ranking member, but Loretta Sanchez 
was unable to be here today. And, he was expressing to me that 
the Cannon Tunnel in getting here was closed. And so, it 
impeded his trip here.
    But, we greatly appreciate you taking the time to serve and 
represent our ranking member in this hearing.
    Everyone here knows that this is a very busy week here on 
Capitol Hill: budget request week.
    This hearing is not like most of the hearings that are 
taking place however, in that it is not looking directly at a 
particular agency's fiscal year 2013 budget request.
    However, it is a hearing that has major implications for 
the future of the National Nuclear Security Administration, 
NNSA, and therefore, its budget.
    This hearing will examine longstanding, well-documented, 
and fundamental concerns with the way NNSA manages its labs and 
plants, problems that are unnecessarily costing taxpayers many 
hundreds of millions of dollars each year and impeding NNSA's 
ability to accomplish its mission.
    In today's fiscal environment, we cannot afford such 
inefficiency and waste, particularly when we are seeing major 
cuts to the pledged nuclear modernization funding in this 
year's budget request.
    In 1999, Congress passed the NNSA Act which split out NNSA 
as a semi-autonomous agency within the Department of Energy, 
DOE, driven by this subcommittee, and in particular by my 
friend Mac Thornberry, who is with us today, and Ellen 
Tauscher.
    This legislation sought to address major mismanagement and 
security problems at DOE. In particular, a 1999 report by the 
President's Foreign Intelligence Advisory Board spurred 
Congress into action saying DOE was a ``dysfunctional 
bureaucracy that has proven it is incapable of reforming 
itself.''
    An earlier report by the Galvin Commission ``revealed a 
counterproductive Federal system of operation for DOE's 
national labs,'' saying, ``The current system of governance of 
these laboratories is broken and should be replaced by a bold 
alternative.''
    The Galvin Commission noted that problems included 
``increased overhead cost, poor morale, and gross 
inefficiencies as a result of overly prescriptive congressional 
management and excessive oversight by the Department.'' And an 
``inordinate internal focus at every level of the laboratories 
on compliance issues and questions of management processes 
which takes a major toll on research performance.''
    NNSA was created to address these problems and enable the 
nuclear security enterprise to be more effective, more focused, 
and more efficient.
    Twelve years after the creation of NNSA, the question for 
this hearing is: Has it worked?
    Have these problems been addressed?
    To prepare for this hearing, the committee staff put 
together an overview of the many reports in the past 10 years 
that have examined NNSA's management and governance of its labs 
and plants.
    It is not an exhaustive list. But, it is illustrative of 
what various assessments have determined are NNSA's 
administrative problems.
    I ask that the hearing memo prepared by the staff be 
entered into the record for this hearing.
    [The information referred to can be found in the Appendix 
on page 113.]
    Mr. Turner. I want to quote from just a few of these myriad 
studies that the staff have reviewed. And here is a finding 
from a 2009 assessment by the Stimson Center which was paid for 
by NNSA itself.
    It stated, ``The implementation of the NNSA Act failed to 
achieve the intended autonomy for NNSA within the Department of 
Energy. The labs now must operate within a complicated set of 
bureaucratic relationships with both DOE and NNSA. An 
excessively bureaucratic DOE culture has infiltrated NNSA as 
well.''
    And here are a few quotes from the bipartisan Strategic 
Posture Commission's report in 2009.
    First, ``The Governance structure of the NNSA is not 
delivering the needed results. This governance structure should 
be changed. In the commission's view, the original intent of 
the legislation creating the NNSA has not been realized. The 
desired autonomy has not come into being. It is time to 
consider fundamental changes.''
    And also, ``Despite the efforts of thousands of dedicated 
and competent civil servants, Federal oversight of the weapons 
enterprise needs significant improvement.'' NNSA ``may have 
become part of the problem, adopting the same micromanagement 
and unnecessary and obtrusive oversight that it was created to 
eliminate.''
    ``The leadership of all three weapons laboratories believes 
that the regulatory burden is excessive, a view endorsed by the 
Commission. That burden imposes a significant cost and less 
heavy-handed oversight would bring real benefits.''
    Reading these reports, the point of criticism about 
excessive, ineffective, and unnecessary bureaucratic processes 
and confused and redundant management relationships sounds 
eerily similar to the reports that spurred the creation of NNSA 
in 1999.
    So, the answer is: No, NNSA hasn't been working as 
intended, and many of the problems remain.
    But we have our witnesses here today to help us understand 
if that answer is correct.
    Our first panel, we have gentlemen representing two 
distinguished organizations that have spent considerable time 
examining NNSA management and governance of the nuclear 
security enterprise.
    They are Dr. Charles Shank, Co-Chair, National Academies 
Panel on Managing for High Quality Science and Engineering at 
the NNSA National Security Laboratories, and Senior Fellow, 
Howard Hughes Medical Institute.
    We also have the Honorable Charles B. Curtis, who is a 
member of the National Academies Panel on Managing for High 
Quality Science and Engineering at the NNSA National Security 
Laboratories, and Senior Advisor, Center for Strategic 
International Studies, also President Emeritus and board member 
Nuclear Threat Initiative. And, he has served as the former 
Deputy Secretary of Energy, 1994 to 1997.
    We also have Mr. Eugene Aloise, Director of Natural 
Resources and Environment at the Government Accountability 
Office.
    Dr. Shank and Secretary Curtis are here to present the 
results of a National Academies of Science study that was 
mandated by this subcommittee in the fiscal year 2010 National 
Defense Authorization Act.
    In the conference report accompanying that bill, the 
conferees explained that the study should provide ``an even 
handed, unbiased assessment of the quality of the scientific 
research and engineering at the labs, and assessment of the 
factors that influence'' such quality.
    I understand that the portion of this study that was 
recently completed, and that we will be discussing today, 
focuses on the latter: management related factors that 
influence the quality of science and engineering at the labs.
    I will let Dr. Shank and Secretary Curtis speak to their 
report. But I want to highlight a few of their study committee 
findings.
    First, in the view of their committee, ``the relationship 
between NNSA and its labs is broken, to an extent that very 
seriously affects the labs' capability to manage for quality, 
science, and engineering. There has been a breakdown of trust 
and an erosion of the partnering between the laboratories and 
NNSA to solve complex science and engineering problems. There 
is conflict and confusion over management roles and 
responsibilities of organizations and individuals.''
    The National Academies report also finds that the level of 
detailed transactional level management and oversight that NNSA 
applies to the labs is causing significant inefficiencies and 
risking the quality of science and engineering at the labs, 
saying, ``There is a perception at the three laboratories that 
NNSA has moved from partnering with the laboratories to solve 
scientific and engineering problems, to assigning tasks and 
specific science and engineering solutions with a detailed 
implementation instructions.''
    ``This approach precludes taking full advantage of the 
intellectual and management skills that taxpayers' dollars have 
purchased. The study committee found similar issues in 
transactional oversight of safety, business, security, and 
operations. Science and engineering quality is at risk.''
    Our first panel of witnesses also features Mr. Eugene 
Aloise from GAO [U.S. Government Accountability Office]. Mr. 
Aloise and GAO have spent decades examining NNSA and DOE 
defense programs before it.
    I understand GAO continues to have major concerns about the 
inconsistency and inaccuracy of NNSA's management and cost data 
across the enterprise.
    I hope you will help us understand what is causing these 
chronic problems and what actions NNSA or Congress could take 
to address them.
    Finally, our second witness panel is comprised of three 
former directors of the NNSA laboratories who have been asked 
to share their direct experiences leading and managing the 
organizations responsible for carrying out NNSA's mission 
within the management and oversight, processes, procedures, and 
structures set up by the Federal Government.
    They are Dr. Michael Anastasio, Director Emeritus, Los 
Alamos National Laboratory and Director Emeritus, Lawrence 
Livermore National Laboratory.
    We also have Dr. George Miller, Director Emeritus, Lawrence 
Livermore National Laboratory, and Ambassador C. Paul Robinson, 
Director Emeritus, Sandia National Laboratories.
    These gentlemen bring a wealth of experience to our witness 
table. And, I hope they will share their experience by 
reflecting on the findings and recommendations of the National 
Academies report and the GAO.
    I also hope that they will share any concrete, actionable 
recommendations they have for improving governance and 
management of the labs.
    Before I pass things over to Mr. Langevin, I would like to 
say that we all need to recognize that, alone, simply moving 
boxes on an organizational chart isn't going to solve these 
problems.
    It is going to take leadership, both from the 
Administration and up here on Capitol Hill. As well as a 
consensus on why NNSA's mission is so important. And what needs 
to be done to move that forward.
    Ranking Member Sanchez and I have agreed to take a hard 
look at these issues over the next few months and work together 
to help address the concerns of the National Academies study 
group, the Strategic Posture Commission, and all of the others.
    I want to thank our witnesses for joining us today. And 
with that, I will turn to Mr. Langevin for his opening 
comments.
    [The prepared statement of Mr. Turner can be found in the 
Appendix on page 39.]

  STATEMENT OF HON. JAMES R. LANGEVIN, A REPRESENTATIVE FROM 
         RHODE ISLAND, SUBCOMMITTEE ON STRATEGIC FORCES

    Mr. Langevin. Thank you, Mr. Chairman.
    And, I just want to say on behalf of Ms. Sanchez that she 
wanted to be here. But couldn't because of a family emergency, 
but appreciates the work that the panel is doing and for you 
being here today.
    With that, I'd like to join Chairman Turner in welcoming 
our witnesses: Dr. Shank, the Honorable Charlie Curtis, Mr. 
Aloise, Dr. Anastasio, Dr. Miller, and Ambassador Robinson.
    Thank you.
    I am also pleased that we have statements from Ambassador 
Brooks and Dr. Sieg Hecker.
    And Mr. Chairman, I would ask that the letter from Dr. 
Colvin and Dr. Logan, on behalf of the University Professional 
and Technical Employees union, also be submitted for the 
record.
    [The information referred to can be found in the Appendix 
on pages 140, 144, and 134, respectively.]
    Mr. Turner. Without objection.
    Mr. Langevin. The impetus for the fiscal year 2012 National 
Defense Authorization's request for this National Academies of 
Science study was concerned about safety issues and about the 
effects of privatization of lab management at Los Alamos 
National Laboratories and Lawrence Livermore National 
Laboratory.
    Specifically, members were concerned that increased costs 
of management fees and taxes and other associated costs might 
have decreased resources for programmatic work and affected 
morale.
    In its version of the bill, the House sought a GAO study to 
assess the costs of the transition and the impacts on lab 
management and lab functions including safety, security, and 
environmental management.
    The final conference report included the NAS [National 
Academies of Science] study of a broader scope that would 
examine whether the excellence in science and engineering was 
being preserved at the labs.
    This study now comes over 10 years after the NNSA was 
created, and several years after a change in contracting 
structure for the labs, and offers an opportunity to assess the 
quality of science and management after a period of adjustment 
to a new contracting structure.
    It also comes in the context of strategy based on an 
updated nuclear posture review and the constraints of a fiscal 
crisis.
    Today, I hope to hear your insights to inform our 
oversight, and ensure that we retain the unique skills and 
capability upon which nuclear deterrent and nonproliferation 
efforts depend.
    I would like to touch on three important points.
    First, the need for an effective contract structure, 
governance and management that help attract and retain the 
quality of scientists and engineers dedicated to public service 
who underpin a safe, secure, and reliable arsenal and 
contribute to the expertise behind successful nonproliferation 
efforts.
    Second, the need for a process that ensures safety for 
workers and the public.
    And third, the need for transparency, accountability, and 
clear lines of authority.
    First, safety, security, and reliability of nuclear weapons 
depend on critical scientific skills. And, our labs must be 
able to attract some of the Nation's best scientists to the 
labs who want to serve their country.
    Maintaining this expertise depends--that demands an 
interesting and important mission, challenging work, good 
equipment and tools, and good morale including a supportive 
work environment where scientists are valued and recognized.
    So, the question is does the current structure and 
oversight provide clear expectations while enabling effective 
research including hypothesis-driven science?
    Does it enable diverging views on potential technical 
solution?
    And, does it provide stability in employment and 
opportunities for collaboration and success?
    Mission success also demands a work environment that is 
safe for employees and for the public, which brings me to my 
second point.
    This management and oversight responsibility of nuclear 
weapons research, sustainment, and production cannot be 
compromised. Accidents can and do happen including low-
probability, high-consequence events.
    No one expected the massive earthquake and tsunami at the 
Fukushima Daiichi power plant in Japan or the BP Deepwater 
Horizon explosion.
    The reactor accidents at Savannah River that were hidden 
from the public for over 30 years, the environmental conditions 
which led to the raid and permanent shutdown of Rocky Flats, 
and the classified data scandals that rocked Los Alamos all 
resulted in part from a structure of flexible requirements and 
minimal Federal oversight.
    Meanwhile, the Department of Labor has now approved more 
than 64,000 cases submitted to the Energy Employee Occupational 
Illness Program for radiation exposure and has paid out, more 
than $6.7 billion in compensation benefits.
    Chairman Turner, and our committee members, and I are 
committed to the success of NNSA, the Nuclear Complex and its 
national security mission.
    However, I fear that a nuclear accident, even a minor one, 
would have significant repercussions on the future of the 
Nuclear Weapons Complex. That is a consequence that we would 
all like to avoid.
    Third, in an era of budget constraints, we must seek 
opportunities for improving efficiency across the complex as 
required, for example, in Section 3123 of the fiscal year 2012 
National Defense Authorization Act, but also in terms of 
effective management.
    With the $7.2 billion appropriated for weapons activities 
in fiscal year 2012, and a $7.6 billion request for fiscal year 
2013, improving accountability and ensuring effective 
governance must be a priority.
    Questions I have are: Are there clear lines of authority? 
Does the NNSA have sufficient subject matter expertise and 
consistent data necessary to effectively assess performance 
across the complex?
    Is there sufficient accountability within NNSA from the 
contractors at the labs?
    Is the structure set up to incentivize savings, maximize 
investment in programmatic work, perform realistic cost 
assessments, and planning to avoid cost escalation and 
scheduled delays, set priorities, and enable competition?
    In this context, I'd like to add that I am pleased that the 
Department of Energy recently decided to resume the practice of 
making performance evaluations of the lab public, increasing 
transparency and accountability.
    With that, I look forward to today's discussion. I was 
proud to read this statement on behalf of Ms. Sanchez. And 
again, she values the important work that you all are doing.
    She apologizes that she couldn't be here. But then again, a 
family emergency demanded her elsewhere today.
    With that, I thank our guests for being here. And I yield 
back to the chairman.
    [The prepared statement of Mr. Langevin on behalf of Ms. 
Sanchez can be found in the Appendix on page 43.]
    Mr. Turner. I thank Mr. Langevin. And also recognize him as 
a former chair of this subcommittee, and appreciate his work 
with the subcommittee.
    We have received written statements from each of these 
witnesses. And without objection, these statements will be part 
of the hearing record.
    Without objection, I would also like to make part of the 
record a statement we received on this topic from Ambassador 
Linton Brooks, a former administrator for NNSA as well as a 
statement from Dr. Sig Hecker, former director of Los Alamos.
    Both were invited witnesses, but were unable to 
participate.
    We'll now turn to our witnesses. We are allotting 3 minutes 
for opening statements.
    If you would summarize the written statement that you have, 
it will allow us to get to questions and the dialogue that we 
are expecting and hoping with the members.
    And we are going to begin with Dr. Shank.
    Dr. Shank.

 STATEMENT OF DR. CHARLES SHANK, CO-CHAIR, NATIONAL ACADEMIES 
 PANEL ON MANAGING FOR HIGH QUALITY SCIENCE AND ENGINEERING AT 
THE NNSA NATIONAL SECURITY LABORATORIES; SENIOR FELLOW, HOWARD 
                    HUGHES MEDICAL INSTITUTE

    Dr. Shank. Good morning, Mr. Chairman and members of the 
subcommittee.
    My name is Charles Shank. I have had the privilege of being 
co-chair of the Committee on the Review of the Quality of 
Management and Science and Engineering Research at the DOE's 
National Laboratories. And, I am joined here today by the 
Honorable Charles B. Curtis who served with me on this study.
    Our task was to look at the quality of science and 
engineering and management of the three National Security 
Laboratories: Los Alamos, Livermore, and Sandia.
    The study was conducted in two phases. I am reporting on 
phase one, which was management.
    Phase two will be a deep look at some selected areas of 
actual science and engineering activities at the laboratory.
    And conduct of our study, it was done primarily through 
testimony and observation and looking through documents where 
the committee had broad and deep expertise for this study.
    Our primary mode of gathering occurred with meetings here 
in Washington where we talked to NNSA experts, NNSA members of 
our current executives at the NNSA.
    We also visited all three laboratories. And, we had 
evaluations where people were able to present their views from 
all levels of management.
    There are three major areas of findings.
    The first is looking at the issue of contracts. The 
contracts have existed for more than--many decades in some of 
the laboratories. They were recompeted in 2004. That led to the 
laboratories moving from a public entity, the University of 
California to an LLC that now manages the laboratory.
    The bottom line is that while it is true that all labs have 
been under cost and funding pressure, we did not find a morale 
crisis related to the actions of the new contractors.
    However, we should point out that the costs of the re-
competed contracts are significantly greater than previous 
contracting arrangement, primarily due to contractor fees, 
state taxes, pensions, and other increase in costs.
    One area that we would like to identify as a very positive 
move of the laboratories from weapons laboratories to our 
broadly national security laboratories serving a broad range of 
agencies as defined in a governance charter among those four 
agencies.
    We think that that work helps bring the laboratories' 
capabilities to study scientific issues that are important to 
the broad set of agencies, and be able to, at the same time, 
maintain capability for their laboratories.
    The final issue that I'd like to discuss is the serious 
issue that we identified between the relations between labs and 
NNSA oversight. The core issue is erosion of trust. And, this 
has led to transactional management and direct management of 
the laboratories in an overly prescribed formal way which has 
created a bias, we believe, against experimental work, and a 
concern by people at the laboratories that this could change 
the nature and character of the scientific enterprise there.
    And, in closing, I would like to say that we need to 
recognize that, particularly at Los Alamos where there were 
problems over the last 5 years, extraordinary progress has 
taken place.
    And, consistent with that increase and accomplishment in 
their operations, we think that consideration should be given 
to that strengthened performance to the point where they no 
longer need the special attention and degree of formality in 
their operations that they currently have.
    Solutions to this problem will require efforts both on 
behalf of the laboratories and the NNSA to establish an 
atmosphere of trust in which one can then begin to think about 
an oversight.
    When you do oversight on somebody you trust compared to 
somebody that you don't trust, there is a very different 
behavior. And, much work needs to be done in that area.
    Thank you for your attention.
    [The joint prepared statement of Dr. Shank and Dr. Curtis 
can be found in the Appendix on page 46.]
    Mr. Turner. Thank you, Dr. Shank.
    Secretary Curtis.

STATEMENT OF HON. CHARLES B. CURTIS, MEMBER, NATIONAL ACADEMIES 
 PANEL ON MANAGING FOR HIGH QUALITY SCIENCE AND ENGINEERING AT 
THE NNSA NATIONAL SECURITY LABORATORIES; SENIOR ADVISOR, CENTER 
FOR STRATEGIC AND INTERNATIONAL STUDIES; PRESIDENT EMERITUS AND 
    BOARD MEMBER, NUCLEAR THREAT INITIATIVE; FORMER DEPUTY 
                 SECRETARY OF ENERGY, 1994-1997

    Dr. Curtis. Thank you, Mr. Chairman.
    Dr. Shank has done a very good job at summarizing our 
observations. I only wanted to add a few thoughts of my own 
before the committee's questions as a way of emphasis.
    As we have noted, the new contracting model has certainly 
added costs to Lawrence Livermore and Los Alamos, but we did 
not find that the contracting model by itself has impaired 
science, technology, and engineering competencies.
    But a much larger and more significant threat to these 
competencies derives from the persistent level of mistrust that 
pervades the contract and managerial relationship.
    As the subcommittee knows, these managerial relationships 
have been shaped over many years by a tumultuous history of 
management and oversight failures.
    As a former chairman of the Laboratory Operations Board, 
which we set up to try and address the same issues that the 
committee is pondering today, I've had experience with the same 
frustration that the committee members have expressed with how 
can we make this thing get better.
    We think that the current NNSA and laboratory-directed 
leaders have made considerable progress, but much more needs to 
be done. And, we think the peril to science and engineering 
competencies is so great that the stakes are enormously high.
    Now, I want to make a very specific point here.
    I think it is my view, I know shared by the committee 
members, that the conduct of high quality science and 
engineering inherently involves high standards of environmental 
care and safety.
    Maintaining the public trust demands security and fiscal 
integrity as well. Indeed, mission effectiveness requires all 
four: environmental responsibility, safety, security, and sound 
fiscal controls.
    However, science and engineering quality will surely erode 
if these ends are realized through an imposed operational 
formality that discourages initiative, biases against 
experimental work, or creates an unduly risk-averse 
environment.
    Our committee strongly believes that NNSA laboratory 
leadership should work together to rebuild the trust 
relationship, more clearly define boundaries between program 
planning, direction and execution, and reduce the operational 
formality where possible, consistent with maintaining high 
standards of safety, security, and environmental responsibility 
and fiscal integrity, as Mr. Langevin has mentioned.
    A rebalancing though seems clearly required. And this 
Congress has an important role here in its oversight process.
    Oversight, Mr. Chairman, I know is a very difficult slog 
for the committee whose attention is commanded by so many 
important issues.
    But much of the mistrust in this relationship indeed exists 
in the Congress itself who represent the public's views on the 
matter. So, the Congress needs to work with NNSA leadership and 
the laboratory directors to kind of rebalance the situation 
we're in.
    It is not going to be done quickly. If we try to do it 
quickly or all at once, it will almost surely fail.
    It's going to take years. But this effort is so important. 
It is essential to the mission effectiveness of this 
laboratory.
    So, I commend these recommendations to the committee. And, 
I encourage the committee to continue the hard work of paying 
attention to this issue.
    Thank you.
    [The joint prepared statement of Dr. Curtis and Dr. Shank 
can be found in the Appendix on page 46.]
    Mr. Turner. Secretary, thank you for those comments.
    As you noted, our hope through these panels is that we know 
we don't know the answers. We know the questions.
    But with these panels, we know that you guys know the 
answers. And hopefully, we'll reach them.
    Mr. Aloise.

 STATEMENT OF EUGENE ALOISE, DIRECTOR, NATIONAL RESOURCES AND 
         ENVIRONMENT, GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Aloise. Mr. Chairman, Mr. Langevin, members of the 
subcommittee, I am pleased to be here today to discuss our work 
on the governance oversight and management of the security 
enterprise.
    DOE's and NNSA's management of the enterprise has been the 
subject of much criticism, as you mentioned, and DOE's 
management of its contracts is on GAO's high-risk list.
    Although progress has been made, we continue to identify 
problems across the enterprise ranging from significant cost 
and schedule overruns on major projects, to ineffective 
oversight of safety and security at NNSA sites.
    We agree that excessive oversight and micromanagement of 
contractors is not an efficient use of scarce Federal 
resources. However in our view, the problems we continue to 
identify in the enterprise are not caused by excessive 
oversight, but rather by ineffective oversight by NNSA and DOE.
    And I'll talk about three of the areas we think better 
oversight is needed: management data, the management of major 
construction projects, and safety and security across the 
enterprise.
    Regarding data, NNSA lacks reliable enterprise-wide 
management data on program, budgets, and cost. Specifically, we 
have reported the NNSA cannot identify total costs to operate 
and maintain essential weapons activities, facilities, and 
infrastructure.
    This means that NNSA does not have the sound basis for 
making decisions on how to effectively manage its programs and 
projects, and lacks data that could help justify future budget 
requests or target cost savings.
    The Administration plans to request $88 billion over the 
next decade to modernize the enterprise and ensure basic 
scientific, technical, and engineering capabilities are 
sufficiently supported, and the nuclear deterrent can be safe, 
secure, and reliable.
    To adequately justify future budgets, NNSA must identify 
these capabilities and determine their cost. Without this data, 
NNSA risks being unable to make fully informed tradeoff 
decisions in our resource-constrained environment.
    Regarding management of its major projects, in numerous 
reports we have found that NNSA continues to experience 
significant cost and schedule overruns on its major projects, 
principally because of ineffective oversight and poor 
contractor management.
    For example, the cost to construct the UPF [Uranium 
Processing Facility] facility at Y-12 has arisen nearly 
sevenfold to between $4.2 billion and $6.5 billion.
    Given NNSA's record of weak management of its major 
projects, we believe careful Federal oversight is critical to 
ensure that scarce resources are spent efficiently and 
effectively.
    NNSA's oversight of safety and security is also being 
questioned. And numerous safety and security problems have 
occurred across the sites contributing in the shutdowns at Los 
Alamos and Lawrence Livermore National Labs.
    Our work showed that the contributing factors to the safety 
and security problems were weak NNSA oversight, and a 
laboratory culture that did not prioritize safety and security 
in its daily operations.
    In many cases, improvements have been made to resolve these 
problems, but better oversight is needed to ensure that the 
improvements are fully made and sustained.
    And that concludes my statement, Mr. Chairman.
    [The prepared statement of Mr. Aloise can be found in the 
Appendix on page 55.]
    Mr. Turner. Thank you. I'll start off the questions.
    We have very important issues to discuss here. We 
appreciate your insights and your review of this issue.
    Dr. Shank and Secretary Curtis, your National Academies 
Study Committee found, ``The science and engineering performed 
by any laboratory can only be as good as the people employed. 
Thus, ensuring that high quality people are attracted to NNSA 
labs, that they are retained, is a necessary condition for the 
labs to carry out high quality science and engineering.''
    It seems pretty straightforward. Your report then goes on 
to say, ``Assuming that the foundation of good people is 
available high quality science and engineering, then, this 
requires good facilities and adequate resources, and operating 
processes that do not impede the ability of these scientists 
and engineers to perform at their highest levels.''
    So, my question is: Does the National Academies Study 
Committee believe that those key attributes for ensuring high 
quality science and engineering are in place?
    In other words, do the labs have good facilities, adequate 
resources, and operating processes that don't impede high 
quality work?
    Now, the question isn't asking, you know, do we not have 
high quality people. Because we know that we do. And they are 
endeavoring, of course, to deliver the highest quality.
    But do these resources reflect the highest quality that we 
need from them and that we need from them in the future?
    Now, I want to also cast my concern in light of recent 
discussion that has occurred between myself and Congressman 
Markey.
    I am concerned that the impact on the labs' ability to 
attract and retain world-class scientists is affected by the 
fact that the current state of our facilities are that they are 
falling apart.
    Congressman Markey just recently sent a letter calling for 
significant reductions in our support for our nuclear weapons 
infrastructure. And he went on to say, ``It is insane to 
modernize and replace the uranium and plutonium processing 
facilities that support the U.S. nuclear deterrent when the 
plants we have now work just fine.''
    Now, we have up on the television some pictures of the 
current state of these facilities that Mr. Markey says work 
just fine. I know my current Ranking Member Sanchez and I have 
discussed how dirty and decrepit these facilities appear.
    Also, I know our former chair, Mr. Langevin, has currently, 
and previously, has supported that these facilities need 
upgraded as has every member of this committee.
    I think these pictures which are--I want to emphasize are 
unclassified photos--illustrates that we have a need for 
additional investment.
    And I want to ask our panel, the Administration has 
recently announced that the chemistry and metallurgy research 
replacement facility at Los Alamos would be delayed.
    It is a facility that we hope to attract topnotch plutonium 
scientists. And, you know, what is the impact of this on the 
labs' ability to conduct world-class scientists?
    Dr. Shank, as a world-class scientist yourself, would you 
be attracted to work in these facilities? Do you believe we 
need to continue to invest?
    If we are to say to scientists that your work is of the 
future, shouldn't we be providing them a facility that is a 
picture of the future?
    Dr. Shank.
    Dr. Shank. I want to be very clear that the first portion 
of the report is talking about management. The second phase of 
the study will be actually looking at those facilities and 
asking questions and resources and capability that to be able 
to do the work are important.
    Not as a part of the report, but as a scientist, having 
world-class facilities is absolutely essential. But also, you 
have to have the ability to operate those facilities in a way 
that you can actually get work done.
    And, I think that that is where the trust and the erosion 
of trust has really created a problem. And, from the point of 
view of this study, something like plutonium is a very special 
kind of, very high-risk work that requires very special 
attention to detail.
    It is a piece of the work that goes on in the laboratories, 
but not all of it.
    We need a kind of oversight, but the kind of formality 
appropriate for the work.
    But certainly as a scientist, speaking as a scientist, one 
cannot actually do the work without superb facilities.
    Mr. Turner. Secretary Curtis, your thoughts?
    Dr. Curtis. As Dr. Shank said, we did not examine the 
questions that are inherent in your statement in this phase. 
So, let me just draw on my past experience as an executive who 
oversaw these operations.
    If you don't have a well-invested-in facility, it is very 
much more costly to do work in facilities such are depicted in 
your pictures. Because the risk of misadventure and mistake and 
accident are so consequential to the mission, then you have to 
maintain an even higher operational formality to do work in 
facilities that are not up to high standards.
    So, you have to invest in this infrastructure as well as in 
the people that you expect to perform against it.
    Mr. Turner. I invited Congressman Markey to join me, 
including an invitation with our Ranking Member Sanchez, to 
tour these facilities so that we can see that they are not just 
fine, and that in fact, they do need additional investment.
    We certainly hope that he will join us so that he can 
himself see the need, as these pictures clearly illustrate for 
investment so that they can reflect the quality of the 
intellectual capital of our scientists.
    And I appreciate both of you acknowledging that.
    I want to skip ahead a little bit, but in Dr. Miller's 
written statement on the second witness panel, he mentions that 
a review by NNSA in 2007 showed that the labs were subject to a 
113 different NNSA and DOE directives that contained a total of 
7,752 separate requirements.
    This rose to a peak of 160 directives in 2009. It is now 
down to around 131, thanks to some streamlining.
    Dr. Shank and Secretary Curtis, in your opinion, is it 
possible to effectively and efficiently manage labs under such 
constraints and still get high quality science and engineering?
    Is it possible to be innovative which is basically what we 
are asking of these scientists?
    In your opinion is having hundreds of directives, and many 
thousands of separate requirements, in the spirit of the model 
that the labs are supposed to be operated under, and that is 
again to encourage this innovation.
    Your report also says that these layers of rules and 
regulations have created a major aversion to risk. And, that a 
major byproduct of this has been to create a bias against 
experimental work because of the onerous processes sometimes 
required before running an experiment.
    The bias is problematic because experimental science is at 
the very heart of the scientific method.
    Could you please explain how this aversion to risk impacts 
the ability of the labs to conduct high quality science and 
engineering and perform their mission effectively and 
efficiently?
    Dr. Shank. In our testimony that we receive from scientists 
at various labs, one scientist told me that there were so many 
rules and regulations that he could no longer do his work.
    When you get to the point where the majority of your time 
is spent responding to an overly prescriptive environment, that 
greatly impedes your ability to do the work.
    So, this is a very serious issue.
    I think the key core issue is if the laboratories are not 
trusted, each transaction must be monitored. If a system in 
which the laboratory has raised its level of capability to 
create a system of operation, one can then audit the system.
    So, we have a circumstance where the oversight group treats 
the laboratories as if they are not trustworthy. That trust 
goes both ways. It's the cost of operating in a nontrustworthy 
environment.
    We have to work to establish trust. Once you do that, you 
do not need thousands of directives.
    Mr. Turner. Secretary Curtis.
    Dr. Curtis. Yeah, this is the heart of the question here. 
And, it has got to be frustrating to the committee because as 
your opening statement, Mr. Chairman, pointed out, our 
observations are not new.
    You have had report after report say much the same thing. 
Hopefully, we have added some additional dimension to this 
discussion.
    When I chaired the Laboratory Operations Board, Dr. Shank 
as a lab director, as a member of that board, we undertook to 
take out of the regulations much of the detail of a 
requirement.
    As committee knows from other regulatory discussions, you 
have command control regulations. You have performance 
regulations.
    We tried to make a lot of the regulatory interface based on 
performance. And we moved to an appendix, a lot of the detail 
which was previously mandatory.
    What we found in laboratory after laboratory is the people 
in the laboratory, and the people in the oversight structure of 
the department, continued to follow all the detail. Because 
they didn't trust each other that they would be entitled to 
modify that detail.
    So, this trust issue, it sounds soft. But it's very, very 
important.
    This is never going to get better until we find a way of 
reducing the operational formality, providing greater latitude 
for innovation, for clear boundaries, program planning and 
execution, and invest a level of trust in the people that we 
trust to provide for this nation's nuclear deterrent.
    It's kind of a strange equation that we provide the 
Nation's most vital secrets. We entrust those to the scientists 
and engineers that we depend upon to perform this vital 
mission. But then we don't trust them in the execution.
    And, by not trusting them in the execution, we introduce 
cost, inefficiencies that have been documented time and time 
again.
    We can do both. We can have safe, environmentally 
responsible work that gives a higher latitude of trust to those 
that we rely on to execute the science and engineering.
    Thank you.
    Mr. Turner. Thank you, Mr. Secretary.
    Mr. Langevin.
    Mr. Langevin. Again, I thank the panel for your testimony 
here today.
    So, the GAO and NAS question that I would like to pose to 
our panel, as we all know the safety and surety of the nuclear 
enterprise is of the utmost importance. And the NNSA plays a 
vital role in ensuring our Nation's nuclear deterrents.
    So, what can and should be done to strengthen NNSA's 
ability to perform effective quality assurance?
    Dr. Shank. I believe that the attention is paid to the work 
that a system be identified and that the labs be held 
accountable to that system. The laboratories have got to raise 
their level of performance.
    And a much better way to do that would be the laboratories 
leading the activity and then being audited on the basis of 
what they actually do. Rather than laying out a prescriptive 
set of instructions which in the end become the end in 
themselves, rather than actually accomplishing the task.
    Nobody wants to operate any laboratory which is not safe 
and secure, or in violation of any concern about security or 
act in an irresponsible way with funding.
    But if all your effort is focused on fighting problems of 
an expectation that you are not trusted, the cost of that 
overwhelms the ability to actually give you the assurance that 
your project will be done in a safe environmental manner.
    Mr. Langevin. Mr. Curtis.
    Dr. Curtis. I think that we have tried to lay out in the 
report what we think needs to be done. Those are the three 
things.
    You have to clearly define boundaries, then adhere to the 
boundaries, both of the overseer and the executer of these 
responsibilities.
    We have to make sure that we are doing high standards of 
safety, environmental responsibility and security, and fiscal 
integrity as we execute this mission.
    But there are ways of rebalancing the method by which we 
are assuring that, that I think will reduce a threat to the 
high quality science and engineering we demand, which we see as 
a continuing threat that if this isn't fixed, we're going to 
lose the capability in these laboratories. This has just got to 
be fixed.
    So, the stakes are very, very high here.
    Mr. Langevin. Mr. Aloise.
    Mr. Aloise. Yes, I think we would agree with Dr. Shank and 
Mr. Curtis have said. We, for years, have said that when we are 
looking for NNSA to change to performance-based oversight 
rather than compliance-based oversight.
    Rather than going in with a checklist and seeing if a 
number of policies and procedures have been issued in a year or 
the table is 12 inches away from the wall instead of 18 inches. 
We should be looking at the performance.
    Are the labs doing what we have asked them to do? What the 
Congress and NNSA have asked them to do?
    It should be based on performance.
    Mr. Langevin. So, to the panel, does the NNSA have the 
necessary expertise and leadership structure conducive to 
effective oversight?
    Dr. Shank. My feeling is yes, they do. They have many 
excellent people.
    I think this is a doable circumstance, the environment in 
which they are working, the environment of mistrust.
    And this goes both ways. It is not simply--sorry, I 
apologize.
    Mr. Langevin. That's a pretty ominous ring.
    [Laughter.]
    Dr. Shank. My wife is in Hawaii and she doesn't recognize 
the time zone difference. So, I apologize.
    The----
    Mr. Langevin. As long as we don't have to clear the room.
    [Laughter.]
    Dr. Shank. I do believe there are excellent people there 
that are capable of doing the work. It is how it is structured. 
How the goals are put forward that could in fact make this 
whole thing work a lot better.
    And I think if we work at these fundamental relationship 
issues, that is the core to actually making the whole 
enterprise work.
    Dr. Curtis. Let me make just one comment, so we don't lose 
track of it.
    Tom D'Agostino and Neile Miller and Don Cook at NNSA, at 
the top, have made some very significant changes and progress 
in addressing this.
    The lab directors, some of whom are sitting behind me, made 
very significant progress when they were in office in 
addressing this.
    It's just that you are trying to unwind a burdened 
relationship that has been built up over 25 years or more.
    And that is why when NNSA was created you didn't see the 
change that you were hoping to see, Mr. Thornberry's 
initiative, to free NNSA from some of the administrative burden 
from within the department.
    So, the culture is deeply embedded. And, it is going to 
take a lot of work to fix that.
    There are very good people on both sides of the equation 
working very hard--highly competent, skilled. You should be 
proud of them.
    But it's a hard, hard problem.
    We are dealing with a problem that developed over several 
decades and it's going to take a while to undo it.
    Mr. Aloise. I would just add that in our work we found that 
the NNSA site office people are not properly trained to do the 
kind of oversight they should be doing. And that is a major 
problem.
    Mr. Langevin. This question is more of the National 
Academy. A number of employees including the unions who 
provided testimony to the NAS panel, and at least one former 
lab director, have expressed concern that the private for-
profit model is harming the labs in that many senior scientists 
have chosen to leave. And production and research is driven by 
performance-based incentives.
    The NAS report finds that the bureaucratic frustrations 
that are affecting all levels within the labs, ``Are not 
traceable to the M&O [Management and Operating] contractor or 
contracts themselves, and found that the lab directors' primary 
objective remains to manage the laboratories in the public 
interest.''
    Do you feel that the criticism of some of these employees 
that the for-profit motive is harming the labs is valid?
    Dr. Shank. This is a very important concern. It is 
something that we took very seriously.
    We asked the people who made those representations to us, 
give us examples. Give us data. Give us something other than 
feelings, because we cannot produce a report based on feelings.
    So, we asked the question: Are the labs able to hire and 
retain people?
    The retention rates before the contract change and after 
the contract change were both 4 percent. They have not changed 
at either Livermore or Los Alamos. So, we have not seen a 
change in retention.
    There is an issue of cost. The cost of the contract is 
more.
    But that is not the total increasing cost. There were costs 
due to a case in New Mexico having to do with the state gross 
receipts tax, which added $65 million, roughly $100 million for 
each laboratory. That has had an effect.
    However at the same time that many of these things occurred 
when you changed the contract and the contractors, if you look 
at the actual contracts themselves, they are about the same.
    And so, we could not identify a change in a contract that 
would lead to an issue.
    But we do feel that the people who are running the 
laboratories before and after were the same kind of people, 
they did the job under the old contract, and the new contract. 
We did not see a difference in their behavior.
    We asked Neile Miller were the incentives such that they 
were so large that they would distort the operational process. 
The reward for performance, or to some small narrow objective 
to get fee, seemed to be small enough not to greatly influence 
the lab directors.
    The lab directors themselves told us they are focused on 
the public interest. And like all lab directors, they are ``A'' 
students and they want to do as well as they can.
    They want to do the best job they possibly can. But the 
amount of money that is there is not the driving concern.
    So in looking at this issue, we felt for this current set 
of lab directors and the current environment is not an issue.
    But we do point out in the report that if these fees got to 
a level where it was driving what was going on in the 
laboratory, it could be a serious concern. And we said constant 
vigilance needs to be taken in looking at this to assure that 
the people who lead these labs do operate with the right set of 
incentives.
    I should point out that Sandia Laboratories, which has a 
very high level of performance, has had a private contractor 
since its beginning. So, the difference between private and 
not-for-profit is to us not a significant issue in the change.
    Mr. Langevin. So, next, what pressures, if any, result from 
a fee-based incentive system?
    Dr. Shank. The question is what----
    Mr. Langevin. What pressures, if any, result from a fee-
based incentive system?
    Dr. Shank. A fee-based incentive system is designed to 
reward performance. And, a risk could be if the fee is so large 
and the task is not properly defined that you might accomplish 
the task, get rewarded the fee, and not perform the overall 
need for function of the laboratory.
    A great deal of effort, I know, is involved in making sure 
that those incentives are properly directed. But if not 
properly directed, they could create a problem.
    We did not see a problem that would drive behaviors for fee 
that would distort the actual value of those laboratories for 
the country. But it is a reasonable concern.
    Mr. Langevin. My last question if I could is: Has the 
privatization of the labs contributed to the loss of senior 
personnel?
    I know you said that the retention rates were about 4 
percent both before and after privatization, but what about 
senior level personnel?
    Dr. Shank. I believe that some of the labs--one, the move 
from the University of California's manager to the LLC, they no 
longer were employees of the University of California. And some 
people chose to leave because they were near retirement.
    We asked for a list of significant people that have left 
the laboratory that affect the laboratory operation for the 
people who expressed that concern. We were not given 
information that was different than what we were able to 
understand.
    We asked that from the labs, the lab directors, and from 
the people who made the accusations, or that expressed the 
concerns. We could not verify that on a major scale.
    Mr. Langevin. Thank you.
    Thank you, Mr. Chairman, I yield back.
    Mr. Turner. Mr. Thornberry.
    Mr. Thornberry. Thank you, Mr. Chairman.
    I just want to ask about a couple of things.
    Can you explain to me a little more what you mean by a lack 
of trust?
    You know, over the years, a lot of the issues have been 
security-related issues. Where of course there had to be some 
change in security practices by necessity.
    But is it primarily a chafing under the requirements for 
security?
    Is it more about money oversight, or research priorities?
    What is that lack of trust--how can you narrow that down a 
little more to explain from whence it arises?
    Dr. Shank. There has been a record of performance failures, 
more at Los Alamos than at the other laboratories that created 
a great deal of concern.
    If we look back to some of the things that grow the idea of 
recompetition, there were issues. I believe an enormous amount 
of effort has taken place, specifically at Los Alamos, to try 
to upgrade, modernize their systems, create an attitude of 
understanding the importance of security, and attention to 
safety.
    And enormous progress has been made there.
    If you are in an environment where people have failed to 
live up to expectations, it is not surprising that that trust 
issue will carry over into the future.
    We hope that increased performance, the laboratories will 
earn the kind of trust which would then lower the level of 
formality. But some of this has been earned, and some of this 
is probably as you described, chafing under regulations.
    But I believe that some of the mistrust has been earned. 
But there also has to be an opportunity to earn that trust 
back.
    When you manage somebody that you don't trust, you put a 
whole set of restrictions and requirements. If you read 7,000 
requirements, it is because I really don't trust what you are 
doing.
    If I trusted what you are doing, I would begin to look at 
your outputs, and sample and audit what you do, and have you 
work with national standards as opposed to a step-by-step 
transactional oversight.
    That has to be earned. That is the salvation of actually 
making this whole system work. It is really fixing that 
interface and that relationship.
    No change in contract will fix that. It really is working 
at that relationship issue.
    Mr. Thornberry. One other issue, you mentioned several 
times in your all's report, LDRD [Laboratory Directed Research 
and Development]. And I have had lots of debates in this room 
over the years, usually with people on my side of the aisle, 
about what percentage of a laboratory budget the director could 
direct according to merit.
    Is that a major issue or a small issue?
    Is it symptomatic of this larger question of overregulation 
from NNSA or is that just one of the consequences of this lack 
of trust?
    That there has not been the amount of discretion that the 
laboratory directors had in the past to manage new projects.
    Dr. Shank. There are two issues there.
    There is one, the LDRD, which is an approved program. It's 
one that remains the key tool for developing new scientists and 
associated science that is important to the laboratories.
    Recognize that physicists are not trained in weapons design 
at universities. When they come to the laboratory, having an 
opportunity to work with some very closely associated science, 
gives them an opportunity to develop these scientists.
    And if you look at some examples given in our report where 
people have worked on LDRD and ultimately became part in 
leadership, some of the leadership back here probably began 
with LDRD--a very important piece.
    We also point out in the report that a restrictive--changes 
in the budget categories, narrowly defining budget categories, 
has removed the ability of the laboratory to do what they once 
did historically--was to have a larger fraction of their budget 
to actually have scientific programs and create a robust core 
weapons research program.
    That may be a whole range of issues. I don't know what the 
motivations are. But they no longer have that additional 
flexibility.
    So, it is left with LDRD.
    So, LDRD is very important. But the lack of flexibility has 
come from the description of more, what are called B and R 
codes that really restrict what the laboratories can do with 
the funding.
    So, both of those are issues.
    Dr. Curtis. I am going to take a little risk in responding 
to this question. I think over the years the Congress has been 
appropriating money in smaller and smaller packages which 
restrict the latitude of those charged with the administration 
of the laboratories and programs, to respond to the dynamic and 
the change in their programs as they develop.
    I think at the root of that is that the Congress doesn't 
trust the administrators, NNSA, and the laboratories 
sufficiently.
    LDRD is in essence an account that the laboratories 
administer without prior definition or instruction.
    Congress has not liked that for a long time. But they 
recognize the value that it has produced for the laboratories 
and the conduct of this mission.
    But the two things are in tension.
    It is a highly valuable ability for the laboratories to 
develop talent, to recruit to the laboratories, and to--over 
time it accomplished their mission.
    But it always makes the Congress uneasy because they are 
controlling the purse as some view with sufficient direction, 
as they feel they are responsible to do.
    I think the Congress should go the other way. I think they 
really need over time to appropriate in larger packages of 
money. And give more trust, confidence, and latitude to those 
that they are depending upon to do the job, especially when you 
are dealing with vital national security issues.
    Mr. Thornberry. Thank you.
    Mr. Turner. Thank you.
    Mr. Larsen.
    Mr. Larsen. Thank you, Mr. Chairman. On the last point, 
there is a glare there, I can't--Dr. Curtis, Mr. Curtis, 
Honorable Curtis, Dr. Shank, with regards to this issue of B 
and R codes, is it, what does that stand for, B and R?
    Mr. Larsen. Budget and reporting, B and R codes. Okay.
    Did NAS actually evaluate and conclude that NNSA should not 
be making changes to B and R codes?
    Or are you just saying that's a problem?
    Did your study make a recommendation or make a conclusion 
on it?
    Dr. Shank. We heard from the laboratory directors in 
testimony, they no longer had the flexibility to do the kind of 
research programs they have done historically, because of the 
narrowly described budget codes----
    Mr. Larsen. Did you conclude----
    Dr. Shank. I----
    Mr. Larsen [continuing]. That that was a good thing or bad 
thing or make any decisions--make any determination about that?
    Dr. Shank. Well, from the perspective of our report, which 
was to look at science and engineering, we saw less science and 
engineering, fundamental science, taking place at these 
laboratories than maybe you would have seen 15 or 20 years ago, 
and that has come about because of this set of restrictions.
    I think the detailed impact of that is best asked to the 
next panel who will describe what that has meant to them in 
terms of their core research capability.
    Mr. Larsen. Great, I will do that.
    So, what should we care about the labs doing? Did you 
conclude that?
    Make any conclusions about what we, as members of Congress, 
what should we care about the labs doing?
    Dr. Shank. Well, I think you should care that they are 
accomplishing----
    Mr. Larsen. I am sorry.
    And what did you conclude in your study? I want to be more 
clear about--so, you are commenting on the NAS study.
    What did the study conclude about what Congress should care 
about what the labs are doing?
    Dr. Shank. From our study what Congress should care about 
would be that the laboratories be permitted to execute their 
mission responsibilities in a cost-efficient, safe, 
environmental, and responsible way.
    Mr. Larsen. But you also said that one of your 
recommendations is that this committee, presumably Congress, 
should endorse your committee's recommendation that the 
maintenance of the stockpile remains the core mission of the 
lab.
    Is that about right?
    Dr. Shank. Absolutely correct.
    Mr. Larsen. So, what activities would the labs give up or 
what would become secondary if that were to be the case?
    Dr. Shank. Well, the maintenance of the stockpile is the 
core issue----
    Mr. Larsen. Right----
    Dr. Shank. In order to actually achieve that issue, we felt 
the new four-agency governance model gave the laboratories the 
opportunity to develop science and engineering capabilities 
that they would not be able to form under current austerity 
conditions.
    So, that enables their core activity by being able to work 
in these broader arrangements where you now think of them more 
in national security laboratories, so they serve national need 
in a broad range of areas.
    But in the end, their primary responsibility, their core 
responsibility, is maintenance of the stockpile.
    Mr. Larsen. Perhaps the directors, when they come up here 
and get prepared for the question, and just maybe make it part 
of your testimony about the relationship between the 
austerity--the lack of dollars, or the lack of the dollars you 
want, and the impact that that has on what you want to do 
versus the management issue.
    If there are some ways we can sort of separate those things 
a little bit, so we are attacking the right problem.
    Is the management structure between NSA and DOE and the 
labs on target?
    And this gets back to Mr. Thornberry's work of the late 
1990s and early 2000s about trying to find just the right 
relationship.
    You make any recommendations on that to the study?
    Dr. Shank. We expressed a concern about the relationship. 
We did not make a recommendation how to redefine or reorganize 
the national--or the DOE and NNSA.
    Mr. Larsen. Right.
    Just a moment, Mr. Chairman, sorry--oh, yes, this issue of 
trust.
    Can you give me some specifics?
    So, I want to talk about trust and the lack of it. But even 
from reading your report, it sounds more like a management 
discussion about trust as opposed to, here are the specific 
problems.
    Here is who we don't trust. Here is what we don't trust. 
Here is why we are not being trusted.
    And it comes across frankly, by complaining about trust as 
opposed to here are some actual circumstances where we feel we 
are not being trusted or the actions being taken by NNSA show 
they don't trust us.
    Dr. Shank. Let me give you an example that really had an 
impact on me.
    At one of the laboratories a young woman was hired. She was 
setting up her laboratory. Her laboratory required an optical 
bench, which floats on an air cushion.
    She spent a week determining--answering the question 
whether the table would blow up before she would be allowed to 
inflate the table.
    No other laboratory in the country would have that level of 
formality of operation to require to be able to do that.
    Why did this occur?
    If I trusted the laboratory to be able to have a system in 
place to actually be able to operate facilities without a step-
by-step-by-step requirement, exhaustive requirement, it would 
be quite different.
    Similar work done at one of these national laboratories 
ought to be the same as it was at Bell Laboratories, where I 
was when I grew up as a scientist, or IBM Laboratories today.
    They should be operating the same way. They do not.
    The cost overhead of the excessive formality is a major 
impact. And, the real concern to us when we listen to young 
people, it really is creating a bias about how long do I need 
to invest my career in experimental work at one of these 
laboratories because of this burden.
    So, we pay a cost for that excessive formality.
    And a way in which, if you trusted the organization, you 
would have a certified system of how you operate the 
laboratory. And you'd audit the system.
    We audit and give orders and instruction for every motion.
    Mr. Larsen. Thank you, Mr. Chairman.
    Mr. Turner. Dr. Shank, thank you for concluding with that 
very impassioned description.
    You know, from my community, Dayton, Ohio, came the Wright 
Brothers who brought us into human flight. And I can't imagine 
what the rules and regulations would look like if Government 
had to tell them how they should have done their experiments.
    We might all still be on trains.
    So, gentlemen, thank you so much.
    We are going to turn to our second panel.
    We are very lucky to have Dr. Michael Anastasio, director 
emeritus, Los Alamos National Laboratory, director emeritus, 
Lawrence Livermore National Laboratory.
    We have Dr. George Miller, director emeritus, Lawrence 
Livermore National Laboratory. And Ambassador C. Paul Robinson, 
director emeritus, Sandia National Laboratories.
    We'll pause for a moment as we have a shift between the 
first panel and the second panel.
    But we are very glad to have them here.
    Gentlemen, we want to thank you all for being here. You 
have prestigious careers as heading the NNSA labs. We 
appreciate you taking the time to share your insight with us.
    And we will begin with Dr. Anastasio.

 STATEMENT OF DR. MICHAEL R. ANASTASIO, DIRECTOR EMERITUS, LOS 
    ALAMOS NATIONAL LABORATORY; DIRECTOR EMERITUS, LAWRENCE 
                 LIVERMORE NATIONAL LABORATORY

    Dr. Anastasio. Thank you, Chairman Turner, and other 
members of the subcommittee.
    I appreciate the opportunity to testify today. And I just 
want to put a disclaimer in that my remarks are going to be my 
personal views and not the views of any of the laboratories or 
any of the other organizations.
    And during my career I have witnessed many historic events 
and dramatic changes in the National Security Enterprise, yet 
the laboratories' dedication to mission and quality of science 
has remained.
    However, the future of an age of austerity, as you pose it, 
is really--raises significant near-term and long-term 
challenges to a high quality science and engineering mission 
effectiveness.
    So, I want to spend a minute or two discussing these 
challenges. And then in my written testimony, I have made some 
modest recommendations.
    I think the first point is the context in which the Nuclear 
Security Enterprise operates. There's lots of issues that drive 
my concerns.
    There was a great bipartisan agreement that was satisfying 
for me with the Nuclear Posture Review in 2010 and the 
accompanying budget plan, the 1251 report.
    But already the consensus around that is wavering. And 
inevitably that's going to lead to differing expectations of 
the enterprise and an inability to set and carry out priorities 
consistently over time.
    And as the financial pressure mounts, that's going to 
exacerbate these problems.
    Second is that the external entities who peer into NNSA 
also drive concerns, because they generate a significant risk 
aversion within NNSA. When they get criticized from external 
bodies, they become risk-averse. And that manifests itself in a 
lack of trust of the sites. We should make sure that we don't 
do anything that causes an embarrassment of the NNSA. And, that 
generates a growing focus on compliance at the expense of 
delivering on the mission.
    My experience at Los Alamos, as I think about oversight and 
management, is instructive for me in considering how to handle 
the enterprise-wide problem.
    And at Los Alamos, we were able to increase the 
effectiveness at the laboratory in delivering its mission, 
while at the same time absorbing over $225 million per year of 
new costs.
    However, it is going to be hard for my successor to make 
further gains because there is continued growth in unfunded 
requirements and transactional oversight.
    There is an inexorable trend toward ever deeper involvement 
and direction of how activities are done, rather than 
evaluating the outcomes and see if they meet expectations.
    At the same time, new directives and new interpretations of 
directives are promulgated from both the NNSA and outside 
organization like the Defense Nuclear Facilities Safety Board, 
to drive down operational risk and demanding more and more 
paperwork to demonstrate compliance.
    And, those who establish the requirements don't have 
responsibility for the program. And, those who are responsible 
don't really know what is going on in the field.
    Safety and security, environmental protection must be 
paramount. However, we need to have a balanced program and 
balance risks across all activities, so whether that's mission 
accomplishment to operational excellence.
    We really need to strengthen that balance across the 
enterprise.
    And so, let me end with my long-term concern which is for 
the health of science at these institutions.
    And already, we have seen some anecdotal evidence that the 
environment we are working under is driving away some of our 
best mid-career scientists. And, as we confront the financial 
pressures, I am concerned that it's going to force program 
modifications that will lead to impacts.
    And, history would suggest that those impacts are going to 
fall disproportionately on science and engineering in order to 
protect the near-term milestones of the program.
    And, if that happens, then we run the risk of losing the 
capabilities of these world-class organizations. And we may not 
be able to recover.
    So, let me stop there.
    Thank you, Mr. Chairman, I will be happy to answer any 
questions.
    [The prepared statement of Dr. Anastasio can be found in 
the Appendix on page 75.]
    Mr. Turner. Thank you so much.
    Dr. Miller.

STATEMENT OF DR. GEORGE H. MILLER, DIRECTOR EMERITUS, LAWRENCE 
                 LIVERMORE NATIONAL LABORATORY

    Dr. Miller. Thank you very much, Mr. Chairman, and members 
of the subcommittee for the opportunity to provide my comments 
on this important issue. And more importantly, thank you for 
your long-term support of this critically important program to 
the country.
    Based on nearly 40 years of watching this enterprise and 
leading Livermore for the last 5 years, I would like to 
summarize five main points.
    First of all at the top level, there's a lot of very 
positive outcomes that I think the Congress and NNSA and the 
country should be proud of.
    The laboratories still have extraordinary people, Stockpile 
Stewardship is working, and we have the capabilities of these 
laboratories being more broadly applied to the problems facing 
the country.
    And in fact, Secretary Chu and Mr. D'Agostino have 
recognized the need for governance reform.
    I also believe that right now the U.S. faces enormous 
challenges for which science and technology has the ability to 
contribute significantly. And, we cannot afford to waste a 
single precious dollar or precious science technology and 
engineering resource on bureaucratic inefficiency.
    In my view, the laboratories are under severe stress in 
their ability to perform these missions. And they are 
increasingly constrained by the manner of the Federal oversight 
and the way in which it is implemented.
    There's been a lot of discussion this morning already about 
transactional oversight in which individual activities are 
monitored rather than process oversight, which looks at the 
system and the performance.
    I will give you two ways in which you can look at this.
    At each of the NNSA sites, there are typically more than 
100 Federal officials on site to watch on a daily basis what we 
do. If you go to the Jet Propulsion Lab, it's less than 30. 
They have a budget approximately the size of Livermore, 
actually slightly less.
    If you go to the way the--within NNSA, the way naval 
reactors operates, you see only a small number of people.
    Another example is the oversight of our safety, health, and 
environmental programs. At Livermore the plan for 2012 has more 
than 1,000 audits and inspections in the plan. In addition to 
that, there are hundreds of self-assessments by the laboratory 
itself.
    To contrast, the best commercial practice is startling. We 
have been on a path at Livermore for several years to implement 
the international standards, both our environmental systems, 
our safety systems, and our quality control systems.
    The process of maintaining those systems typically requires 
one audit a week and a few people. This, in my view, across the 
complex amounts to hundreds of millions of dollars, perhaps 
upwards of $0.5 billion in cost inefficiency.
    As we have said many times this morning in the first panel, 
and I am sure we will talk about it again, in my view, the 
issue is the fundamental breakdown in the relationship between 
the Federal Government and the laboratories--the principal 
reason that the federally funded research and development 
centers were formed in the first place.
    In a very tangible way, I think of this in a sports 
analogy.
    We are all engaged in the game. And our game is national 
security. That's why we do what we do.
    The referees are important. The referee is the contract. 
But the referee is not the game.
    And, I think it is important that we focus on why we are 
here.
    Trust is often used--I think trust is a good word. But 
unfortunately, it has a lot of emotional overtones. I think it 
is important to understand when I use that word, what I mean by 
it.
    And, it's really a recognition that each of the partners 
has an important and very distinct role to play. It's important 
that we have a mutually respectful relationship in which that 
relationship can be borne out and focused on the accomplishment 
of our job, which is national service.
    I think there are a number of positive actions that can 
take place to move us back towards the partnerships that have 
served the country so well.
    Again, my summary, the country is facing major challenges. 
And we cannot afford, in this environment, to waste a single 
bit of our science and technology and engineering talent on 
bureaucratic inefficiencies.
    I would ask you to think of three things as you summarize 
this hearing.
    We need to work on restoring trust. We need to eliminate 
transactional oversight. And we need to turn over management of 
these institutions to the organizations that were hired to 
manage them.
    Thank you, Mr. Chairman.
    [The prepared statement of Dr. Miller can be found in the 
Appendix on page 80.]
    Mr. Turner. Thank you.
    Ambassador Robinson.

 STATEMENT OF AMB. C. PAUL ROBINSON, DIRECTOR EMERITUS, SANDIA 
                     NATIONAL LABORATORIES

    Dr. Robinson. Thank you very much. It is a pleasure to talk 
about an issue that I have been watching for 45 years----
    There we are. Thank you.
    I've been watching this problem for 45 years and it only 
gets worse. It is a system that is truly broken.
    I would like to start at the beginning.
    When the need for a Manhattan Project was seen--Leslie R. 
Groves, the guy who built the Pentagon, and was at the Army 
Corps of Engineers, was asked to be in charge. They knew it was 
going to be a big project.
    He was given advice by the scientific leaders at the time, 
gee, be careful, Governments have no track record, no positive 
track record whatsoever about handling projects of research and 
development. And particularly anything that requires innovation 
Government will slow it down or block it completely.
    They also wisely decided not to draft all the scientists, 
which was one of the suggestions on the table. But in the end, 
asked if the University of California would manage the 
scientific effort for the Government, and that is the GOCO, 
Government-owned, contractor-operated, was born.
    Now, one of those advisors was James Conant, one of the top 
science advisors to President Truman. He was asked once what 
can our country do to really get those benefits of science from 
the Manhattan Project, and keep them going forward to propel 
our country in the future?
    He said, I think the best thing that we can do is choose 
men and women of brilliance, back them heavily, then leave them 
alone to do their work.
    Now, if there is anything you cannot accuse this system of, 
it is leaving people alone to do their work. The bureaucratic 
obstructions that started as with every 5 or 6 years you could 
see it increasing dramatically under the Atomic Energy 
Commission, until people said, gee, that's just not working.
    It then became, for 3 years, the Energy Research and 
Development Administration, and then the Department of Energy, 
and this latest change was NNSA within the Department of 
Energy.
    How bad has the oversight gotten?
    And, let me use a different word for oversight that is more 
common, I think, at all three labs. The micromanagement is 
killing us.
    And, you're right. People are not ready to do those jobs. 
And the Government keeps growing and growing and growing in 
size.
    Just look at the plod. They outnumber us enormously now. 
And they seek to find roles to keep busy.
    And this is a surprise. I hope you have heard of this. But 
to me it was one of the biggest wake-up calls I ever had when 
my first laboratory director, Harold Agnew, who was a noted 
scientist, rode in with the bombs at Hiroshima.
    He was a physicist trained by Enrico Fermi. He was 
appointed lab director and was going to do it for 10 years.
    He left early and said I am just completely frustrated.
    He said I know you can't fire people anymore, but could you 
please just not let them come to work. And the rate of science 
productivity and the inventions and things that we can harness 
for the security of this country going forward will go up at 
least a factor of three instantly.
    Now that was 30 years ago. It's gotten a whole lot worse 
since. And, I say in my testimony, it is time you have got to 
take a tremendously strong action.
    Bureaucracies never reform themselves. The cost structure 
is just enormous for all the overhead activities.
    You are required to do what-if exercises before you can do 
anything. And, it is frustrating.
    Now, I am pleased to tell you we hit on a wonderful way to 
make sure we are still hiring the best people. We have the 
professors at the best colleges, 33 strategic universities, 
finding the best students for us and saying, gee, you know, you 
need to come to Sandia and work.
    And, we bring them in. And, they cannot believe the 
constraints that they are being asked to work under.
    I believe--well, one of the big reports that you can now 
read online was ``Science the Endless Frontier,'' which was 
written to summarize after World War II all the great science 
that had been done and accomplished, including in the Manhattan 
Project.
    It said we've got to pay attention to frontier science and 
move it forward if the country is going to maintain its lead.
    Things are at stake over what's been allowed to happen. 
And, I agree with these gentlemen. I think we are going to lose 
the capability overall unless major changes come.
    I suggested to you the time when it flourished the best, it 
was under the Department of War, now the Department of Defense. 
They cared about what the answer was, the missions. They are 
the people who have to use those weapons that we design.
    They cared about the answer. No one in the present system 
seems to care about the mission.
    It is, How are you doing all of your trivial chores? That's 
what we want to look at.
    I believe that it is time to move it to the Department of 
Defense, which is now a civilian institution which was the 
reason it was not placed there originally. And, we have had 60 
years of it being a civilian institution. And, I believe the 
change in leadership would be dramatic enough to stop this 
nonsense and get us on a better path.
    Thank you.
    [The statement of Dr. Robinson can be found in the Appendix 
on page 91.]
    Mr. Turner. Well, thank you all for being frank and 
specifically, the ambassador for his passion there at the end.
    And Dr. Miller, when you presented your testimony you said, 
``presently the NNSA laboratories are under severe stress in 
their ability to perform their vital missions because they are 
substantially and increasingly constrained by the manner in 
which Federal management and oversight is implemented.
    I believe the impact is well in excess of hundreds of 
millions of dollars of work per year across the complex.''
    A 2001 study by DOE's Lawrence Berkeley National Lab 
suggested that implementing streamlining of administrative and 
operational requirements would allow labor reductions and cost 
avoidances between 10 percent and 30 percent in net resource 
savings would be realized. The resources saved in 
administrative and operational support areas could be 
immediately applied to critical mission and institutional 
needs.
    This is serious money. And, the money could be going to 
accomplish the mission as all three of you are focusing on.
    Can you give examples of where you might find these cost 
savings?
    What do you think Congress could do to change these 
inefficiencies and what do our other witnesses think?
    I think it is so important that--and when you guys were 
giving your descriptions, you keep going to the issue of the 
mission. You know, everyone is for environmental safety. 
Everyone is for security and safety in the processes.
    But, innovation and the mission is what is so important. 
And, if we are focusing on one or the other, we are certainly 
costing the ability for innovation.
    Perhaps, we could begin with Dr. Anastasio.
    Ideas of efficiencies, cost savings, and other items that 
you might wish to identify. We are seriously looking at a to-do 
list for this upcoming bill. And, your participation is so 
important.
    Dr. Anastasio. Well, Thank you, Mr. Chairman.
    I would suggest, my experience in the laboratory, when I 
tried to do this internally because of course the laboratories 
suffer from bureaucracies just like everyone else, and to try 
to meet that challenge internally.
    I found that the only way to attack this problem is to 
reduce the budgets--reduce the dollars available to do indirect 
activities.
    And you have to enforce that by reducing the number of 
people who are doing that. You can't just take the money away, 
because then the people have to go do something else. And they 
will find another way to--
    So, it is really--reduce the budget and number of people 
who are engaged in oversight and indirect activities. That 
doesn't mean not do oversight, because I agree with Mr. Aloise 
that doing oversight a different way is what we really need to 
do.
    And, not transactional as we have all said, but do it in a 
performance-based way. And, there are plenty of accountability 
mechanisms in place already with our new contracts to hold us 
accountable, because we should be accountable.
    But, do it in a way that doesn't audit every--and there is 
just so many examples of counterproductive things.
    When we had a computer--security problems at Los Alamos, 
one net result is for many tens of computer systems, we had to 
write many, many hundreds of pages of security plans on how we 
are going to protect those systems.
    And, we spent 18 months writing thousands of pages of 
documentation. And at the same time, the security threat as we 
all read in the newspaper from cyber is changing every hour.
    So, how could 18 months' worth of paper, you know, make you 
more secure? Actually, it makes you less secure because the 
people who are writing the documents should be the one who are 
figuring out how to protect us.
    Mr. Turner. Dr. Miller, anything you want to add to your 
previous comment?
    Dr. Miller. Yes, again, I think this is a terribly 
important issue. I agree very much with Mike's comments. And 
they are echoed in my written testimony.
    Again, the example that I use is the integrated number of 
Federal onsite--the integrated Federal onsite presence across 
the complex. If you compare that to any other Federal model, 
you know, Jet Propulsion Lab, applied physics lab at Johns 
Hopkins, you know, the way the Navy Strategic Security Program 
operates their plants, which do high explosives.
    I mean, that is where the huge leverage is in my mind.
    And the way you do it is again, as I suggest, for many of 
our activities the core environmental activities, the core 
safety programs, the core quality programs, there are 
international standards to which every business in this 
country, that wants to really stay in business, that's the way 
they operate.
    And they are process-oriented, rather than transactionally 
oriented ways of doing oversight.
    Mr. Turner. Ambassador.
    Dr. Robinson. Let me take on the example of safety as well.
    You would think that the labs must be bad performers in 
safety. That's not the case.
    All of the labs have had excellent overall statistics. They 
would rank better than any industrial organization in similar 
work.
    And so you ask, well, why is the Department of Energy, 
which kept safety--as I say in my testimony that was a direct 
violation of the NNSA legislation which said nothing was 
supposed to be governed directly from DOE, but through NNSA.
    Safety and security organizations were never given the 
responsibility of NNSA, but people, not even associated with 
the mission do that.
    Now, the costs of doing safety are enormous. But yet the 
attention that one would get if you were out in industry or at 
university would be very, very little because your performance 
was so good.
    So, performance statistics ought to be driving what level 
of oversight you have earned. It does not within the current 
system.
    And, the costs go up, not only the costs for doing safety 
which is an end in itself within the Department of Energy, but 
the lost time of people having to--before they can take any 
experimental action, writing for months.
    I did have one other mental picture I wanted you to carry 
away. When we put all of the Department of Energy rules and 
orders together in a bookshelf--they are bound in documents--it 
was four shelves high and four feet wide of thousands and 
thousands and thousands of pages.
    And we challenge anyone to open up at random, as many times 
as they would like, and read and see if you thought anything 
contributed to safety from all the effort that had been put 
together in writing those rules and orders.
    Mr. Turner. Thank you. That is great, I think, 
visualization of part of the problem.
    Dr. Anastasio, your statement mentions the Defense Nuclear 
Facilities Safety Board, DNFSB, as contributing to the 
burdensome oversight of the NNSA enterprise.
    Would you please explain how could we ensure that DNFSB is 
able to conduct thorough effective and value-added safety 
oversight of nuclear enterprise?
    And, what other thoughts do you have with respect to how to 
remedy that obvious problem?
    Dr. Anastasio. I think a simple idea in my mind for whether 
it is the DNFSB, or NNSA itself, or DOE, or anybody else who's 
imposing new requirements, that we ought to require that those 
requirements are accompanied ahead of time with a cost benefit 
analysis.
    Which is, okay, so there is no--everybody is going to want 
better security or better safety and so forth. But a question 
is how do you balance that risk against the risk of not being 
able to accomplish a mission, but a risk of losing the science 
capability to do your future work.
    So, those are all risks that are all important. And so, a 
good manager, and an effective organization, has to balance all 
those risks against each other. And you have to keep them in 
balance. That's what a lab director has to do as well as 
anybody else that runs and organization.
    And so, you have to go evaluate to make a change here, how 
does that affect everything else that goes on? And how do I 
keep all these things in balance?
    And right now, the system we have is the people who are 
looking at the operational issues, whether it is the Defense 
Board or anybody else, you know, are not required to look at 
that balance. They are just required to focus on the one issue 
that they are responsible for.
    And to get that integrated view of the balance, that is the 
thing that is missing. So, requiring some kind of cost benefit 
study, it's not just about dollars.
    But to force the system to think, what are the impacts? Is 
it worth this extra bit of safety to have this other impact on 
my effectiveness on executing the program?
    Mr. Turner. No, I appreciate--one of the things that we can 
never quite capture in a cost benefit analysis is an 
``innovation lost cost.'' Because the----
    Dr. Anastasio. And if that--excuse me, Mr. Chairman, and if 
that was in a--you know, we don't do the cost benefit at all.
    Mr. Turner. Right. Right.
    Dr. Anastasio. And so----
    Mr. Turner. Right, so, on a cost----
    Dr. Anastasio [continuing]. Following down that path in my 
mind would----
    Mr. Turner. Right----
    Dr. Anastasio [continuing]. Be something that would be 
useful.
    Mr. Turner. We want our brilliant people to be doing 
brilliant things, not menial tasks as you have all been 
pointing out.
    And, I know that that is part of what you have nurtured as 
directors. And, we certainly hope to use your expertise so that 
we can unleash that innovation once again.
    Turning then to Mr. Larsen.
    Mr. Larsen. Thank you, Mr. Chairman.
    I'll just have a few questions and head over to the Navy 
Posture hearing here in a few minutes.
    So, I won't take my 3 minutes or 5 minutes to whatever we 
have, but thanks for coming. It is good to see you all again, 
even in this circumstance.
    I would note that it was said earlier that there is no 
morale crisis at--the previous panel said they, in the report, 
found no morale crisis at the labs despite the increasing 
costs.
    I can tell you the increasing cost causes me a morale 
crisis. And so, we will have to hopefully look into that.
    Yeah, one of the basic questions has to do with the 
management structure. Again, we have dealt with this in the 
last 2 years or 3 years, so our last--really focused our 
hearings on this.
    The NAS didn't seem to, you know, didn't seem to say you 
needed necessarily to change the management structure, the one 
we have been struggling with. Is that part of the issue here or 
not?
    Or is it changes within it that need to be----
    Dr. Miller. Yeah, I mean, I think that each of the 
different management structures that you can consider 
autonomous--semi-autonomous would have an agency (?).
    Each one of those has strengths and weaknesses which I know 
that you will carefully consider.
    My view, the fundamental issue is the one we have been 
discussing. And that is the internal relationship, you know, 
which we have characterized as trust. That is the fundamental 
issue.
    If you have that, in my view, any of the relationships can 
be made to work.
    Mr. Larsen. Yeah.
    Dr. Anastasio. My view also is that we talk about trust. I 
would like to use a different term which is behaviors. It is 
about the behaviors of people.
    And, I think the National Academy pointed out, if you read 
the contracts we have, the new contracts----
    Mr. Larsen. Right.
    Dr. Anastasio. There is nothing egregious in those 
contracts. It is the way that the people who are involved 
interpret what the contract says.
    And, they use that interpretation. And it is the behaviors 
of the people that drive behaviors in the workforce inside the 
laboratory who become risk-averse as well.
    And so, it just compounds itself. And, that is the source 
of the problem.
    So, you have to find a way to change the behaviors of 
people. And, if you can't do that, the structural changes are 
not going to matter. In effect, they will hurt things because I 
went through a process at Los Alamos of changing contracts. And 
let me say, that was very distracting to the workforce.
    You know, it was very distracting to our ability to 
accomplish missions. So, going through that change someone else 
can evaluate whether that was the right or the wrong thing to 
do.
    But let me say, it was very disruptive. And, it took 
several years for us to get focus back on the fundamental 
issues.
    So, if you go through change, you better be sure that the 
outcome is going to be worth, you know, the disruption that it 
causes.
    And for me, unless you tackle the behavioral issues of 
everybody--and it is not what the leadership says only, it is 
how does that leadership commitment translated down to the 
workforce at the working level, and is there alignment of that 
whole organization----
    Mr. Larsen. Yes.
    Dr. Anastasio [continuing]. To accomplish the same thing. 
That behavioral part is key to making these kinds of changes.
    Mr. Larsen. I will just note Ambassador Robinson's 
testimony is very clear in seeking a full change in the 
management structure, and taking it out of DOE, putting it into 
DOD as an independent agency.
    So, I will leave it at that.
    And just one last question: One of the recommendations is 
to rebalance the relationship, sets of principles, and laying 
them out in an MOU [Memorandum of Understanding] between NNSA 
and its laboratories.
    Does something like that not exist now?
    Is there not a defining document that says this is how we 
will relate to each other?
    Dr. Anastasio. Not that I am aware of.
    Mr. Larsen. Would it be helpful?
    Dr. Anastasio. I think it's important to have, as Dr. 
Miller said, clear sense of roles and responsibilities that 
each of us have.
    You know, what is our job? What am I supposed to do? What 
are my authorities?
    What are my responsibilities for as a lab director, as a 
Federal workforce and so forth, and have that clear and then 
hold each other accountable to carry that out.
    I think that is very worthwhile.
    I think it is also true with Congress. And, how is that 
relationship with Congress? And, what are each of our roles?
    And, I would harken back to a comment someone else made 
earlier which is the number of budget control levels are also 
restricting our ability to be effective managers at the sites 
because budgets are developed at best 18 months ahead of time 
before you get the budget.
    Priorities clearly change in that period of time. And yet, 
it is very hard for us to respond to those changes in 
priorities. So, there is a number of issues like that.
    Mr. Larsen. Thank you, Mr. Chairman.
    Mr. Turner. Gentlemen, before we end the hearing, I have 
one more question that I would like to ask of you that if you 
would please answer in writing in the next week or so to our 
committee staff. And we'll, of course, provide it to you in 
writing also, but to include it in the record.
    Many studies and reports over the past 10 years, including 
the 2009 Strategic Posture Commission, recommended eliminating 
duplicative NNSA and DOE regulation of any lab functions that 
are already regulated by external bodies, such as health and 
occupation safety, by the Occupational Health and Safety 
Administration, OSHA, and letting these external bodies 
regulate and oversee those regulations.
    I would like to know if you agree, if you see cost savings 
that might be realized by such a move.
    Why hasn't this done before now?
    And is there anything else that in that question that you 
see in your insight, that we need to know and take into 
consideration?
    I would like to thank both our first and second panel, both 
for your commitment and dedication to these issues, your time 
today, and what I am sure will be a continued dialogue as we 
try to struggle with this issue in looking to put together this 
year's National Defense Authorization Act where we hope to have 
provisions that relate to this issue with your assistance.
    Thank you all.
    [Whereupon, at 12:55 p.m., the subcommittee was adjourned.]
      
=======================================================================

                            A P P E N D I X

                           February 16, 2012

      
=======================================================================

              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           February 16, 2012

=======================================================================
      
                    Statement of Hon. Michael Turner

            Chairman, House Subcommittee on Strategic Forces

                               Hearing on

          Governance, Oversight, and Management of the Nuclear

          Security Enterprise To Ensure High Quality Science,

          Engineering, and Mission Effectiveness in an Age of

                               Austerity

                           February 16, 2012

    Good morning. I want to welcome everyone to today's hearing 
on Governance, Management, and Oversight of the Nuclear 
Security Enterprise in an Age of Austerity.
    Everyone here knows that this is a very busy week on 
Capitol Hill: budget request week. This hearing is not like 
most of the hearings that are taking place this week, in that 
it isn't looking directly at a particular agency's fiscal year 
2013 budget request. However, it is a hearing that has major 
implications for the future of the National Nuclear Security 
Administration (NNSA) and, therefore, its budget. This hearing 
will examine long-standing, well-documented, and fundamental 
concerns with the way NNSA manages its labs and plants--
problems that are unnecessarily costing taxpayers many hundreds 
of millions of dollars each year and impeding NNSA's ability to 
accomplish its mission. In today's fiscal environment we cannot 
afford such inefficiency and waste--particularly when we're 
seeing major cuts to the pledged nuclear modernization funding 
in this year's budget request.
    In 1999, Congress passed the NNSA Act, which broke out NNSA 
as a ``semi-autonomous'' agency within the Department of Energy 
(DOE). Driven by this subcommittee--and in particular by my 
friends Mac Thornberry and Ellen Tauscher--this legislation 
sought to address major mismanagement and security problems at 
DOE. In particular, a 1999 report by the President's Foreign 
Intelligence Advisory Board spurred Congress into action, 
saying DOE was a ``dysfunctional bureaucracy that has proven it 
is incapable of reforming itself.''
    An earlier report by the Galvin Commission ``revealed a 
counterproductive Federal system of operation'' for DOE's 
national labs, saying ``the current system of governance of 
these laboratories is broken and should be replaced with a bold 
alternative.'' The Galvin Commission noted that problems 
included ``increased overhead cost, poor morale, and gross 
inefficiencies as a result of overly prescriptive Congressional 
management and excessive oversight by the Department,'' and 
``inordinate internal focus at every level of these 
laboratories on compliance issues and questions of management 
processes, which takes a major toll on research performance.''
    NNSA was created to address these problems and enable the 
nuclear security enterprise to be more effective, more focused, 
and more efficient. Twelve years after the creation of NNSA, 
the question for this hearing is: Has it worked? Have these 
problems been addressed?
    To prepare for this hearing, I asked the committee staff to 
put together an overview of the many reports in the past 10 
years that have examined NNSA's management and governance of 
its labs and plants. It's not an exhaustive list, but it is 
illustrative of what various assessments have found over the 
decade NNSA has been in existence. I ask that the hearing memo 
prepared by the staff be entered into the record.
    I want to quote from just a few of these myriad studies the 
staff reviewed. Here's a finding from a 2009 assessment by the 
Stimson Center, which was paid for by NNSA itself:

         L``The implementation of the NNSA Act failed to 
        achieve the intended autonomy for NNSA within the 
        Department of Energy. The Labs now must operate within 
        a complicated set of bureaucratic relationships with 
        both DOE and NNSA. An excessively bureaucratic DOE 
        culture has infiltrated NNSA as well.''

    And here are a few quotes from the bipartisan Strategic 
Posture Commission's report in 2009:

         L`` . . . the governance structure of the NNSA is not 
        delivering the needed results. This governance 
        structure should be changed . . . In [the Commission's] 
        view, the original intent of the legislation creating 
        the NNSA has not been realized. The desired autonomy 
        has not come into being. It is time to consider 
        fundamental changes.''

         L``Despite the efforts of thousands of dedicated and 
        competent civil servants, Federal oversight of the 
        weapons enterprise needs significant improvement . . . 
        The NNSA was formed to improve management of the 
        weapons program and to shelter that program from what 
        was perceived as a welter of confusing and 
        contradictory DOE directives, policies, and procedures. 
        Despite some success, the NNSA has failed to meet the 
        hopes of its founders. Indeed, it may have become part 
        of the problem, adopting the same micromanagement and 
        unnecessary and obtrusive oversight that it was created 
        to eliminate . . . ''

         L``The leadership of all three weapons laboratories 
        believes that the regulatory burden is excessive, a 
        view endorsed by the Commission. That burden imposes a 
        significant cost and less heavy-handed oversight would 
        bring real benefits . . . ''

    Reading these reports, the pointed criticisms about 
excessive, ineffective, and unnecessary bureaucratic processes 
and confused and redundant management relationships sound 
eerily similar to the reports that spurred the creation of NNSA 
in 1999. So the answer to my earlier rhetorical question 
appears to be: ``No, NNSA hasn't worked as intended, and many 
of the same problems remain.''
    But we have our witnesses here today to help us understand 
if that answer is correct. On our first panel, we have 
gentlemen representing two distinguished organizations that 
have spent considerable time examining NNSA management and 
oversight of the nuclear security enterprise. They are:

         Dr. Charles Shank
                <bullet> LCo-Chair, National Academies Panel on 
                Managing for High Quality Science and 
                Engineering at the NNSA National Security 
                Laboratories
                <bullet> LSenior Fellow, Howard Hughes Medical 
                Institute

         The Honorable Charles B. Curtis
                <bullet> LMember, National Academies Panel on 
                Managing for High Quality Science and 
                Engineering at the NNSA National Security 
                Laboratories
                <bullet> LSenior Advisor, Center for Strategic 
                and International Studies
                <bullet> LPresident Emeritus and Board Member, 
                Nuclear Threat Initiative
                <bullet> LFormer Deputy Secretary of Energy, 
                1994-1997

         Mr. Eugene Aloise
                <bullet> LDirector, Natural Resources and 
                Environment, Government Accountability Office

    Dr. Shank and Secretary Curtis are here to present the 
results of a National Academies of Science study that was 
mandated by this subcommittee in the FY2010 National Defense 
Authorization Act. In the conference report accompanying that 
bill, the conferees explained that the study should provide 
``an even-handed, unbiased assessment of the quality of the 
scientific research and engineering'' at the labs and an 
assessment of the ``factors that influence'' such quality. I 
understand that the portion of the study that was recently 
completed--and that we'll be discussing today--focuses on the 
latter: management-related factors that influence the quality 
of science and engineering at the labs.
    I will let Dr. Shank and Mr. Curtis speak to their report, 
but I want to highlight a few of their study committee's 
findings:

         L``In the view of this committee, the relationship 
        between NNSA and its [labs] is broken to an extent that 
        very seriously affects the Labs' capability to manage 
        for quality science and engineering. There has been a 
        breakdown of trust and an erosion of the partnering 
        between the Laboratories and NNSA to solve complex 
        science and engineering problems; there is conflict and 
        confusion over management roles and responsibilities of 
        organizations and individuals.''

    The National Academies' report also finds that the level of 
detailed, transactional-level management and oversight that 
NNSA applies to the labs is causing significant inefficiencies 
and risking the quality of science and engineering at the labs, 
saying:

         L``There is a perception . . . at the three 
        Laboratories that NNSA has moved from partnering with 
        the Laboratories to solve scientific and engineering 
        problems, to assigning tasks and specific science and 
        engineering solutions with detailed implementation 
        instructions. This approach precludes taking full 
        advantage of the intellectual and management skills 
        that taxpayer dollars have purchased. The study 
        committee found similar issues in transactional 
        oversight of safety, business, security and operations. 
        Science and engineering quality is at risk . . . ''

    Our first panel of witnesses also features Mr. Eugene 
Aloise from GAO. Mr. Aloise and GAO have spent decades 
examining NNSA and DOE Defense Programs before it. I understand 
GAO continues to have major concerns about the inconsistency 
and inaccuracy of NNSA's management and cost data across the 
enterprise. I hope you will help us understand what is causing 
these chronic problems and what actions NNSA or Congress could 
take to address them.
    Finally, our second witness panel is comprised of three 
former directors of the NNSA laboratories, who have been asked 
to share their direct experiences leading and managing the 
organizations responsible for carrying out NNSA's mission 
within the management and oversight processes, procedures, and 
structures set up by the Federal Government. They are:

         Dr. Michael R. Anastasio
                <bullet> LDirector Emeritus, Los Alamos 
                National Laboratory
                <bullet> LDirector Emeritus, Lawrence Livermore 
                National Laboratory

         Dr. George H. Miller
                <bullet> LDirector Emeritus, Lawrence Livermore 
                National Laboratory

         Ambassador C. Paul Robinson
                <bullet> LDirector Emeritus, Sandia National 
                Laboratories

    These gentlemen bring a wealth of experience to our witness 
table, and I hope they will share that experience by reflecting 
on the findings and recommendations of the National Academies 
report and the GAO. I also hope they will share any concrete, 
actionable recommendations they have for improving governance 
and management of the labs.
    Let me say that we all need to recognize that, alone, 
simply moving boxes on an organizational chart isn't going to 
resolve these problems. It is going to take leadership, both 
within the Administration and up here on Capitol Hill--as well 
as a consensus on why NNSA's mission is so important and what 
needs to be done to move forward. Ranking Member Sanchez and I 
have agreed to take a hard look at these issues over the next 
few months and work together to help address the concerns of 
the National Academies study group, the Strategic Posture 
Commission, and all of the
others.
    Thank you to all of our witnesses for joining us today--we 
look forward to the discussion.

            Statement of Hon. James R. Langevin on Behalf of

                 Hon. Loretta Sanchez, Ranking Member,

                 House Subcommittee on Strategic Forces

                               Hearing on

          Governance, Oversight, and Management of the Nuclear

          Security Enterprise To Ensure High Quality Science,

          Engineering, and Mission Effectiveness in an Age of

                               Austerity

                           February 16, 2012

    I would like to join Chairman Turner in welcoming our 
witnesses, Dr. Shank, The Honorable Charlie Curtis, Mr. Aloise, 
Dr. Anastasio, Dr. Miller, and Ambassador Robinson.
    I am also pleased that statements from Ambassador Brooks 
and Dr. Sieg Hecker, and the letter from Dr. Colvin and Dr. 
Logan on behalf of the University Professional and Technical 
Employees union are submitted for the record.
    The impetus for the FY2010 National Defense Authorization's 
request for this National Academy of Sciences Study was concern 
about safety issues and about the effects of the privatization 
of lab management at Los Alamos National Laboratories and 
Lawrence Livermore National Laboratory.
    Specifically, members were concerned that increased costs 
of management fees and taxes and other associated costs might 
have decreased resources for programmatic work and affected 
morale.
    In its version of the bill, the House sought a GAO study to 
assess the costs of the transition and the impacts on lab 
management and lab functions, including safety, security, and 
environmental management. The final conference report included 
an NAS study of broader scope that would examine whether the 
excellence in science and engineering was being preserved at 
the labs.
    This study now comes over 10 years after the NNSA was 
created and several years after a change in contracting 
structure for the labs, and offers an opportunity to assess the 
quality of science and management after a period of adjustment 
to the new contracting structure. It also comes in the context 
of strategy based on an updated Nuclear Posture Review and the 
constraints of the fiscal
crisis.
    Today, I hope to hear your insights to inform our oversight 
and ensure that we retain the unique skills and capability upon 
which our nuclear deterrent and nonproliferation efforts 
depend.
    I would like to touch on three important points:

         (1) Lthe need for an effective contract structure, 
        governance and management that help attract and retain 
        the quality of scientists and engineers dedicated to 
        public service who underpin a safe, secure and reliable 
        arsenal and contribute the expertise behind successful 
        nonproliferation
        efforts;

         (2) Lthe need for a process that ensures safety for 
        workers and the public; and

         (3) Lthe need for transparency, accountability, and 
        clear lines of authority.

    First, safety, security, and reliability of nuclear weapons 
depend on critical scientific skills, and our labs must be able 
to attract some of the Nation's best scientists who want to 
serve their
country.
    Maintaining this expertise demands an interesting and 
important mission, challenging work, good equipment and tools, 
and high morale, including a supportive work environment where 
scientists are valued and recognized. And so I would like to 
explore these questions:

        <bullet> LDoes the current structure and oversight 
        provide clear expectations while enabling effective 
        research, including hypothesis-driven science?

        <bullet> LDoes it enable diverging views on potential 
        technical solutions?

        <bullet> LDoes it provide stability in employment and 
        opportunities for collaboration and success?

    Mission success also demands a work environment that is 
safe for employees and for the public, which brings me to my 
second point.
    This management and oversight responsibility of nuclear 
weapons research, sustainment, and production cannot be 
compromised. Accidents can and do happen, including low-
probability, high-consequence events.
    No one expected the massive earthquake and tsunami at the 
Fukushima Daichi power plant in Japan, or the BP Deepwater 
Horizon explosion.
    The reactor accidents at Savannah River Site that were 
hidden from the public for over 30 years, the environmental 
conditions which led to the raid and permanent shutdown of 
Rocky Flats and the classified data scandals that rocked Los 
Alamos all resulted in part from a structure of flexible 
requirements and minimal Federal oversight. Meanwhile, the 
Department of Labor has now approved more than 64,000 cases 
submitted to the Energy Employee Occupational Illness Program 
for radiation exposure, and has paid out more than $6.7 billion 
in compensation benefits.
    Chairman Turner, our Committee members and I are committed 
to the success of NNSA, the nuclear complex and its National 
Security mission. However, I fear that a nuclear accident, even 
a minor one, would have significant repercussions on the future 
of the nuclear weapons complex. That is a consequence that we 
would all like to avoid.
    Third, in an era of budget constraints, we must seek 
opportunities for improving efficiency across the complex, as 
required, for example, in section 3123 of the FY2012 National 
Defense Authorization Act, but also in terms of effective 
management.
    With $7.2 billion appropriated for weapons activities in 
FY12 and a $7.6 billion request for FY13, improving 
accountability and ensuring effective governance must be a 
priority.

        <bullet> LAre there clear lines of authority?

        <bullet> LDoes NNSA have sufficient subject matter 
        expertise and consistent data necessary to effectively 
        assess performance across the complex?

        <bullet> LIs there sufficient accountability within 
        NNSA and from the contractors at the labs?

        <bullet> LIs the structure set up to incentivize 
        savings, maximize investment in programmatic work, 
        perform realistic cost assessments and planning to 
        avoid cost escalation and schedule delays, set 
        priorities, and enable competition?

    In this context, I would like to add that I am pleased that 
the Department of Energy recently decided to resume the 
practice of making performance evaluations of the labs public, 
increasing transparency and accountability.
    I look forward to the discussion today.
    Thank you, Mr. Chairman.

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      
=======================================================================

                   DOCUMENTS SUBMITTED FOR THE RECORD

                           February 16, 2012

=======================================================================

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
=======================================================================

              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                           February 16, 2012

=======================================================================
      
                   QUESTIONS SUBMITTED BY MR. TURNER

    Mr. Turner. 1) The NAS study committee said it had examined many 
previous reports and efforts to fix the management relationship. We've 
seen dozens of reports in the past two decades talking about the broken 
management structure, first between DOE and the labs, then between NNSA 
and the labs. What needs to happen to see real, concrete changes that 
address these recurring problems? Fundamentally, can this problem be 
fixed? What steps should Congress take?
    Dr. Shank. 1) If we look back at the time when the Laboratories 
worked best we can see the elements for that success. First, we must 
acknowledge that we need the best minds that we can find to assure the 
Nation's nuclear deterrent. The GOCO model has brought the skills and 
talents of Industry and Universities to partner with the Government to 
address the challenges that define the mission of the Laboratories. 
This partnership is fundamentally different than a Government contract 
to provide a service for a fee. Clearly defining roles and 
responsibilities is the key to making this partnership work. The 
Government defines what needs to be done, provides the funding and the 
oversight. The contractor provides the skills and capabilities that 
address how the work is to be done. When NNSA moves to highly 
prescriptive work assignments, it violates the partnering arrangement. 
Disputes between the NNSA and the Laboratories often go unresolved due 
to the sensitive nature of the work. In our report we proposed the 
formation of a committee of knowledgeable individuals to help resolve 
issues of roles, responsibilities and scientific conflict.
    I believe the problem can be fixed. First, Congress and the NNSA 
could take a major step in fixing this situation by clearly defining 
roles and responsibilities and maintaining an interest in how this is 
working in the Laboratories. Second, by moving to national standards, 
as described in the answer to Question 7 [Now Question 99], much of the 
problem of trust and cost effect oversight of operations could be 
accomplished.
    Mr. Turner. 2) The NAS report notes that the ``evolution'' of the 
labs from nuclear weapons labs to ``national security labs'' with a 
broader mission set is well under way. The report says that expansion 
of the labs' missions to new arenas ``offers the prospect of increasing 
the Laboratories' appeal to top-quality scientists and engineers while 
also serving important national security missions. Thus, the quality of 
science and engineering, being preconditioned on attracting high-
quality people, depends in the long run on successfully making this 
transition to National Security Laboratories.''
    <bullet>  Does the NAS believe the governance and management 
structure for the labs is set up to facilitate this expansion into new, 
non-nuclear work? How should it be changed to better enable this 
broader mission?
    <bullet>  Does NAS believe expansion into these new work areas will 
cause the labs to ``take their eyes off the ball''--distract them from 
their core mission of sustaining the nuclear weapons stockpile?
    <bullet>  How does this ``Work for Others'' (the labs working on 
programs not directly related to the nuclear weapons mission) support 
or detract from the mission of nuclear stockpile stewardship?
    Dr. Shank. 2) Our report clearly states that the core mission of 
these Laboratories is maintaining the nuclear deterrent. The complexity 
of this task has increased over the years. The Laboratories can no 
longer afford to maintain the full range of capabilities to execute 
this mission. At the same time the Laboratories have created a number 
of unique capabilities that can be quite useful in solving a broad 
range of national problems while maintaining the skill necessary to 
support the core mission. Each of the laboratory directors made a very 
clear statement that sustaining the nuclear weapons stockpile is the 
core mission and will remain so, even with the opportunity to work on 
other problems. Some of the Laboratories already have a significant 
portfolio of work for others that support the core mission. In a world 
of constrained resources, the broader national security work will be an 
essential part of supporting the core mission.
    Mr. Turner. 3) Your National Academies of Science report says that 
the relationship between the labs and NNSA has strayed from the 
original intent of the labs as federally funded research and 
development centers (FFRDC) that are operated through a ``Government-
owned, contractor-operated'' model. Basically, while the letter of the 
model is still in place, the spirit and the intent of the model have 
been abandoned. Today, Federal employees are being very prescriptive on 
``how'' the labs should carry out their work.
    <bullet>  The National Academies implies that there are 
inefficiencies in this management approach, saying ``this approach 
precludes taking full advantage of the intellectual and management 
skills that taxpayer dollars have purchased.'' How should we address 
these inefficiencies? What should Congress do?
    <bullet>  The FFRDC construct was created to allow the Federal 
Government to broadly determine ``what'' work needs to be done while 
the FFRDC (i.e., the lab) determines ``how'' to accomplish the work. 
Does NNSA's current management and governance model for the labs 
operate in this fashion?
    <bullet>  Federal Procurement Policy guidelines (OFPP Policy Letter 
84-1) say that the Federal Government's monitoring of FFRDC performance 
``shall not be as . . . to cause disruptions that are detrimental to 
the productivity and/or quality to the FFRDC's work.'' Does the NAS 
study group believe NNSA's current management and governance model for 
the labs operates in the spirit and intent of the FFRDC model? Why or 
why not?
    Dr. Shank. 3) I have addressed much of the answer to this question 
in Question 14 [Now Question 1]. In our report, we point out that roles 
and responsibilities have deteriorated to the point that oversight and 
operations are blurred. In some cases detailed prescriptions on how to 
do the work are given to the Laboratories by the same people doing 
oversight. In our report, we made recommendations of how Congress could 
track and maintain a concern about this issue.
    Mr. Turner. 4) The National Academies study group found ``issues in 
transactional oversight of safety, business, security, and operations. 
Science and engineering quality is at risk when Laboratory scientists 
and engineers are not encouraged to bring forth their creative ideas in 
partnership with NNSA to solve problems vital to our national 
security.'' Is the ``transactional oversight of safety, business, 
security, and operations,'' noted by the National Academies report 
needed? Is it adding value? Should it be reduced, or modified in some 
fashion? How? What should NNSA's role be in governing the labs? What 
should the contractor's role be?
    Dr. Shank. 4) Oversight is an important responsibility of the NNSA. 
When public money is being spent, it is important that an oversight 
process be in place to give the public confidence that work is being 
done in an economical, safe and environmentally sound manner. In the 
paragraph below I have reproduced part of the answer to Question 7 [Now 
Question 99].
    There is a small fraction of the work at the Laboratories where a 
failure would have a high consequence and therefore require a high 
degree of operational formality. The rest of the work looks like work 
done in a typical industrial environment. I believe that necessary 
oversight could be done in manner accomplished by other similar 
institutions. There are widely accepted systems and standards for 
overseeing safety, finance, human resources and facility operations. A 
straightforward approach would be for the Laboratories to qualify 
systems in each of the operational areas. Then, a vastly reduced number 
of people could audit the systems. A major barrier to accomplishing 
something like this is to realize that maintaining the current 
oversight apparatus in tact, which has been sized for transactional 
oversight, will prevent any of the advantages to ensue. Another concern 
is that a new approach needs to be created with the idea there will be 
failures in the future and that whatever system in place must be 
resilient to single point failures.
    In the above model, the role of the contractor is to assure the 
maintenance of auditable systems for laboratory operations and to 
partner with the NNSA to execute mission work where roles and 
responsibilities of the lab and NNSA oversight and program direction 
are clearly delineated.
    Mr. Turner. 5) The NAS study committee recommends that ``NNSA, 
Congress, and top management of the Laboratories recognize that safety 
and security systems at the Laboratories have been strengthened to the 
point where they no longer need special attention. NNSA and Laboratory 
management should explore ways by which the administrative, safety, and 
security costs can be reduced, so that they not impose an excessive 
burden on essential science and engineering activities.'' What 
specific, concrete actions should Congress take to address this 
recommendation by the NAS?
    Dr. Shank. 5) The improvement in operational performance is 
apparent for all the Laboratories although most dramatically at the Los 
Alamos Laboratory. The time has arrived where oversight can now move to 
a systems approach described in the answer to Question 7 [Now Question 
99]. The benefits could be significant in terms of cost effectiveness 
and performance in accomplishing the mission.
    Mr. Turner. 6) Some current and former employees of the national 
labs have expressed concern to this committee that, since required by 
Congress in 2004, the labs are now managed to incentivize their 
managing and operating contractors with fee or profit motive--and that 
this is harming their ability to do world-class research and that the 
labs have shifted away from their original public service culture and 
motivation. But the National Academies report finds that the 
bureaucratic frustrations that are affecting all levels within the 
labs, ``are not traceable to the M&O contractor or the contracts 
themselves,'' and found that the lab directors' ``primary objective 
remains to manage the Laboratories in the public interest.''
    <bullet>  Does the National Academies study committee believe that 
the labs can do public service-oriented, world-class research under 
their current governance-, contract-, and fee-structure? Does the study 
committee recommend any changes in the contracting approach?
    <bullet>  Do the lab directors need to communicate their public 
service motivations more clearly and consistently to lab employees? Is 
this a communications and leadership problem, or something deeper?
    <bullet>  Are such sentiments--that the for-profit motive is 
harming the labs--pervasive throughout the workforce at the labs, or do 
strong public service sentiments still exist?
    Dr. Shank. 6) Our committee took the issue of private versus public 
contractors and the influence of increased fee following the 
Congressional action in 2004 very seriously. We sought out and listened 
to current and former employees of the Laboratories. One lab, Sandia 
has been managed by a private entity since its inception. The other two 
labs are now run by LLC's. Other than increased fee, the pre and post 
2004 contracts are very nearly the same. We asked the NNSA if the 
increased fee drove behavior in a way the public interest was at risk. 
The answer was no. We asked the laboratory directors whether fee drove 
their management decisions and they emphatically said no. We looked at 
turnover of the laboratory population and found that it is about 4% 
annually and that is unchanged before and after 2004. We talked with 
all levels of management and bench scientists to determine whether 
specific concerns could be traced to the contract change. We could find 
none. We did find the formation of the LLC cost each of the labs about 
$100 million dollars. We did find that at about the same time that the 
contracts changed there were modifications to the benefits of all the 
Laboratories including the LLC managed labs. We found that in the case 
of Livermore there was a budget reduction that resulted in layoffs. We 
asked concerned laboratory staff members to help us to identify and 
quantify specific issues arriving from the new contracting paradigm to 
form a basis for commenting on the contract changes. We were unable to 
obtain verifiable information to guide us. We made a comment in our 
report that the issue of acting in the public interest is so important 
that although we were not able to identify problems, constant vigilance 
will be required going into the future.

    Mr. Turner. 7) The NAS study committee said it had examined many 
previous reports and efforts to fix the management relationship. We've 
seen dozens of reports in the past two decades talking about the broken 
management structure, first between DOE and the labs, then between NNSA 
and the labs. What needs to happen to see real, concrete changes that 
address these recurring problems? Fundamentally, can this problem be 
fixed? What steps should Congress take?
    Dr. Curtis. 7) The Subcommittee is correct that the management 
structure/governance of the laboratories is badly broken and that there 
is a long series of reports that have documented this circumstance. 
Unfortunately, there are no easy corrections to the problem. 
Fundamentally, we believe that the difficulty arises from an erosion of 
trust on both sides of the contractual relationship between the 
laboratories and the laboratories' overseers. To fix this situation 
will require time and a lot of hard work and dedication of all parties. 
A fundamental rebalancing of responsibilities is required and a greater 
investment must be made in laboratory management latitude and 
discretion.
    The Congress needs to be committed to this undertaking and should 
sustain the effort through structured annual hearings which examine the 
progress that has been made and the steps planned for the future. Only 
through this effort will the public trust be maintained and progress 
assured.
    Mr. Turner. 8) The NAS report notes that the ``evolution'' of the 
labs from nuclear weapons labs to ``national security labs'' with a 
broader mission set is well under way. The report says that expansion 
of the labs' missions to new arenas ``offers the prospect of increasing 
the Laboratories' appeal to top-quality scientists and engineers while 
also serving important national security missions. Thus, the quality of 
science and engineering, being preconditioned on attracting high-
quality people, depends in the long run on successfully making this 
transition to National Security Laboratories.''
    <bullet>  Does the NAS believe the governance and management 
structure for the labs is set up to facilitate this expansion into new, 
non-nuclear work? How should it be changed to better enable this 
broader mission?
    <bullet>  Does NAS believe expansion into these new work areas will 
cause the labs to ``take their eyes off the ball''--distract them from 
their core mission of sustaining the nuclear weapons stockpile?
    <bullet>  How does this ``Work for Others'' (the labs working on 
programs not directly related to the nuclear weapons mission) support 
or detract from the mission of nuclear stockpile stewardship?
    Dr. Curtis. 8) The evolution of the laboratories to ``National 
Security laboratories'' is an extremely important development. The 
Committee strongly supports this evolution, but it recognizes that 
these laboratories must maintain their essential focus on the core 
mission of sustaining the nuclear weapons stockpile. At present, we 
believe that the three laboratories are committed to this core mission 
and correctly see the evolution to a broader concept of National 
Security service as contributing strongly to their ability to execute 
their core mission responsibility to assure the safety, security and 
effectiveness of our Nation's nuclear deterrent. There is, of course, a 
risk here that the laboratories might lose focus and become mere 
contracting entities to various Departments and Agencies. We believe 
that existing NNSA management and the laboratories have done a good job 
to guard against this risk. The current structured collaboration among 
NNSA, the Department of Homeland Security, the Department of Defense 
and the Director of National Intelligence provide an important 
safeguard against any potential loss of focus.
    Mr. Turner. 9) Your National Academies of Science report says that 
the relationship between the labs and NNSA has strayed from the 
original intent of the labs as federally funded research and 
development corporations (FFRDC) that are operated through a 
``government-owned, contractor-operated'' model. Basically, while the 
letter of the model is still in place, the spirit and the intent of the 
model have been abandoned. Today, Federal employees are being very 
prescriptive on ``how'' the labs should carry out their work.
    <bullet>  The National Academies implies that there are 
inefficiencies in this management approach, saying ``this approach 
precludes taking full advantage of the intellectual and management 
skills that taxpayer dollars have purchased.'' How should we address 
these inefficiencies? What should Congress do?
    <bullet>  The FFRDC construct was created to allow the Federal 
Government to broadly determine ``what'' work needs to be done while 
the FFRDC (i.e., the lab) determines ``how'' to accomplish the work. 
Does NNSA's current management and governance model for the labs 
operate in this fashion?
    <bullet>  Federal Procurement Policy guidelines (OFPP Policy Letter 
84-1) say that the Federal Government's monitoring of FFRDC performance 
``shall not be as . . . to cause disruptions that are detrimental to 
the productivity and/or quality to the FFRDC's work.'' Does the NAS 
study group believe NNSA's current management and governance model for 
the labs operates in the spirit and intent of the FFRDC model? Why or 
why not?
    Dr. Curtis. 9) Over time, the original ``government-owned, 
contractor-operated'' model has eroded, shifting more of the 
operational responsibility to Government overseers. The fragmentation 
of responsibility has also resulted in a fragmentation of authority and 
a lessening of reliance on laboratory management. This is not a healthy 
or cost-effective circumstance. We believe a considerable effort should 
be undertaken to rebalance the governance system to draw clear 
boundaries of responsibility and to invest clearer managerial latitude 
in laboratory managers. We also want to emphasize that we believe this 
can be done, indeed it must be done, while maintaining high standards 
of environmental, safety, and security responsibility for the work of 
the laboratories and while assuring their fiscal integrity. We are not 
arguing in any way for a lessening of these primary public 
responsibilities. The Congress' role in this matter is to state clearly 
that it wishes this rebalancing to occur and that it will invest its 
time and its energies to assure that it is done and that it is done 
well.
    Mr. Turner. 10) The National Academies study group found ``issues 
in transactional oversight of safety, business, security, and 
operations. Science and engineering quality is at risk when Laboratory 
scientists and engineers are not encouraged to bring forth their 
creative ideas in partnership with NNSA to solve problems vital to our 
national security.'' Is the ``transactional oversight of safety, 
business, security, and operations,'' noted by the National Academies 
report needed? Is it adding value? Should it be reduced, or modified in 
some fashion? How? What should NNSA's role be in governing the labs? 
What should the contractor's role be?
    Dr. Curtis. 10) We believe ``transactional oversight of safety, 
business, security and operations'' is needed and adds value. Our point 
is that it is out of kilter and requires rebalancing which will migrate 
some greater latitude and responsibility to laboratory managers and 
reduce some of the prescriptive requirements of Government overseers. 
By placing greater management authority in the laboratories, it will be 
possible to insist on greater management responsibility in the 
laboratories and,in the end, necessary transactional oversight of 
safety, business, security and operations should actually improve and 
add greater value.
    Mr. Turner. 11) The NAS study committee recommends that ``NNSA, 
Congress, and top management of the Laboratories recognize that safety 
and security systems at the Laboratories have been strengthened to the 
point where they no longer need special attention. NNSA and Laboratory 
management should explore ways by which the administrative, safety, and 
security costs can be reduced, so that they not impose an excessive 
burden on essential science and engineering activities.'' What 
specific, concrete actions should Congress take to address this 
recommendation by the NAS?
    Dr. Curtis. 11) The Committee concluded that the ``current contract 
and fee structure'' has not been shown to impair the work of the 
laboratories, although we recognize that the potential exists. We do 
believe, however,that the ``system of governance'' demonstrably puts at 
risk the laboratories' ability to provide high quality science and 
engineering and, over time, will surely erode mission accomplishment. 
This is not a problem of communication or leadership. Rather, it is a 
manifestation of a governance system that has relied increasingly on 
operational formality to assure safety and environmental 
responsibility, security and fiscal integrity. We found that the 
workforce at the laboratories remains strongly committed to their 
public service duties. However, there is an undercurrent of concern 
with their ability to do experimental work and a concern that oversight 
of the laboratories by the Department of Energy, the National Nuclear 
Security Administration, the Defense Nuclear Facilities Safety Board, 
the Government Accounting Office, the Congress, and the management of 
the laboratories themselves is inclined to be risk-averse at the cost 
of science and engineering quality and innovation. The Committee shares 
that concern and, for this reason, has recommended a concerted effort 
be undertaken to rebalance the governance relationship to remove 
unnecessary operational formality and rebuild trust among the various 
parties. We believe this rebalancing can and must take place while 
maintaining high standards of safety, environmental control, security 
and fiscal integrity.
    This will take an effort by the Congress as well. We have suggested 
structured oversight of the process of rebalancing of the governance 
relationship. This is hard work and it will take time. It will add to 
the burdens of the Subcommittee. But the efforts must be made; the 
stakes are very high.
    Much more than cost efficiency is involved. These laboratories are 
national assets of great importance to the future and the security of 
our Nation. Preserving the excellence of science and engineering 
quality at the laboratories should be the enduring focus of this 
rebalancing effort and the oversight required to make it sustaining and 
successful.
    Mr. Turner. 12) Some current and former employees of the national 
labs have expressed concern to this committee that, since required by 
Congress in 2004, the labs are now managed to incentivize their 
managing and operating contractors with fee or profit motive--and that 
this is harming their ability to do world-class research and that the 
labs have shifted away from their original public service culture and 
motivation. But the National Academies report finds that the 
bureaucratic frustrations that are affecting all levels within the 
labs, ``are not traceable to the M&O contractor or the contracts 
themselves,'' and found that the lab directors' ``primary objective 
remains to manage the Laboratories in the public interest.''
    <bullet>  Does the National Academies study committee believe that 
the labs can do public service-oriented, world-class research under 
their current governance-, contract-, and fee-structure? Does the study 
committee recommend any changes in the contracting approach?
    <bullet>  Do the lab directors need to communicate their public 
service motivations more clearly and consistently to lab employees? Is 
this a communications and leadership problem, or something deeper?
    <bullet>  Are such sentiments--that the for-profit motive is 
harming the labs--pervasive throughout the workforce at the labs, or do 
strong public service sentiments still exist?
    Dr. Curtis. 12) See answer for Question 21 [Now Question 11].

    Mr. Turner. 13) In your January 31, 2012, report, GAO says: ``In 
fiscal years 2007 through 2009, total support costs for NNSA and [DOE 
Office of] Science sites grew from $5 billion to about $5.5 billion 
(nominal dollars).''
    <bullet>  With GAO having noted the poor quality of NNSA's cost 
data, does GAO believe that NNSA can fully justify this growth in 
support and overhead costs?
    <bullet>  How much cost savings does GAO estimate could be realized 
by implementing consistent and accurate data across the enterprise?
    <bullet>  Does GAO believe this growth in support and overhead 
costs could be attributed to the problems and inefficiencies identified 
by the National Academies report, such as transactional-level oversight 
of business systems?
    <bullet>  What could Congress do to address GAO's concerns in this 
area?
    Mr. Aloise. 13) NNSA's oversight of sites' support costs is limited 
by its data. Because contractors that manage and operate DOE sites 
classify incurred costs differently from one another (as direct or 
indirect costs), DOE has long attempted to collect comparable data on 
its sites' support costs. As we reported in January 31, 2012, however, 
DOE's data for fiscal years 2007 through 2009 may be appropriate for 
understanding sites' aggregate support function costs but not for 
comparing the costs of individual support functions at sites (e.g., 
site security, human resources, facility maintenance, etc.). As a 
result, NNSA's ability to explain apparent trends in its sites' support 
costs in those years is limited. Changes beginning in 2010 to DOE's 
data collection approach could eventually improve the quality and 
usefulness of the data. But as we recommended, DOE needs to fully 
implement a quality control system to ensure it has complete and 
comparable cost data going forward. Congress could help ensure that DOE 
is implementing peer reviews or other quality control steps and--to 
help maximize the usefulness of the data--continuing to collect data on 
both the direct and indirect support function costs at its sites.\1\
---------------------------------------------------------------------------
    \1\ GAO, Department of Energy: Additional Opportunities Exist to 
Streamline Support Functions at NNSA and Office of Science Sites, GAO-
12-255 (Washington, D.C.: Jan. 31, 2012).
---------------------------------------------------------------------------
    We have not examined the potential cost savings from having 
consistent and accurate support cost data nor have we examined whether 
NNSA's approach to overseeing its contractors has contributed to growth 
in its sites' support cost.
    Mr. Turner. 14) Would GAO be comfortable with an oversight model 
whereby NNSA sets auditable performance standards for the labs, audits 
to those standards once a year, and then holds the contractor 
accountable for not meeting the standards? Basically, a performance- or 
outcome-based oversight model rather than the current transactional-
oversight model?
    Mr. Aloise. 14) We are supportive of NNSA's moves toward a more 
performance-based approach to oversight. For example, in our review of 
security at Los Alamos National Laboratory we recommended that the 
Administrator of NNSA provide meaningful financial incentives in future 
performance evaluation plans for implementation of this comprehensive 
strategic plan for laboratory security.\2\ We similarly recommended 
providing financial incentives to LLNL's contractor to sustain security 
performance improvements.\3\ However, in our view, effectively 
evaluating performance, as opposed to compliance or transactions, is 
likely to be more demanding, will require skilled personnel, and needs 
to be done more than once a year. More specifically, our past work has 
found issues with NNSA's oversight of security to include staffing 
shortages at NNSA site offices, inadequate security staff training, and 
lack of comprehensive security data. This has hampered the agency's 
understanding of the overall effectiveness of its security program.\4\
---------------------------------------------------------------------------
    \2\ GAO, Los Alamos National Laboratory: Long-Term Strategies 
Needed to Improve Security and Management Oversight, GAO-08-694 
(Washington, D.C.: June 13, 2008).
    \3\ GAO, Nuclear Security: Better Oversight Needed to Ensure That 
Security Improvements at Lawrence Livermore National Laboratory Are 
Fully Implemented and Sustained, GAO-09-321 (Washington, D.C.: Mar. 16, 
2009).
    \4\ GAO, National Nuclear Security Administration: Additional 
Actions Needed to Improve Management of the Nation's Nuclear Programs, 
GAO-07-36 (Washington, D.C.: Jan 19, 2007).
---------------------------------------------------------------------------
    We have made similar findings regarding NNSA's project management. 
While noting recent actions, we believe that DOE needs to ensure that 
NNSA has the capacity--that is, the people and other resources--to 
resolve its project management difficulties and that it has a program 
to monitor and independently validate the effectiveness and 
sustainability of its corrective measures. This is particularly 
important as NNSA embarks on its long-term, multibillion dollar effort 
to modernize the nuclear security enterprise.\5\
---------------------------------------------------------------------------
    \5\ GAO, National Nuclear Security Administration: Observations on 
NNSA's Management and Oversight of the Nuclear Security Enterprise, 
GAO-12-473 (Washington, D.C.: Feb. 16, 2012).
---------------------------------------------------------------------------
    Mr. Turner. 15) In its 2007 report, GAO said ``management problems 
continue, in part, because NNSA and DOE have not fully agreed on how 
NNSA should function within the department as a separately organized 
agency. This lack of agreement has resulted in organizational conflicts 
that have inhibited effective operations.''
    <bullet>  Does GAO believe NNSA and DOE have agreed upon--and 
implemented--a coherent and rational management structure for how NNSA 
should function within DOE as a ``semi-autonomous'' agency, as was 
intended by the NNSA Act?
    <bullet>  Does GAO agree with the Strategic Posture Commission, the 
Stimson Center, and others that NNSA is still too tightly integrated 
with DOE, and the semi-autonomy of the NNSA Act was never achieved?
    Mr. Aloise. 15) GAO last formally audited NNSA's relationship with 
DOE in 2007.\6\ At that time, we found that NNSA had focused 
considerable attention on reorganizing its internal operations, but it 
and DOE continued to struggle with establishing how NNSA should operate 
as a separately organized agency within the department. Two factors 
contributed to this situation. First, DOE and NNSA did not have a 
useful model to follow for establishing a separately organized agency 
in DOE. Second, the January 2000 NNSA implementation plan, required by 
the NNSA Act, did not define how NNSA would operate as a separately 
organized agency within DOE. As a result, although some NNSA programs 
have set up procedures for interacting with DOE, other programs have 
not, resulting in organizational conflict. Even where formal procedures 
have been developed, interpersonal disagreements have hindered 
effective cooperation.
---------------------------------------------------------------------------
    \6\ GAO-07-36.
---------------------------------------------------------------------------
    We recommended that, to ensure that NNSA functions as a separately 
organized agency, the Secretary of Energy and the Administrator, NNSA, 
should clearly define NNSA's status as a separately organized agency 
within the department. In his 31 USC Section 720 response to our 
report, the Deputy Secretary of Energy stated that he did not concur 
with this recommendation. He stated that elements of the Department and 
the NNSA had executed memoranda of understanding specifying how certain 
Department-wide functions would be performed while respecting the 
statutory insulation of NNSA personnel. He also stated that the 
Department will consider issuing circumstance-specific guidance where 
required to correct misperceptions about the effect of the NNSA's act 
limitations. Since we received the letter, there have been instances 
where the DOE/NNSA relationship has become less clear. For example, DOE 
recently announced that DOE's Environmental Management program will 
begin to report to NNSA Administrator, who simultaneously is an Under 
Secretary for Energy. As a result, we have left this recommendation 
open and still believe that further clarification of the NNSA-DOE 
relationship is needed.
    Mr. Turner. 16) GAO has criticized NNSA's cost-estimating 
techniques, particularly with regard to several large, multibillion 
dollar construction programs NNSA is carrying out.
    <bullet>  Does GAO believe NNSA's approach of waiting to baseline 
costs until a design is 90% complete is the best approach?
    <bullet>  What are the key reasons for NNSA's poor record of cost 
and schedule overruns?
    <bullet>  What should NNSA change to improve its cost-estimation 
approach?
    Mr. Aloise. 16) NNSA remains on our high-risk list and remains 
vulnerable to fraud, waste, abuse, and mismanagement. DOE has recently 
taken a number of actions to improve management of major projects, 
including those overseen by NNSA. For example, DOE has updated program 
and project management policies and guidance in an effort to improve 
the reliability of project cost estimates, better assess project risks, 
and better ensure project reviews that are timely, useful and identify 
problems early. Although DOE's responses to our recommendations and its 
own findings have been largely positive, and a number of corrective 
actions have been taken, problems persist as demonstrated by a number 
of our recent reports which are summarized in our February 2012 
testimony. However, DOE needs to ensure that NNSA has the capacity--
that is, the people and other resources--to resolve its project 
management difficulties and that it has a program to monitor and 
independently validate the effectiveness and sustainability of its 
corrective measures. This is particularly important as NNSA embarks on 
its long-term, multibillion dollar effort to modernize the nuclear 
security enterprise.
    In 2010, NNSA announced that project baseline cost and schedule 
will not be finalized until the total project achieves 90 percent 
design maturity. NNSA also announced that subproject activities such as 
advanced procurement and road and utility relocations will begin only 
when those individual subprojects each achieve 90 percent design 
maturity and baseline approval.
    We have not evaluated this policy change but it is at least partly 
in line with a previous GAO recommendation. More specifically, in April 
2006, we recommended that a DOE major facility design or facility 
component design have reached at least 90 percent completion and that 
technical and safety problems have been satisfactorily addressed before 
restarting construction.\7\ We also recommended other management 
actions to help ensure that the new project baseline will be reliable 
and that controls and accountability are such that contractors will 
safely and effectively complete the project. This recommendation, we 
note, is consistent with nuclear industry construction guidelines and 
take a more conservative approach to design and construction 
activities. Having said this, we believe that cost estimation is 
largely a continuous process that involves having a baseline cost 
estimate in place early with a risk adjustment to account for changes 
in design that will happen until the 90% design complete level is 
obtained. We believe that NNSA's application of 90 percent design 
maturity may need to be reviewed for its projects that have prolonged 
and/or expensive design phases.
---------------------------------------------------------------------------
    \7\ GAO, Hanford Waste Treatment Plant: Contractor and DOE 
Management Problems Have Led to Higher Costs, Construction Delays, and 
Safety Concerns, GAO-06-602T (Washington, D.C., Apr 6, 2006).
---------------------------------------------------------------------------
    We have recently noted some progress in NNSA's development of cost 
estimates, finding in March 2012 that the cost estimates for a recently 
deferred NNSA facility were generally well prepared.\8\ Despite this 
progress, we still note some weaknesses. For example, a high-quality 
schedule requires a schedule risk analysis that incorporates known 
risks to predict the level of confidence in meeting a project's 
completion date and the amount of contingency time needed to cover 
unexpected delays. Project officials identified hundreds of risks to 
the project, but we found that these risks were not used in preparing a 
schedule risk analysis. As a result of these weaknesses, we continue to 
believe that NNSA cannot be fully confident, once it decides to resume 
the project, that the project will be completed on time and within 
estimated costs.
---------------------------------------------------------------------------
    \8\ GAO, Modernizing the Nuclear Security Enterprise: New Plutonium 
Research Facility at Los Alamos May Not Meet All Mission Needs, GAO-12-
337 (Washington, D.C.: Mar 26, 2012).

    Mr. Turner. 17) The current National Academies report, the 1999 
Chiles Commission, and the Strategic Posture Commission have all cited 
an ability to attract and retain world-class scientists and engineers 
as the critical foundation for having a world-class lab.
    <bullet>  Do you believe the labs are able to attract world-class 
personnel today? What attracts such people and makes them want to stay?
    <bullet>  Have we seen any loss of world-class people already?
    <bullet>  How does having modern facilities, labs, and 
infrastructure play into the labs' ability to attract and retain world-
class scientists and engineers? Do you have any worries in this regard? 
Would you care to comment on the recent cancellation of CMRR, and how 
that will affect the ability of the nuclear security enterprise--and 
Los Alamos in particular--to both attract and retain world-class 
plutonium scientists?
    Dr. Anastasio. 17) The heart of any organization is its people. 
Understanding nuclear weapons requires a broad, diverse and deep set of 
scientific and engineering skills--such a workforce of world-class 
scientists and engineers has been the critical foundation for the 
unprecedented successes of these laboratories over many decades.
    World-class personnel are attracted and retained because of a 
sustained mission of national importance, a work environment that 
fosters innovation and creativity, and the availability of tools, 
facilities and resources that are also world-class.
    As I stated in my testimony before your subcommittee on February 
16, 2012, ``An aversion to risk and a deterioration of trust, increases 
in transactional oversight and in unfunded requirements, combined with 
an uncertain policy direction and unstable budget outlook hurt the 
ability of the Nuclear Security Enterprise to attract, develop, and 
retain the best technical staff available. It is very difficult to 
convince top-quality technical staff to join an organization where they 
are told how to do their work and left wondering if there is going to 
be an opportunity to discover and innovate. This has already resulted 
in the loss of some of the best mid-career scientists from the 
Laboratories.'' The increased engagement of members of the local NNSA 
Site Offices in the day-to-day decisionmaking processes of the 
Laboratory (transactional oversight) directly contributes to the 
frustrations and disenchantment of the technical staff.
    The Administration's budget proposal regarding CMRR certainly 
affects the morale of laboratory scientists and engineers, especially 
those working in the field of plutonium science. Since the country's 
expertise in this field largely resides at Los Alamos and Lawrence 
Livermore, the lack of a safe, modern, world-class facility for 
plutonium science puts our national capability at risk.
    Mr. Turner. 18) As I noted in my opening statement, in 2009 a 
Stimson Center report said: ``the implementation of the NNSA Act failed 
to achieve the intended autonomy for NNSA within the Department of 
Energy. The Labs now must operate within a complicated set of 
bureaucratic relationships with both DOE and NNSA. An excessively 
bureaucratic DOE culture has infiltrated NNSA as well.'' Also in 2009, 
the Strategic Posture Commission said that, ``the original intent of 
the legislation creating the NNSA has not been realized. The desired 
autonomy has not come into being.''
    <bullet>  Do you believe the intent of the NNSA Act has been 
implemented? In other words, is NNSA truly semi-autonomous from DOE?
    <bullet>  Do you believe the roles, responsibilities, and lines of 
authority between DOE and NNSA are clear?
    <bullet>  What should Congress do to address this?
    Dr. Anastasio. 18) The NNSA is not in practice a semi-autonomous 
organization within the Department of Energy. The roles, 
responsibilities, and lines of authority are not clear, often leading 
to inefficiency and ineffectiveness. It is often not clear who can 
actually make a decision but many can keep a decision from being made.
    There have been many assessments that have recommended changes to 
improve the efficiency and effectiveness of NNSA as noted in many of 
your questions. They range from making improvements within the existing 
structure (I made four such recommendations in my testimony before this 
subcommittee) to starting over with NNSA reconstituted as an entirely 
new independent agency. At a minimum Congress should implement 
improvements like those below that should put the Enterprise on a 
better path:
    <bullet>  Reduce indirect costs of the Enterprise through oversight 
of outcomes rather than oversight of activities. The existing 
accountability mechanisms available in the current contracts are more 
than adequate.
    <bullet>  Accompany this with cuts in budget/people engaged in 
oversight and indirect activities starting with the Federal workforce.
    <bullet>  Strengthen the balance across mission delivery and 
operations. New requirements or interpretations of existing ones (by 
internal or external organizations) must be coupled with a cost-benefit 
analysis.
    <bullet>  Reduce the number of congressional budget control levels 
to increase flexibility in execution at the NNSA sites.
    The simplest first step could be eliminating duplicative overhead 
functions between NNSA and DOE and reducing the staff at the site 
offices (a good target would be a 1-to-100 ratio of Federal to 
permanent contractor workforce at each site). These cost savings should 
then be reapplied back into the laboratories for programmatic 
activities.
    However, like many others I fear that the record of many 
unsuccessful efforts by well-meaning people within NNSA and DOE over 
the last decade suggests that it is time for a new approach. 
Reconstituting NNSA as an independent agency may be necessary, IF it is 
structured in a way that the national security leadership, 
Administration, and Congress all agree on and can successfully 
implement.
    Mr. Turner. 19) The 2009 Stimson Center report and the Strategic 
Posture Commission both concluded that major reform of NNSA was needed. 
Both groups recommended making NNSA fully independent from DOE. In his 
statement for the record for this hearing, Ambassador Linton Brooks, 
the former head of NNSA, says that major reform is now needed again. 
Ambassador Brooks says that the Strategic Posture Commission concluded 
that the current governance structure of NNSA ``cannot be effective in 
the long term. The record of recent years points to no other 
conclusion.'' On this conclusion, Ambassador Brooks said: ``I agree. 
The current `semi-autonomous' structure has proven to be too dependent 
on the personalities of DOE and NNSA leadership to be consistently 
reliable and effective . . . '' On whether Congress should revisit the 
Strategic Posture Commission's recommendation to make NNSA a wholly 
independent agency, Brooks says: ``My answer is yes. The present system 
has been tried for a decade by dedicated, hard-working and competent 
civil servants. It has not lived up to the Nation's hopes. We can do 
better.''
    <bullet>  Do you agree with Ambassador Brooks? Do you believe such 
large-scale change is again needed? Why or why not?
    <bullet>  Would such organizational change fix all of the issues 
identified by the NAS report, the Strategic Posture Commission, the 
Stimson Center report, and the myriad other reports? In addition to 
organizational change, what else would need to be done to address these 
problems?
    Dr. Anastasio. 19) I agree change is required. I would go beyond 
Ambassador's statement that ``We can do better'' and say that we must 
do better. We are facing a crisis both in our ability to execute the 
mission in the near term and in our ability to enable success over the 
long term.
    We can work through the challenges of large-scale change--
reconstituting NNSA as an independent agency--IF it is structured in a 
way that the national security leadership, Administration, and Congress 
all agree and can/do successfully implement.
    Any such ambitious change must be accompanied by leadership of the 
new organization that is committed to the goals of the change and who 
is empowered to pick the Federal workforce and processes they deem 
necessary to make it happen.
    Mr. Turner. 20) The NAS study committee recommended that NNSA 
``purposely free directors to establish strategic science and 
engineering direction at the Laboratories.'' What concrete actions 
would you recommend NNSA and Congress take to ``free [lab] directors to 
establish strategic science and engineering direction at the labs?''
    Dr. Anastasio. 20) Establishing the strategic science and 
engineering direction for the lab is one of the most important roles, 
and a unique role, for the Laboratory Director. In my experience of 
over 9 years as Director at LLNL and LANL it became increasing 
difficult to focus on that role.
    Freeing the lab directors from the minutiae and tactical 
imperatives of the current practices and behaviors of NNSA would allow 
for greater focus on strategic issues. Implementing the recommendations 
that I included in my testimony before this subcommittee would help. 
Specifically, the first three recommendations will free up the 
directors:
    <bullet>  Reduce indirect costs of the Enterprise through oversight 
of outcomes rather than oversight of activities. The existing 
accountability mechanisms available in the current contracts are more 
than adequate.
    <bullet>  Accompany this with cuts in budget/people engaged in 
oversight and indirect activities starting with the Federal workforce.
    <bullet>  Strengthen the balance across mission delivery and 
operations. New requirements or interpretations of existing ones (by 
internal or external organizations) must be coupled with a cost-benefit 
analysis.

    In addition, the fourth recommendation--

    <bullet>  Reduce the number of congressional budget control levels 
to increase flexibility in execution at the NNSA sites.

    --will allow more flexible decisions on the funding of emerging 
scientific and engineering strategic directions. There are two other 
congressional actions that are also key to the strategic health of 
science and engineering at the labs:
    <bullet>  Strongly endorse the continuation of Laboratory Directed 
Research and Development (LDRD) at current funding levels
    <bullet>  Streamline the processes for funding of the labs by 
national security elements other than NNSA (Work for Others).
    Mr. Turner. 21) Do you agree with the NAS study committee's 
recommendation to ``rebalance the relationship and the set of 
principles laying out the boundaries and roles of each management 
structure'' and memorialize such principles and relationships ``in 
memoranda of understanding between NNSA and its Laboratories''? What 
principles of the relationship between NNSA and the labs would you 
suggest be included in such an agreement? What would be a potential 
enforcement mechanism for such memoranda of understanding?
    Dr. Anastasio. 21) While I support the recommendation to 
``rebalance the relationship and the set of principles laying out the 
boundaries and roles of each management structure,'' I do not believe 
that the idea of an MOU between the Laboratories and NNSA by itself 
will be effective. I do not see a way to enforce the implementation of 
such an agreement nor do I see this as resulting in modified behaviors. 
The last decade of effort to structure NNSA led me to believe that we 
are beyond the point where a written agreement, even if it could be 
agreed to, would have a significant positive impact.
    Mr. Turner. 22) In May 2011, the National Laboratories Directors 
Council sent a paper to Secretary of Energy Chu--at his request--on 
``Prioritization of Burdensome Policies and Practices.'' This paper 
outlined, from the perspective of the lab directors, specific ways DOE 
could reduce burdensome management policies and practices that hamper 
the ability of the labs to execute their mission.
    <bullet>  Has DOE been responsive to the recommendations in this 
paper? Has progress been made? Why or why not?
    <bullet>  Secretary Chu asked for and received similar input from 
the directors of the national labs in April 2009. Has DOE been 
responsive to that input?
    <bullet>  Why do you think we need to continually revisit this same 
issue every few years? Have the recommendations changed over the years?
    Dr. Anastasio. 22) I cannot comment on DOE actions after my 
retirement as LANL director in May 2011.
    While important, the elimination of burdensome policies and 
practices is not the key issue. Rather it is how those policies and 
practices are interpreted (and by whom) and the consistency of this 
interpretation over time and across different levels within and across 
DOE.
    Until there is alignment of the Federal workforce from the 
Secretary to the newest employee across all elements of the Department 
as to performance expectations for the Laboratories, this will continue 
to be an unresolved source of ineffectiveness and inefficiency.
    Mr. Turner. 23) Going back to the early 1990s--to the Galvin 
Commission and before--there have been dozens of national commissions, 
studies, and reports recommending significant reform to the way DOE and 
NNSA govern and manage the labs. Many leaders in NNSA and DOE have 
tried to carry out reforms, streamlining efforts, and initiatives to 
reduce burdensome policies and practices. But, today, the NAS report 
still finds major problems with the governance and management structure 
NNSA uses for the labs. Why aren't we making any progress in improving 
the governance and management structure for the labs? Are these 
recurring problems affecting morale at the labs? Are they impacting the 
quality of the science and engineering? Are they impacting the labs' 
ability to attract and retain world-class people?
    Dr. Anastasio. 23) The major problems are not a result of the 
management structure per se, rather the practices (e.g., oversight of 
activities instead of outcomes) and risk-averse behaviors of the 
bureaucracy. The persistence of these problems continuously degrades 
the morale and ability to attract and retain world-class scientists and 
engineers.
    The simplest way to frame the path to improvement is to get the 
bureaucracy out of the way and let the M&O contractors do the job they 
have been chosen to do--have the NNSA set the goals for the M&Os to 
meet, let the M&Os find the best way to achieve that, and then hold 
them accountable for success.
    Mr. Turner. 24) The NAS study committee identifies a loss of trust 
between the NNSA and its labs as a key problem that is contributing to 
a poor management relationship and burdensome oversight policies and 
practices. The NAS report identifies this loss of trust for increased 
risk aversion at NNSA, which discourages the labs from conducting real-
world experiments. Do you agree? What is the impact on the quality of 
the science and engineering at the labs--and the labs' ability to 
execute their missions--if risk aversion leads to fewer and fewer 
experiments? Do you believe the sustainment of our nuclear deterrent 
might be at risk because of the safety requirements that lead to risk 
aversion and fewer experiments?
    Dr. Anastasio. 24) As I said in my testimony before this 
subcommittee, ``. . . because of the large number of external entities 
peering into NNSA and its inner workings, with disproportionate 
attention relative to that seen in other parts of the Government, a 
significant risk aversion has developed within the bureaucracy at NNSA. 
This risk aversion has manifested itself in a growing focus on 
compliance at the expense of delivering the mission.''
    The burdens of this growing focus on compliance, and concomitant 
transactional oversight, falls most heavily on experimental activities, 
especially those that are classified, involve high explosives, and/or 
nuclear materials--just those most important to the labs' mission. 
These burdens drive up the costs and lengthen the timeframe for 
execution of experiments, limiting the number that can be accomplished. 
In addition, these burdens can discourage some from even trying to do 
experiments. With less experimental data available, the risk in the 
conclusions that are drawn increases significantly.
    Mr. Turner. 25) The NAS report notes that the ``evolution'' of the 
labs from nuclear weapons labs to ``national security labs'' is well 
under way, and that this will enable an expansion of the labs' work 
solving national security problems for many different Federal agencies. 
Within NNSA, this is called ``work for others,'' or ``WFO.'' The NAS 
notes that this evolution is critical to the future vitality of the 
labs.
    <bullet>  Does the current governance and management structure 
facilitate or impede WFO work at the labs?
    <bullet>  What steps could Congress take to make WFO work easier, 
more efficient, and more effective?
    <bullet>  Do you believe the labs can continue to expand their WFO 
work and not be distracted from their core mission of sustaining the 
nuclear weapons stockpile? As lab directors, how did you ensure this 
continued focus while also broadening the work conducted at the labs?
    <bullet>  In 2009, the Strategic Posture Commission said the 
President, ``should assign formal responsibility to the Secretaries of 
Energy, Defense, and Homeland Security and the Director of National 
Intelligence for the programmatic and budgetary health of the 
laboratories.'' Do you agree? How would such a structure operate--how 
should it be designed?
    Dr. Anastasio. 25) The WFO activities at the laboratories have been 
very important for the health and vitality of the science and 
engineering. These activities stress the science and engineering in 
different ways, driving advancements that benefit the core nuclear 
weapons mission. At the same time they are an invaluable tool to 
attract and retain a world-class workforce. I am very concerned that 
the current processes that bring this type of work activities to the 
labs are not functioning smoothly. NNSA feels responsible that the WFO 
activities do not conflict with the core mission, for how those 
activities are executed, that the funding is well managed, and that 
there are no legacy issues at the conclusion of the activities. The end 
result is that the processes to address these concerns inordinately 
slow things down at every step and are repeated for every potential WFO 
project. Funding allocations are delayed and squabbles about the 
appropriateness of any activity not directly funded by NNSA arise. This 
can discourage the sponsor agency from considering such work in the 
future to the detriment of the sponsor and the lab. One approach to 
addressing this problem was offered by the Stimson Center report, where 
umbrella agreements would be put in place between NNSA and each of the 
other national security agencies that spell out for activities that 
meet certain requirements how they would be carried out. No further 
approvals would be needed unless they do not meet the requirements. 
This would greatly streamline WFO.
    There would be value in the recommendation of the Congressional 
Commission of involving the other cabinet agencies (and the IC) in the 
health and vitality of the labs' science and engineering capabilities. 
An annual review for that group that identifies gaps, especially gaps 
in long-term capabilities relevant to those agencies' mission, and 
develops plans with the labs to address those gaps would benefit all.
    Mr. Turner. 26) The labs are operated as federally funded research 
and development centers (FFRDCs). The FFRDC construct was created to 
allow the Federal Government to broadly determine ``what'' work needed 
to be done while the FFRDC determines ``how'' to accomplish the work. 
Federal Procurement Policy guidelines (OFPP Policy Letter 84-1) say 
that the Federal Government's monitoring of FFRDC performance ``shall 
not be as . . . to cause disruptions that are detrimental to the 
productivity and/or quality to the FFRDC's work.''
    <bullet>  Do you believe NNSA's current management and governance 
model for the labs operates in the spirit and intent of the FFRDC 
model? Why or why not?
    <bullet>  What might Congress do to ensure the FFRDC model is 
robust and executed appropriately?
    Dr. Anastasio. 26) As I have mentioned earlier, the FFRDC model is 
not functioning as it was intended. The FFRDC model envisioned an 
approach where the Federal agency selects a contractor with the 
expertise to execute the mission (an expertise not generally available 
in the Federal Government), provides direction on what is to be 
accomplished, trusts the M&O to manage the work, and holds them 
accountable that it was accomplished. This is not the relationship that 
is in place today between NNSA and the laboratories, rather it is a 
relationship that is detrimental to the productivity and/or quality of 
the FFRDC's work.
    I have previously made a number of recommendations for Congress in 
my testimony before this subcommittee and in the answer to previous 
questions for the record that can improve the current situation.

    Mr. Turner. 27) The current National Academies report, the 1999 
Chiles Commission, and the Strategic Posture Commission have all cited 
an ability to attract and retain world-class scientists and engineers 
as the critical foundation for having a world-class lab.
    <bullet>  Do you believe the labs are able to attract world-class 
personnel today? What attracts such people and makes them want to stay?
    <bullet>  Have we seen any loss of world-class people already?
    <bullet>  How does having modern facilities, labs, and 
infrastructure play into the labs' ability to attract and retain world-
class scientists and engineers? Do you have any worries in this regard? 
Would you care to comment on the recent cancellation of CMRR, and how 
that will affect the ability of the nuclear security enterprise--and 
Los Alamos in particular--to both attract and retain world-class 
plutonium scientists?
    Dr. Miller. 27) The most important factor in attracting and 
retaining world-class scientist is the opportunity the Laboratory 
offers to engage in cutting-edge science and technology directed at 
meeting important national needs. Service to the Nation is a shared 
value that permeates the Laboratory.
    Overall, I believe that we remain able to attract and retain 
quality people. Our retention rate remains high and, for example, the 
number of post-doctoral fellows at Livermore is more than 200, nearly 
double the number compared to 2 years ago. The Laboratory's post-
doctoral fellow program is an important pipeline for new employees. 
While the overall statistics are good, there is some anecdotal evidence 
that we are losing a few of our very best people and that others are 
open to recruitment from outside the Laboratory. This is particularly 
true for some highly sought after, specialized skills like computer 
science and cybersecurity.
    One key concern about attracting and retaining top-notch talent is 
program stability. Vagaries about future budgets impact people's 
thinking about long-term careers at an institution. The laboratories 
would greatly benefit from a clear and consistent message from 
successive administrations and congresses that the work of the 
Laboratory is important, together with stable funding.
    Another factor that aided in employee retention in the past was the 
defined benefit program that was offered when the University of 
California managed LLNL. The retirement system tended to lock employees 
into the Laboratory after 10 years of service. The 401(k) program now 
offered to new employees establishes no such bond. Today's highly 
mobile workforce is not advantageous for an institution that has to 
make considerable investment in training and nurturing workforce 
skills. This issue is particularly acute for computer scientists, who 
have many lucrative opportunities in the San Francisco Bay area.
    More flexibility for the Laboratory director in setting individual 
salaries and establishing positive work-environment programs within the 
existing budget envelope would help. So would the presence of modern 
facilities, laboratories, and infrastructure. We need to continually 
reinvest in facilities and infrastructure, and in times of austere 
budgets, recapitalization tends to suffer. Readiness in Technical Base 
and Facilities (RTBF) funding to LLNL is the lowest in the NNSA complex 
and we are falling behind in basic upkeep of the infrastructure and its 
related services. At some point it will affect the recruiting and 
retention given it is based on the ability to do cutting-edge research!
    The cancellation of CMRR-NF has greater impact on sustainment of 
the stockpile (e.g., LEPs) than plutonium science per se. Much of the 
plutonium science work is small scale. At LLNL, there are opportunities 
to do cutting-edge work on plutonium science using JASPER, diamond 
anvil experiments at various facilities, Superblock, and (in the 
future) potentially at NIF. Simulations are also an important aspect of 
plutonium science. I am most concerned over where we will be in 5 years 
when the restart of CMRR-NF will be considered as it will then be faced 
with then budget pressures and more needs in the failing infrastructure 
arena.
    Mr. Turner. 28) As I noted in my opening statement, in 2009 a 
Stimson Center report said: ``the implementation of the NNSA Act failed 
to achieve the intended autonomy for NNSA within the Department of 
Energy. The Labs now must operate within a complicated set of 
bureaucratic relationships with both DOE and NNSA. An excessively 
bureaucratic DOE culture has infiltrated NNSA as well.'' Also in 2009, 
the Strategic Posture Commission said that, ``the original intent of 
the legislation creating the NNSA has not been realized. The desired 
autonomy has not come into being.''
    <bullet>  Do you believe the intent of the NNSA Act has been 
implemented? In other words, is NNSA truly semi-autonomous from DOE?
    <bullet>  Do you believe the roles, responsibilities, and lines of 
authority between DOE and NNSA are clear?
    <bullet>  What should Congress do to address this?
    Dr. Miller. 28) The NNSA Act of 2000 established a separate NNSA 
organization within DOE, consolidating nuclear security programs under 
an Administrator. According to the Act, NNSA and Contractor personnel 
are not responsible to any DOE employee or agent except for the 
Secretary of Energy. However, the Act has since been amended (updated 
October 1, 2010), creating the position of Under Secretary for Nuclear 
Security, who serves as NNSA Administrator. Also according to the Act, 
the Under Secretary shall be subject to the authority, direction, and 
control of the Secretary; and the Secretary shall be responsible for 
establishing policy for NNSA. Currently, as examples, the NNSA CFO 
reports to the DOE CFO. NNSA Contracting Officers report to the DOE 
Office of Procurement. These changes limit the autonomy of NNSA and 
have increased layers of management. The Laboratory is also subject to 
reviews by the DOE Office of Enforcement/Health Safety and Security 
(OE/HSS) Division, and independent oversight organizations such as the 
DOE Inspector General (IG) and the Government Accountability Office 
(GAO).
    While the lack of full autonomy has certainly added to the 
bureaucratic inefficiency that burdens Laboratory operations, the 
extent to which NNSA is autonomous, however, does not have much bearing 
on the fundamental underlying issue, which both my testimony and the 
recent National Academy of Sciences study identify: the lack of trust 
and partnership in the relationship between DOE/NNSA and the national 
laboratories. Unless this issue is faced and dealt with, organizational 
issues and proposed changes are, in my view, of secondary importance. 
Changes might reduce the bureaucracy somewhat especially in the areas 
of redundant or overlapping layers of oversight, but unless there is a 
cultural change, it is unlikely to make much difference in the long 
run.
    Mr. Turner. 29) The 2009 Stimson Center report and the Strategic 
Posture Commission both concluded that major reform of NNSA was needed. 
Both groups recommended making NNSA fully independent from DOE. In his 
statement for the record for this hearing, Ambassador Linton Brooks, 
the former head of NNSA, says that major reform is now needed again. 
Ambassador Brooks says that the Strategic Posture Commission concluded 
that the current governance structure of NNSA ``cannot be effective in 
the long term. The record of recent years points to no other 
conclusion.'' On this conclusion, Ambassador Brooks said: ``I agree. 
The current `semi-autonomous' structure has proven to be too dependent 
on the personalities of DOE and NNSA leadership to be consistently 
reliable and effective . . . '' On whether Congress should revisit the 
Strategic Posture Commission's recommendation to make NNSA a wholly 
independent agency, Brooks says: ``My answer is yes. The present system 
has been tried for a decade by dedicated, hard-working and competent 
civil servants. It has not lived up to the Nation's hopes. We can do 
better.''
    <bullet>  Do you agree with Ambassador Brooks? Do you believe such 
large-scale change is again needed? Why or why not?
    <bullet>  Would such organizational change fix all of the issues 
identified by the NAS report, the Strategic Posture Commission, the 
Stimson Center report, and the myriad other reports? In addition to 
organizational change, what else would need to be done to address these 
problems?
    Dr. Miller. 29) I believe the last of these questions is, by far, 
the most important. As I stated in my answer to Question 33 [Now 
Question 28]):
    The extent to which NNSA is autonomous, however, does not have much 
bearing on the fundamental underlying issue, which both my testimony 
and the recent National Academy of Sciences study identify: the lack of 
trust and partnership in the relationship between DOE/NNSA and the 
national laboratories. Unless this is issue is faced and dealt with, 
organizational issues and proposed changes are, in my view, of 
secondary importance. Changes might reduce the bureaucracy somewhat, 
but unless there is a cultural change to restore trust and partnership 
approach, change is unlikely to make much difference in the long run.
    As for the various proposed changes, each has pluses and minuses. 
Perhaps more important than what the organization is changed to 
(including a modified form of NNSA as an option), there must be the 
will and follow-through of the new management team to streamline. I 
believe that most important of all is to focus on the mission--that is 
why these laboratories exist. From an operation point of view, my 
written testimony before the committee concluded with three ``Ts'': 
restore TRUST, eliminate TRANSACTIONAL oversight; and TURN OVER 
management to the people you hired to manage (the directors of the 
laboratories).
    Mr. Turner. 30) The NAS study committee recommended that NNSA 
``purposely free directors to establish strategic science and 
engineering direction at the Laboratories.'' What concrete actions 
would you recommend NNSA and Congress take to ``free [lab] directors to 
establish strategic science and engineering direction at the labs''?
    Dr. Miller. 30) I strongly concur with two particularly pertinent 
recommendations made by NAS study committee. It is essential that the 
laboratory directors be able to focus on both the near-term 
deliverables and the long-term health of the laboratory and the future 
needs of the mission.
    First, the Laboratory Directed Research and Development (LDRD) 
Program is absolutely essential to the long-term health of science and 
technology at the Laboratory. LDRD provides essentially the only funds 
we have to invest in exploratory research in support of our missions. 
These investments strive for breakthroughs that can make a dramatic 
difference, and with demonstration of feasibility of the idea, the 
concept can blossom into a program of great interest to a Government 
sponsor. It also is an important tool for attracting, retaining, and 
getting the best out of top-notch talent. The NAS study recommends ``. 
. . that Congress and NNSA maintain strong support of the LDRD program 
as it is an essential component of enabling the long-term viability of 
the Laboratories.''
    Secondly, it is very hard to effectively manage complex research 
and development programs when the work is fractionated into small work 
bins with little flexibility to balance the effort--using funding for 
tasks in an overall project area that runs more smoothly than 
anticipated to help along tasks in the same area that prove to be more 
difficult than expected or to perform more basic research and 
development supportive of the overall project goal. In specific, the 
NAS study recommends ``. . . that Congress reduce the number of 
restrictive budget reporting categories in the Nuclear Weapons Program 
and permit use of such funds to support a robust core weapons research 
program and further develop necessary S&E capability.'' Investment 
strategy should precede or even override any drive toward restrictive 
and less agile accounting controls especially in a future-oriented 
research and discovery operational mission.
    Mr. Turner. 31) Do you agree with the NAS study committee's 
recommendation to ``rebalance the relationship and the set of 
principles laying out the boundaries and roles of each management 
structure'' and memorialize such principles and relationships ``in 
memoranda of understanding between NNSA and its Laboratories''? What 
principles of the relationship between NNSA and the labs would you 
suggest be included in such an agreement? What would be a potential 
enforcement mechanism for such memoranda of understanding?
    Dr. Miller. 31) As I have stated in the answer to previous 
questions, the most important issue is trust. If it is a trusted 
working relationship, this should not be much of an issue. The National 
Aeronautics and Space Administration and the Jet Propulsion Laboratory 
(an FFRDC managed by Caltech), for example, seem to get along fine 
without roles and responsibilities being an issue.
    Policy guidelines have been established for FFRDCs. As pertaining 
to the specifics of the relationship between the national laboratories 
and DOE, I believe that language about principles has been suggested by 
previous committees (e.g., the Chiles commission). It is likely not 
necessary to ``reinvent the wheel.'' In general, if contentious 
negotiations are needed to define roles and responsibilities--as well 
as a complicated enforcement mechanism--something is likely wrong with 
the relationship that will not be fixed by a set of principles.
    Mr. Turner. 32) In May 2011, the National Laboratories Directors 
Council sent a paper to Secretary of Energy Chu--at his request--on 
``Prioritization of Burdensome Policies and Practices.'' This paper 
outlined, from the perspective of the lab directors, specific ways DOE 
could reduce burdensome management policies and practices that hamper 
the ability of the labs to execute their mission.
    <bullet>  Has DOE been responsive to the recommendations in this 
paper? Has progress been made? Why or why not?
    <bullet>  Secretary Chu asked for and received similar input from 
the directors of the national labs in April 2009. Has DOE been 
responsive to that input?
    <bullet>  Why do you think we need to continually revisit this same 
issue every few years? Have the recommendations changed over the years?
    Dr. Miller. 32) I was a part of the NLDC effort you mention. 
Activities have been under way to examine existing directives and 
standards to reduce their number. The number of directives and 
standards affecting management and operation of LLNL rose from 137 to a 
peak of about 160 in 2009; DOE/NNSA governance reform efforts have 
reduced the number to 131. As for DOE Orders and NNSA Policies (NAPs), 
there are currently 845 requirement documents with thousands of 
requirements. The total is altogether too large and imposes too many 
non-value-adding requirements that divert precious dollars and 
attention from the national lab missions.
    One needs to recognize that ``burdensome policies and practices'' 
pertains to more than numbers; burdensomeness arises from the 
transactional manner in which they are enforced and the duplicative, 
multi-layered, and poorly aligned governance system that results in 
considerable cost to the taxpayers through unnecessary effort at the 
laboratories and NNSA. In FY 2011, there were more than 1,300 external 
audits conducted at LLNL. One could shorten the list of requirements, 
but if myriad offices still have say and feel compelled to 
independently oversee enforcement in a highly transactional manner, 
little will change. Solving issues for the enterprise must be the true 
test, not how many inspectors detail the problem.
    As stated in my testimony, one major step forward would be to use, 
whenever possible, external standards, certifications and oversight for 
operational systems and eliminate the DOE and NNSA oversight. Many such 
standards are already in place based on the International Standards 
Organization (ISO) and the DOE/NNSA facilities are already subject to 
both State and Federal oversight from other organizations. This move 
would both eliminate redundancy and move to a more process-oriented, 
results-based operation rather than transactional-oriented system. It 
would also allow a significant reduction in the onsite DOE/NNSA 
personnel to a number more in line with the oversight presence at sites 
managed by many other Federal organizations.
    Mr. Turner. 33) Going back to the early 1990s--to the Galvin 
Commission and before--there have been dozens of national commissions, 
studies, and reports recommending significant reform to the way DOE and 
NNSA govern and manage the labs. Many leaders in NNSA and DOE have 
tried to carry out reforms, streamlining efforts, and initiatives to 
reduce burdensome policies and practices. But, today, the NAS report 
still finds major problems with the governance and management structure 
NNSA uses for the labs. Why aren't we making any progress in improving 
the governance and management structure for the labs? Are these 
recurring problems affecting morale at the labs? Are they impacting the 
quality of the science and engineering? Are they impacting the labs' 
ability to attract and retain world-class people?
    Dr. Miller. 33) As I stressed in my written testimony, the key 
underlying problem is a lack of trust and the absence of a true 
Government-FFRDC relationship. Efforts at reform are often undertaken 
in small steps and in a bureaucratic manner that are abandoned or have 
had little lasting impact.
    In a larger sense, we all share some blame for the current 
situation: too much transactional oversight by a multi-layered DOE 
organization. This largely started as the Cold War ended with Secretary 
of Energy James Watkins' concern about implementation of business and 
safety practices at the laboratories and plants. Improvements were 
needed but the path taken to oversee implementation of a rigid set of 
improvements (without cost-benefit analyses) started down the path of 
cost inefficiencies and transactional oversight.
    Then, after the implementation of performance-based management at 
the laboratories and plants, the system steadily evolved from a few 
top-level measures to performance evaluation plans with more and more 
measures that DOE/NNSA thought necessary to review in increasing 
detail. This trend was exacerbated by occasional bad events, such as 
the Wen Ho Lee espionage case and the thought-to-be loss (actually a 
recordkeeping problem) of classified portable computer data storage 
devices at one of the laboratories. The reaction within the Government 
and in the press was very vocal and demanding of immediate changes. 
This has a lasting effect on trust and invariably led to more policy 
changes, more directives and standards that tend to be overly broad, 
sometimes contradictory, subject to interpretation, and difficult and 
expensive to implement. Increased transactional oversight came with 
these changes.
    Within the laboratories, recurring events bringing broad-brushed 
blame and disparagement have affected morale in a way that takes time 
to heal. Rather than dealing with the specific issues, the added 
oversight in each case is burdensome to all employees, invariably 
lowering productivity. The impact on recruitment and retention has not 
been great to date, but this is a serious concern if a more trusted 
partnership in national security is not restored and precious dollars 
are drained away from the mission work to unnecessary and redundant 
oversight.
    Mr. Turner. 34) The NAS study committee identifies a loss of trust 
between the NNSA and its labs as a key problem that is contributing to 
a poor management relationship and burdensome oversight policies and 
practices. The NAS report identifies this loss of trust for increased 
risk aversion at NNSA, which discourages the labs from conducting real-
world experiments. Do you agree? What is the impact on the quality of 
the science and engineering at the labs--and the labs' ability to 
execute their missions--if risk aversion leads to fewer and fewer 
experiments? Do you believe the sustainment of our nuclear deterrent 
might be at risk because of the safety requirements that lead to risk 
aversion and fewer experiments?
    Dr. Miller. 34) DOE Orders and NNSA Policies (NAPs) and the 
resulting oversight decisions are conservative and generally not based 
on National Standards. The focus is on process compliance, and over 
time, there has been an escalation of
requirements. Currently there are 845 requirement documents with 
thousands of
requirements.
    These requirements are especially pernicious in three ways. First, 
they can impede the adaption of best operational and business practices 
widely used in industry if they do not exactly conform to an existing 
Government requirement. Secondly, they tend to accentuate overly 
conservative risk-averse behavior. What often gets implemented is the 
most conservative interpretation of a requirement that does not balance 
costs and risks. The most conservative interpretation could arise in 
any one of the stovepipes that have a say in implementation or become a 
self-imposed constraint to avoid engaging the issue to avoid an 
excessive number of bureaucratic hurdles and roadblocks. Finally, the 
necessary extensive paperwork and non-value-added requirements often 
add difficulty in conducting research efficiently, adding major 
frustrations to the scientists.
    In addition, there is risk aversion in programmatic decisions (in 
NNSA and more generally, throughout Government and industry) driven by 
``fear of failure.'' Collectively, we have lost sight of the 
perspective that if every experiment is a success, you aren't trying 
hard enough. This makes it much harder for the laboratories to get 
funding for programs that attempt to take bold steps that would result 
in dramatic improvements in capabilities to meet an important national 
need. Also, when there is a setback or lack of progress in a program 
area at the Laboratory, there is a tendency in the system to 
micromanage the program based on the latest results, without looking at 
the bigger picture and overall progress toward a long-term goal. 
Progress- and strategy-based investment needs to carry the day, and not 
the ever-present Monday morning quarterback just avoiding the one-day 
story!
    One wonders whether the highly successful bold choices made at the 
start of the Stockpile Stewardship Program, such as the Accelerated 
Strategic Computing Initiative (resulting in a million-fold improvement 
in computing in a decade) and the construction of the National Ignition 
Facility (now providing the ability to create and study in detail the 
conditions in an operating nuclear weapon in a setting laboratory), 
would have been made in today's risk-averse climate. Also, one wonders 
whether they could have succeeded in today's governance and oversight 
climate in DOE/NNSA.
    Mr. Turner. 35) The NAS report notes that the ``evolution'' of the 
labs from nuclear weapons labs to ``national security labs'' is well 
under way, and that this will enable an expansion of the labs' work 
solving national security problems for many different Federal agencies. 
Within NNSA, this is called ``work for others,'' or ``WFO.'' The NAS 
notes that this evolution is critical to the future vitality of the 
labs.
    <bullet>  Does the current governance and management structure 
facilitate or impede WFO work at the labs?
    <bullet>  What steps could Congress take to make WFO work easier, 
more efficient, and more effective?
    <bullet>  Do you believe the labs can continue to expand their WFO 
work and not be distracted from their core mission of sustaining the 
nuclear weapons stockpile? As lab directors, how did you ensure this 
continued focus while also broadening the work conducted at the labs?
    <bullet>  In 2009, the Strategic Posture Commission said the 
President, ``should assign formal responsibility to the Secretaries of 
Energy, Defense, and Homeland Security and the Director of National 
Intelligence for the programmatic and budgetary health of the 
laboratories.'' Do you agree? How would such a structure operate--how 
should it be designed?
    Dr. Miller. 35) The NNSA laboratories have very special 
capabilities that derive from their fundamental nuclear mission that 
can be brought to bear on major challenges facing the Nation. These 
activities leverage and reinforce the investments made in the Stockpile 
Stewardship Program. Currently, LLNL applies its exceptional science, 
technology, and engineering and its leadership in high-performance 
computing to programs in weapons-of-mass-destruction nonproliferation 
and counterterrorism; the security of cyberspace and space assets in a 
highly connected world; protection of U.S. Armed Forces engaged in 
unconventional conflicts; energy and environmental security; and 
innovation supporting U.S. economic competiveness. In addition, these 
programs are critical in helping to attract a world-class workforce to 
our Laboratory.
    Management of the WFO projects, which exceed 600 in number, 
encounters red tape and bureaucratic inefficiencies. Each project is 
required by NNSA to have a separate Inter-Agency Agreement (IAA), which 
is submitted to the Livermore Site Office (LSO) for approval. Prior to 
project initiation, the Albuquerque Complex must certify availability 
of funds. Once certified, the LSO Contracting Officer signs the 
document and adds it to the contract. The Office of Management and 
Budget recommends an Umbrella ``Part A'' agreement that defines each 
agency's roles, responsibilities and accountabilities. Each task order 
``Part B'' would be a Statement of Work (SOW) and a fund transfer 
document. Application of this policy would greatly streamline the 
process.
    In addition to the work for NNSA, the work performed for other 
Federal sponsors would benefit from lower operational costs at the 
laboratories that could be achieved through the streamlined governance 
and oversight discussed in answer to previous questions. This together 
with fewer impediments to arranging interagency work would maximize the 
value to the Nation from the NNSA laboratories at a time when 
scientific and technological advances are sorely needed to address 
21st-century challenges to U. S. security.
    It is important to emphasize that, rather than a distraction, WFO 
is a valuable augmentation to SSP. The work adds depth, breadth, and 
strength to the laboratories' capabilities. SSP funding alone is not 
able to sustain our Laboratory's technical base; loss of WFO would 
jeopardize the long-term success of stockpile stewardship and the 
health of science and technology at LLNL. Many agencies of Government 
would benefit from access to the entire national laboratory system with 
the correct, efficient business model.
    The size of the SSP is constrained by funding, not by the 
availability of quality personnel at the Laboratory to perform the 
work. In fact it is very fortunate that WFO programs have been able to 
absorb the decrease in the size of the workforce directly supporting 
the SSP that has transpired (from 1,252 full-time equivalent (FTEs) in 
2005 to 1,083 in 2011). Otherwise, this talent would have been lost 
from the Laboratory and the many national security missions.
    As for an improved way to ensure multiagency support for and 
investment in the laboratories, this is a complex issue. There are pros 
and cons for all future arrangements (including consideration of fixes 
to NNSA). This is not just an executive branch issue, appropriations 
and budget authorization is the responsibility of many different 
committees in Congress.
    There is no easy answer. The Office of Science and Technology 
Policy has requested IDA's Science and Technology Policy Institute to 
address the governance of the Federal laboratories, particularly in the 
context of the future national security challenges. I encourage this 
effort and expect it to consider the extensive recommendations made 
from a series of national studies in developing recommendations how to 
best fit the national laboratory into the Federal structure in a way 
that they can maximize their value to the Nation--this must be the gold 
standard for future success in my view.
    Mr. Turner. 36) The labs are operated as federally funded research 
and development centers (FFRDCs). The FFRDC construct was created to 
allow the Federal Government to broadly determine ``what'' work needed 
to be done while the FFRDC determines ``how'' to accomplish the work. 
Federal Procurement Policy guidelines (OFPP Policy Letter 84-1) say 
that the Federal Government's monitoring of FFRDC performance ``shall 
not be as . . . to cause disruptions that are detrimental to the 
productivity and/or quality to the FFRDC's work.''
    <bullet>  Do you believe NNSA's current management and governance 
model for the labs operates in the spirit and intent of the FFRDC 
model? Why or why not?
    <bullet>  What might Congress do to ensure the FFRDC model is 
robust and executed appropriately?
    Dr. Miller. 36) In the written testimony I submitted for the 
record, I provide ample information and data that support my view that 
the FFRDC construct has broken down between DOE/NNSA and the 
laboratories. I concluded my statement with three ``Ts'': restore 
TRUST, eliminate TRANSACTIONAL oversight; and TURN OVER management to 
the people you hired to manage (the directors of the laboratories). 
Unfortunately, I do not know how to restore trust through congressional 
legislation and that is key for a positive future you and the Nation 
can depend on for solutions to our most vexing problems.

    Mr. Turner. 37) The current National Academies report, the 1999 
Chiles Commission, and the Strategic Posture Commission have all cited 
an ability to attract and retain world-class scientists and engineers 
as the critical foundation for having a world-class lab.
    <bullet>  Do you believe the labs are able to attract world-class 
personnel today? What attracts such people and makes them want to stay?
    <bullet>  Have we seen any loss of world-class people already?
    <bullet>  How does having modern facilities, labs, and 
infrastructure play into the labs' ability to attract and retain world-
class scientists and engineers? Do you have any worries in this regard? 
Would you care to comment on the recent cancellation of CMRR, and how 
that will affect the ability of the nuclear security enterprise--and 
Los Alamos in particular--to both attract and retain world-class 
plutonium scientists?
    Dr. Robinson. 37) First, let me address attracting world-class 
personnel:
    About 20 years ago Sandia created a program we called Strategic 
University Campuses to directly address our ability to find and hire 
the most outstanding individuals to our lab. We began with a list of 
universities where we had in the past sponsored R&D efforts (and thus 
where an alignment of some relevant technologies already existed, i.e 
such schools as Cornell and Purdue). We also added some universities 
based on their having Departments of Excellence in fields that matched 
our Core Competencies (e.g. MIT and Carnegie-Mellon). Finally, we added 
over time key regional universities that had supplied graduates in the 
past (University of New Mexico, Texas A&M, and New Mexico State), or 
universities that gave us wider access to a wider diversity of women 
and minority students in science and engineering (e.g. North Carolina 
A&T and UTEP). We periodically would invite the Deans of Arts and 
Sciences and Deans of Engineering to attend a Dean's Day, during which 
we explained the program's opportunities and our projected needs for 
technical staffing. We found enormous enthusiasm for this 
participation, with the intended effect that the faculty at those 
schools began to identify and ``push'' the most outstanding students in 
our needed specialties to consider careers at Sandia. In many cases we 
moved early to hire those they identified for summer internships or for 
Co-Op years at our labs.
    We can cite numerous hires over the past 20 years through this 
effort, where we hired ``the top computer science student in decades,'' 
or ``the most outstanding electrical engineer or physicist in recent 
memory.'' Many prospective grads had made perfect scores on the SAT's 
were identified to us, and we were nearly always successful in 
recruiting them to Sandia and have been more than delighted with their 
subsequent development here. We observed that this approach gave real 
meaning to ``affirmative action,'' as we often were able to improve our 
diversity with the most outstanding academic performers. The Strategic 
Campus program resulted in our appointing our own senior executives to 
become Campus Executives at these schools, where they often serve on 
university advisory boards or R&D boards. They commit to also lead an 
annual recruiting effort at these universities. Unlike Government labs, 
where periodic ``hiring freezes'' are periodically imposed, we fought 
hard to ``never close the door to hiring outstanding candidates,'' and 
our staff improvements shows the benefit of all of these multiyear 
efforts.
    Staff Retention: Once our hires get to know and respect the fact 
that ``theirs is not just a job, or even just careers, but when they 
are given key responsibilities for efforts that are vital to the 
security and future well-being of the Nation itself,'' they remain here 
and make major and important contributions.
    Major declines in morale have resulted from more and more 
burdensome bureaucratic requirements being piled on--particularly those 
that more often or not waste staff's precious time. These bright people 
do not hesitate to speak out. The reality, that these highly educated 
and conscientious people should not have to suffer such foolishness (as 
represented by many of the DOE safety and security orders and 
``permission slips''), is taken seriously by those of us who have been 
responsible for the leadership as all three labs will unanimously tell 
you. As I said in my written testimony, our attempts to reform these 
``requirements'' were almost never successful. I would challenge you to 
ask past NNSA leaders how often we, as well as they, attempted to gain 
relief; yet it almost never happened. I would wager that this is a 
prime factor in why all of the past NNSA officials, and review groups, 
have unanimously called for major reform. Without major changes to 
safety and security efforts--to make them more rational and raise their 
quality--the adverse consequences to the Nation's highest security 
strategies will grow to be truly severe.
    Mr. Turner. 38) As I noted in my opening statement, in 2009 a 
Stimson Center report said: ``the implementation of the NNSA Act failed 
to achieve the intended autonomy for NNSA within the Department of 
Energy. The Labs now must operate within a complicated set of 
bureaucratic relationships with both DOE and NNSA. An excessively 
bureaucratic DOE culture has infiltrated NNSA as well.'' Also in 2009, 
the Strategic Posture Commission said that, ``the original intent of 
the legislation creating the NNSA has not been realized. The desired 
autonomy has not come into being.''
    <bullet>  Do you believe the intent of the NNSA Act has been 
implemented? In other words, is NNSA truly semi-autonomous from DOE?
    <bullet>  Do you believe the roles, responsibilities, and lines of 
authority between DOE and NNSA are clear?
    <bullet>  What should Congress do to address this?
    Dr. Robinson. 38) Many of the aims for autonomy were designed to 
eliminate the foolish bureaucratic and misguided policies that had 
grown in over time. Against those aims, NNSA has been a failure. The 
then-Secretary of Energy when the NNSA Law took effect opposed many of 
the provisions, although the reasons for his opposition were never 
stated to the Congress (nor were understood by us). He refused to 
follow the terms of the NNSA Law: specifically in ``double-hatting'' 
both the security and safety organizations to take overall 
responsibility for the NNSA labs and plants, despite the direct 
prohibition against that within the NNSA act. My written statement 
discusses these intentional actions by that Secretary, assigning these 
major authorities exclusively to already poorly-performing DOE 
organizations which had no commitment to the success of NNSA missions. 
Yet they spend large amounts of NNSA funds, and impose onerous 
requirements on the NNSA labs and plants, without consideration of the 
adverse impacts they have caused to the strategic nuclear weapons 
programs. I once received a phone call from a very senior DOE OFFICIAL, 
who had recently been appointed, saying he was shocked by the 
Department's rhetoric, which he had just read, that ``No job is more 
important than the safety of the personnel and the environment.'' He 
said, ``While of course protecting employees and the local environment 
and citizens are important, he had always believed that preserving the 
strategic future of the United States carried higher importance than 
anything he could imagine.'' He then asked me, ``What has happened to 
the priority of the strategic mission we all used to be devoted to?''
    Thus, to summarize, the answer to this question is: ``No. There is 
no autonomy for NNSA. Other DOE Organizations still direct the Labs, 
and can spend the budgets of the NNSA, without balancing these 
expenditures against the loss of mission effectiveness that these 
expenditures cause. Unfortunately, such wrong-headed decisions have now 
become commonplace, rather than exceptions, within the NNSA Programs, 
and we seldom even hear NNSA or senior DOE officials complaining about 
it. Certainly the GOCO model, where science and technology labs were to 
have the leadership in ``HOW'' to do their work, with the Government 
concentrating on ``WHAT'' were to be the goals and funding, has been 
effectively shredded.
    Mr. Turner. 39) The 2009 Stimson Center report and the Strategic 
Posture Commission both concluded that major reform of NNSA was needed. 
Both groups recommended making NNSA fully independent from DOE. In his 
statement for the record for this hearing, Ambassador Linton Brooks, 
the former head of NNSA, says that major reform is now needed again. 
Ambassador Brooks says that the Strategic Posture Commission concluded 
that the current governance structure of NNSA ``cannot be effective in 
the long term. The record of recent years points to no other 
conclusion.'' On this conclusion, Ambassador Brooks said: ``I agree. 
The current `semi-autonomous' structure has proven to be too dependent 
on the personalities of DOE and NNSA leadership to be consistently 
reliable and effective . . . '' On whether Congress should revisit the 
Strategic Posture Commission's recommendation to make NNSA a wholly-
independent agency, Brooks says: ``My answer is yes. The present system 
has been tried for a decade by dedicated, hard-working and competent 
civil servants. It has not lived up to the Nation's hopes. We can do 
better.''
    <bullet>  Do you agree with Ambassador Brooks? Do you believe such 
large-scale change is again needed? Why or why not?
    <bullet>  Would such organizational change fix all of the issues 
identified by the NAS report, the Strategic Posture Commission, the 
Stimson Center report, and the myriad other reports? In addition to 
organizational change, what else would need to be done to address these 
problems?
    Dr. Robinson. 39) I strongly support that the opinions of 
Ambassador Brooks deserve your careful considerations. He is a wise and 
pragmatic man. (He took over the leadership of NNSA in its early years, 
and knows well all of the problems I outlined in the previous 
question.) I noted the difficulties he had in ``criticizing his parent 
organizations or his direct supervisors'', which was something counter-
cultural for a career military officer; yet he has come to be quite 
open about the paralyzing effect of having the bureauracy take over 
control of operations. Unless this is turned around, the Government 
will continue to waste both opportunities to improve our national 
security as well as to waste large sums of money.
    We can indeed do far better, and the past legacy of the Labs 
demonstrates this. The major organizational changes I implored you to 
consider within my statement, were designed to once again allow the 
Labs to make their maximum contributions to the national interest, and 
be far more effective in terms of important security contributions and 
cost-effectiveness for the taxpayers than has been the case for many 
decades. I urge your action to realize these opportunities for 
improvement.
    Mr. Turner. 40) Your written statement recommends eliminating NNSA 
and standing up a new, leaner, more focused agency reporting to the 
Secretary of Defense. What are the benefits of this approach? What are 
the challenges?
    Dr. Robinson. 40) The principal benefits derive from reporting to 
an organization where there is a high level of trust already in place 
between the labs and the DOD and military services. There is complete 
alignment between the organizations which would be joined together in 
their highest purpose: to ensure the preservation of peace and freedom 
of these United States for all time. It is hard to articulate any 
analogous ``purpose'' for the bureaucracy that has grown to be today's 
Department of Energy. For the most part, while the history of their 
actions would suggest a total disregard for the overarching importance 
we in the Labs would attach to ``preserving the Nation's security'', 
the DOE is seemingly much more strongly motivated by self-preservation 
of their own bureaucratic structure and power.
    Immediate benefits of being in DOD would include ``inherent trust 
relationships along with tighter communications between the ``customers 
and the suppliers.'' It would tear down the artificial boundaries now 
erected between the Labs and their Federal sponsors, and would indeed 
result in implementation of the original FFRDC (federally funded 
research and development centers) principles. I note once more that the 
DOD has proven itself to be a very successful example of a ``civilian-
controlled'' department. The intended roles of who should determine 
WHAT, versus HOW, would be natural, and not in conflict, as has been 
too often the case in the past.
    Other questions and answers (below) deal with these same points, 
especially in my answer to Question 55 [Now Question 45], where I have 
provided a longer discussion of the issues and my judgment on a path 
forward.
    Mr. Turner. 41) The NAS study committee recommended that NNSA 
``purposely free directors to establish strategic science and 
engineering direction at the Laboratories.'' What concrete actions 
would you recommend NNSA and Congress take to ``free [lab] directors to 
establish strategic science and engineering direction at the labs?''
    Dr. Robinson. 41) I am embarrassed that the NAS did not find that 
to still be the case at Sandia, as there is no question but that the 
pursuit of strategic science and technology was my highest priority, 
and for my entire management team of Vice Presidents, Directors and 
Managers, for the ten years I served as Laboratories Director (1995-
2005). It would be an impossible task to lead a complex, multiprogram 
laboratory with nearly 2,000 Ph.Ds and nearly 8,000 direct employees 
like Sandia (or similarly for LANL or LLNL) without such a highly 
skilled, hands-on management team. We spent much of our time in deeply 
technical discussions, and in strategic and mission planning, problem 
solving, and in examining alternatives and opportunities for major 
advancements. I can imagine no other approach for advancing the state 
of the art for scientific discoveries and applying them to meet the 
needs of highly classified missions, even with the harnessing of the 
best of modern computing and communication tools, than having such a 
closely knit local team with constant interchanges.
    The labs have often pointed out that, even after hiring the 
brightest and best recent graduates with Ph.Ds or other advanced 
degrees, it takes approximately 10 years before they can learn and 
understand past classified advances to a sufficient level as to be 
capable of making independent advances in specific technologies. It 
takes even longer times and a wider set of experiences and learnings 
before even the most talented individuals can be qualified to take on 
important management responsibilities for multidisciplined programs or 
projects within the Labs. Thus, it was crucial that the senior 
management devote much effort to ``Succession Planning'' through 
identifying individuals with the right skills, demeanor, and potential; 
so we could then manage their careers at the laboratory to prepare them 
with the right knowledge and experiences be able to succeed in 
leadership positions for future complex and multi-disciplined programs 
and activities. I found that over the years, this training is very much 
akin to having earned Ph.D. equivalencies in at least 5 to 8 technical 
fields, before you were qualified to lead major Lab efforts. These 
enduring requirements thus inevitably mean a lifetime career commitment 
has to be made by these individuals to the Laboratories and their 
missions. Thus, it is in my mind nothing short of a tragedy, when the 
recent contract changes in the GOCO ``parent organizations'' led to 
immediate budget shortfalls and the resultant large-scale (i.e. 
thousands of) lay-offs--voluntary or involuntary--at Los Alamos and 
Lawrence Livermore in recent years. The tremendous loss of talented 
people, including a great many who were in that process to become 
future scientific leaders within the Labs, has caused major damage. 
But, just as damaging has been the endless growth of useless 
bureaucratic tasks imposed by the DOE its predecessors, that have 
discouraged many of the talented scientists and engineers at all ages 
from continuing their ``lifetime commitment'' to the Laboratories' 
futures. Many have just ``given up'' and left. I realize my testimony 
to the HASC may be seen as harsh criticism of the current situation, 
but against the backdrop which I have just described to you, I hope it 
will be even more apparent to you that these problems must be solved 
and quickly, (and that such errors not be repeated for the upcoming 
``recompetition'' for the Sandia contract, now being formulated and 
scheduled within the DOE and NNSA.) I once again urge you to make very 
major changes to the ``failed GOCO'' we now all find ourselves caught 
up in.
    Mr. Turner. 42) Do you agree with the NAS study committee's 
recommendation to ``rebalance the relationship and the set of 
principles laying out the boundaries and roles of each management 
structure'' and memorialize such principles and relationships ``in 
memoranda of understanding between NNSA and its Laboratories''? What 
principles of the relationship between NNSA and the labs would you 
suggest be included in such an agreement? What would be a potential 
enforcement mechanism for such memoranda of understanding?
    Dr. Robinson. 42) You have doubtless heard the simplified 
description of the desired relationship between the Labs and the 
Government in a ``GOCO'' relationship (Government-owned and contractor-
operated) described as ``the Government should decide `WHAT' is to be 
done, and the Lab decides `HOW' it will be done.'' A better description 
of how the relationship ought to work is where ``the Lab proposes, and 
the Government disposes.'' For example, in my service at Sandia, we 
placed a very strong emphasis on Strategic Planning, emphasizing that 
we needed to plan our research and development efforts, our core 
competencies, and our detailed annual plans and budgets to align with 
our missions. That provided a basis to ensure that we would be 
addressing the highest priority assignments and opportunities to 
succeed in our mission responsibilities, and that all parts of the 
laboratory would be knowledgeable of, and strongly connected to, these 
mission efforts. An ideal arrangement would be to have the NNSA (or its 
successor organization) review in detail, and discuss and approve the 
Strategic Plan and its more detailed annual Plan. Their approval should 
be confirmed in writing to note their satisfaction with ``WHAT'' is to 
be done, and they must step back from further management of ``HOW'' 
(or, God-forbid, the ``micromanagement'' that has increasingly 
characterized the recent decades will continue to grow.)
    Appropriate vs. Inappropriate Organizations: One of the great 
tragedies that was visited upon the Government/lab relationship in 
recent years (primarily since the end of the Cold War) has been the 
creation of new job titles within NNSA called ``Program Managers.'' I 
used the word ``titles'' because the classic role for Program Managers 
was not what should have been intended for these individuals, and there 
were no consensus job descriptions of what their duties would or would 
not be. Over time these individuals have increasingly attempted to 
serve as ``real'' program managers and to attempt to dictate at a more 
detailed level the individual budgets and tasks for the labs, in the 
classic sense of ``Government sponsors'' and their ``contractors.'' 
(The DOE in fact most often uses the term ``contractors'' when 
referring to the GOCOs, which is not at all what was considered of the 
basis for establishing and depending upon GOCOs to lead and operate the 
efforts of researching, designing, and delivering the designs for U.S. 
nuclear weapons, nor for the other missions of nuclear detection, 
preventing nuclear proliferation, or combatting nuclear terrorism.) I 
can assert here that to believe it could even be done in ``a Washington 
detailed-direction and management of these unique high-tech efforts by 
a Washington bureaucracy'' was recognized to be an impossibility by the 
wise leaders who created the Manhattan Project and the original GOCO 
model. They made a clear choice to ``put the scientists in charge'' of 
the mission, and while they provided close support and monitoring of 
the tasks, but the Government role was never seen to be a ``detailed 
management role'' but was to exist as a partnership, with each doing 
appropriate tasks: the NNSA staff should be primarily working in close 
liaison with the labs and with other Government entities, such as the 
White House and the NSC, the Department of Defense and the Intelligence 
agencies, the Congress, and the OMB. Today, we would add the Dept. of 
Homeland Security to the list.
    A startling example of how bad the situation has become at the 
NNSA, as it has been in a self-generated evolution to attempt to 
pervert the arrangement from the original GOCO model to ``a sponsor/
contractor relationship''--in which the Government entity undertakes 
``to directly manage the technical programs''--can be seen from recent 
budget difficulties which have become a very great concern in recent 
years. When the price for developing, manufacturing, and delivering a 
new Life Extension Program (LEP) for a major nuclear weapons system 
seemed to be unaffordable, one Lab stepped forward to the DOE/NNSA and 
said ``We would be willing to readjust our overall suite of weapons 
activities--just as we did in the past--to accommodate the new tasking 
by reassigning our people internally from lower priority R&D tasks, in 
order to meet the deadlines required for this important deliverable to 
the DOD, without any additions to our overall budget.'' The response 
from the NNSA management was, however, ``We have checked with the 
program managers (within the NNSA and DOE) and none of them want to 
give up any of their budgets or change the schedules for their 
activities at this time. Thus we guess we just won't be able to approve 
your taking these actions.''
    To say that this recent anecdote shows that the roles and 
responsibilities within the current GOCO have fully reached a point of 
impossibility is truly an understatement.
    I would emphasize that the way in which this HASC question is asked 
fails to recognize the basic problem: the original GOCO contracts were 
at most a few pages in length, but they have grown to be large volumes 
by today--as the writers mistakenly believed them to be classic 
procurement contracts, rather than a direct assignment for the mission 
responsibilities for nuclear weapons RD&D mission to the Labs, as their 
partner institution. Exhaustive contracts are not the answer.
    Thus, while having begun the answer to this question, with what 
must be changed, let me now attempt to write several ``principles'' 
which your question seeks. I cannot attempt to write ``a complete 
set,'' nor do I believe that would even be the right approach for what 
is needed.
    <bullet>  The Government will return to a simple contract that 
outlines the mission responsibilities that will return to the Labs/
GOCOs for day-to-day management.
    <bullet>  The scientific and technical directions and the 
management of the work programs will remain the exclusive 
responsibility of the Laboratory Director and his or her managers.
    <bullet>  The Federal entity and the Laboratories will work 
together to mutually develop schedules and accompanying budgets for 
carrying out the mission programs within the laboratories.
    <bullet>  The performance reviews for the Labs will exclusively 
focus on how successfully the ``What's'' have been addressed, and only 
should there be a case where there were very serious shortfalls to have 
happened in ``How's'' of the administrative, budgetary, safety, or 
security performances, would these administrative and institutional 
issues have any bearing on the judgment of performance.
    Mr. Turner. 43) Going back to the early 1990s--to the Galvin 
Commission and before--there have been dozens of national commissions, 
studies, and reports recommending significant reform to the way DOE and 
NNSA govern and manage the labs. Many leaders in NNSA and DOE have 
tried to carry out reforms, streamlining efforts, and initiatives to 
reduce burdensome policies and practices. But, today, the NAS report 
still finds major problems with the governance and management structure 
NNSA uses for the labs. Why aren't we making any progress in improving 
the governance and management structure for the labs? Are these 
recurring problems affecting morale at the labs? Are they impacting the 
quality of the science and engineering? Are they impacting the labs' 
ability to attract and retain world-class people?
    Dr. Robinson. 43) This question set truly asks ``the 64 dollar 
questions''! Let me use my own experience to attempt to address them. 
When I began at Los Alamos in 1967, as a fresh young Ph.D., the ``halo 
effect'' (from having succeeded in the accomplishment of the Manhattan 
Project to produce the devices that ended WORLD WAR II) was still very 
much in evidence. All major decisions were either already delegated to 
the Labs, or else the Atomic Energy Agency leadership would choose to 
meet directly with the lab leaders to discuss new challenges, 
opportunities, and assignments, with the Labs being tasked with several 
week deadlines to respond to what should be done to meet these. Soon 
after rising further within the Lab management at Los Alamos, I found 
that, if there were weaknesses in the system, it was primarily on the 
university side of the GOCO, where periodic reviews were carried out by 
``large committees of academics'', who were mostly completely 
unfamiliar with the missions or the work within the Lab, and whose 
reviews were of a most ``cursory nature.'' Worse yet, over time, as the 
military protests of the late '60s expanded, the membership of these 
committees began to include more and more professors who opposed 
nuclear weapons in general, and stated that the University of 
California should no longer be the responsible institution for 
overseeing these Labs. This internal dissent began to be more and more 
the focus of the exchanges during the university review committee 
meetings, rather than to analyze the growth of oppressive oversight by 
the the Energy Research and Development Administration (ERDA) as 
uncontrolled bureaucracies ``exploded'' on the scene. [Remember that 
ERDA was formed by adding two political layers of Administrators over 
the top of the residual AEC organization, with the disappearance of the 
five-member Commission that had led the AEC.]
    As one might expect, with political appointees with little if any 
past knowledge of the nuclear weapons missions, or of the advanced 
science missions, these new Administrators put their focus on the ``new 
mission'' of the overall organization--to help address the energy 
crisis and related problems. In particular, with administrative and 
support organizations then having little contact with or direct 
management from the new top management, the bureaucratic tendencies and 
initiatives literally ``ran amuck'' and ``grew like Topsy.'' It was at 
this point when the Department of Energy was created, primarily by 
adding in additional parts to ERDA from other agencies, while then 
placing two additional ``political layers of officials at the top.'' 
These new officials were ``even more politically focused than those of 
the past, and quickly showed to be even further out of touch with any 
of the operations, missions, or activities'' of the resultant new 
Department. Taking advantage of that ``inattention,'' the DOE 
bureaucracies then explosively grew in the sizes and greater number of 
divisions within these bureaucracies. The classic approach within all 
bureaucratic groups, ``when they are left to their own devices,'' took 
hold, and they began to write even more and more detailed Instructions, 
Orders, and Directives from the ``Washington Headquarters,'' beginning 
to enlarge the HQ role to achieve full dominance and control over all 
functions. With the increase in the lengths and numbers of Orders and 
Directives (which to those of us who had been in the GOCO system prior 
to that seemed like a total waste of human energies by all concerned), 
it seemed that those who were writing these ``larger and larger 
volumes'' had almost no knowledge of what either R and D, nor nuclear 
matters were all about. Certainly, it is fair to say that the two parts 
of the GOCO had grown ``farther and farther apart,'' and communications 
either became more confused or even nonexistent. By the time of the 
Galvin Committee effort, primarily composed of industrial leaders, 
completed its report entitled ``Alternative Futures'' (published in 
February of 1995), these industrial leaders who had examined the 
situation expressed considerable shock and dismay. Of course even 
though the Chairman, Bob Galvin, was enormously respected, as were the 
members, the senior officials of Department of Energy neither 
understood, nor showed any interest in, either taking on the problems 
described or implementing any of the recommendations to address the 
multiplicity of problems cited. The one enduring change was their 
recommendation that ``Quality Principles and Methods'' ought to be put 
into place in both the DOE and the Labs and Plants. This was embraced, 
and did achieve some marked differences in improvements within the 
institutions that voluntarily embraced Quality, but for the Government 
side quality initiatives all too quickly disappeared off their 
``attention screens.''
    The actions of the U.S. Senate to drive the legislative changes 
that created the National Nuclear Security Administration (NNSA) in 
1999, was the primary subsequent attempt to respond to the problems 
that the Galvin Committee cited by reorganizing and improving the 
deteriorating situation for at least the Nuclear Weapons Labs, Plants, 
and Headquarters. It repeated the goal to recover the principles of the 
previous GOCO arrangement, but as I have exhaustively reported within 
my written statement for the HASC Strategic Forces Hearing (February, 
2012) and elaborated further upon in addressing these QFR's; the NNSA 
has failed to meet the hopes that all involved with that legislation 
had for it. Today its responsibilities and programs are experiencing 
very serious difficulties, with the conclusion having been reached by 
almost all associated with the NNSA that major changes are 
necessitated.
    Mr. Turner. 44) The NAS study committee identifies a loss of trust 
between the NNSA and its labs as a key problem that is contributing to 
a poor management relationship and burdensome oversight policies and 
practices. The NAS report identifies this loss of trust for increased 
risk aversion at NNSA, which discourages the labs from conducting real-
world experiments. Do you agree? What is the impact on the quality of 
the science and engineering at the labs--and the labs' ability to 
execute their missions--if risk aversion leads to fewer and fewer 
experiments? Do you believe the sustainment of our nuclear deterrent 
might be at risk because of the safety requirements that lead to risk 
aversion and fewer experiments?
    Dr. Robinson. 44) This is a powerful question, and while the issues 
of ``trust'' and ``risk aversion to experiments'' have received little 
if any formal attention, they are in fact root causes of the manifold 
difficulties between ``Government organizations'' and ``scientific 
institutions.'' Over my 50-year career I have seen the pendulum swing 
only in one direction, toward fewer and fewer experiments, but only 
part of that is good, and that is the reduction in experiment numbers 
for a given project because of computer modeling of each experiment, 
which allows better analysis and hence better predictions of the 
results of future experiments; so one can ``skip'' some steps that were 
always done in the past. However, I also see the conflict between 
Washington's increasing aversion to fund experiments that have any risk 
of either (1) not succeeding, or (2) potential safety risks for 
personnel engaged in experimental work. There is almost a textbook 
``lack of a common understanding'' between those who fund and oversee 
experiments and those who carry them out. One of the greatest 
scientists of the Manhattan Project was Enrico Fermi, who used to chide 
the scientists during his time at Los Alamos not to forget ``the 
scientific method,'' which requires experimental observations as the 
key to scientific advancement--insofar as experimental results either 
provide support for or evidence against proposed theories. He said 
``Always remember it should not be called an experiment unless it has 
at least a 50% chance of failing.'' What he meant was that experiments 
should be defined to delineate between opposing views by shedding light 
on which provides the best scientific explanation of what is observed. 
Thus, one should never get caught up in only taking conservative steps 
by limiting your experiments to those that are designed to be 
successful, rather than to carry out the best test to show which theory 
is ``correct.''
    One fundamental conflict in this regard is when the ERDA 
Headquarters once published a document that declared that their new 
philosophy would be a preference to only fund ``Demonstration 
Projects'' (as these normally take such ``baby steps'' in pursuit of a 
goal that they have little if any scientific value). Ever since, this 
error has been repeated often in DOE plans and documents. Nothing could 
be more in conflict with how the Scientific method best works, as one 
can be misled that by taking what some consider the ``preferred path 
and theory'' without any basis of proof. By only building 
demonstrations around those initial assumptions, you have no basis for 
understanding what to do next when a demonstration fails. The optimum 
way to pursue understanding of the operative science for any aim is to 
carry out carefully planned experiments to demonstrate which factors 
are the driving ones, and based on their results, then move up the 
ladder to more refined tests of the hypotheses.
    Nothing could be more fundamental in the ``failures to 
communicate'' between Washington and the Labs, than this fundamental 
difference in approaches. It undoubtedly provides the basis for 
``distrust,'' with the parties unable to even communicate sufficiently 
to decide on a different approach.
    Mr. Turner. 45) The NAS report notes that the ``evolution'' of the 
labs from nuclear weapons labs to ``national security labs'' is well 
under way, and that this will enable an expansion of the labs' work 
solving national security problems for many different Federal agencies. 
Within NNSA, this is called ``work for others,'' or ``WFO.'' The NAS 
notes that this evolution is critical to the future vitality of the 
labs.
    <bullet>  Does the current governance and management structure 
facilitate or impede WFO work at the labs?
    <bullet>  What steps could Congress take to make WFO work easier, 
more efficient, and more effective?
    <bullet>  Do you believe the labs can continue to expand their WFO 
work and not be distracted from their core mission of sustaining the 
nuclear weapons stockpile? As lab directors, how did you ensure this 
continued focus while also broadening the work conducted at the labs?
    <bullet>  In 2009, the Strategic Posture Commission said the 
President, ``should assign formal responsibility to the Secretaries of 
Energy, Defense, and Homeland Security and the Director of National 
Intelligence for the programmatic and budgetary health of the 
laboratories.'' Do you agree? How would such a structure operate--how 
should it be designed?
    Dr. Robinson. 45) Let me note that the first five lines of this 
question are identical to Question 12 [Now Question 104], that also 
focuses on the movement to become ``true national security labs,'' 
rather than only ``nuclear weapons labs.'' I will attribute this to the 
``great minds'' phenomena. The questions that begin at the end of line 
5 are quite different, and I will address Question 55 [This Question] 
here, but suggest that there may also be other relevant and useful 
points in the answer to Question 12 [Now Question 104].
    As the NAS Report points out, Sandia began the focus on wider 
national security issues earlier and is much further along in 
``becoming true national security labs.''
    That phrase is a goal we wrote in Sandia's Strategic Plans in the 
early '90s, and the achievement of which is perhaps my greatest 
contribution for the years I and my successor served as Sandia's 
President. Although the trend toward greater support from other 
national security agencies expanded greatly, 2 years after my 
retirement the ``Work for Others'' funding (from agencies such as DOD, 
IC, HSD, and military services) the WFO total finally exceeded the 
level of funds provided by DOE. I take this as evidence that we had 
reached a condition of being a true national security lab.
    A central criterion in taking on any of this additional work was 
that it had to be synergistic and to either directly rely on, or 
directly improve the capabilities required for executing the nuclear 
weapons program responsibilities. For the most part, it is my 
experience that the WFO work has not been subjected to attempts at 
micromanagement by DOE or NNSA. Two years ago, in fact, NNSA publicly 
embraced the expansion of these Work for Other's efforts in the 
national security areas as an important factor for the future of the 
NNSA and the Labs. I believe the importance of the Labs' contributions 
overall to the Nation's security has been significantly enhanced by 
having expanded our security horizons. In the years since the end of 
World War II the uniqueness which our three Labs demonstrate in being 
large multidisciplined, multiprogram labs has made us more and more 
unique, while almost all large U.S. corporate labs and Government labs 
have consolidated or greatly declined, rather than expanding as the 
breadth of major scientific technical specialties has expanded and 
broadened.
    When I became Sandia's President, I asked Lockheed Martin if they 
would expand the membership of Sandia's Board of Directors to include 
major figures from the wider defense communities, so that our total 
Board could be judged ``to be even more representative of the national 
interest.'' They agreed, and we did so, by adding a former Secretary of 
Defense and former Director of CIA, several former flag officers at the 
four-star level, and a well-known defense scientist then at a 
university, plus two other ``outside'' (i.e. non-Lockheed Martin) board 
members. We then also created a specific National Security Advisory 
Board, staffed with a former Chairman of the JCS and other key military 
and agency leaders. We similarly expanded an existing Intelligence 
Advisory Board and elevated its membership. All of these made their 
reviews and recommendations to the Laboratory Director and to the Board 
of Directors, just as did our many academic and engineering review 
Boards.
    In response to your question about whether the expansion of our 
responsibilities into other national security areas were ``not a 
distraction from our core missions of sustaining the nuclear weapons 
stockpile.'' General Larry Welch, former Commander to the Strategic Air 
Command (SAC) and former Chief of staff of the Air Force, who was and 
is a member of the Sandia Board of Directors, helped me address that 
same question when it was asked of me by the Board. He noted that in 
the years in which he commanded SAC, and later when he commanded the 
full Air Force, the direct nuclear weapons portion of their overall 
budgets that were devoted to nuclear weapons was only 10% of the total, 
but yet there was no question at any time that the nuclear defense was 
by far the most important part of our national defense efforts, or that 
they were given the highest priority for his energies and efforts, as 
commander. We and the full board mutually agreed that even though 
Sandia was already on a trajectory for the nuclear weapons budget to 
become only half (or less) of our total laboratory budget, there was 
similarly no question that the nuclear weapons efforts at Sandia were 
of the highest importance among all of our programs, and would always 
be viewed as such by all of the management and employees, based on its 
strategic value to the Nation and to the uniqueness of our functions 
(which exist no where else).
    Finally, on the issue of the structure proposed by the Strategic 
Posture Commission, their recommendation is a small variation of a 
similar idea proposed in the Defense Science Board Report on Nuclear 
Capabilities (reported out in December 2006). This later report 
proposed that a (Government) Board of Directors should oversee an 
independent NNSA (equivalent) and the labs and plants, with the 
Secretary (or Deputy Secretary of Defense) as the Chairman, the 
Secretary of Energy as Vice Chair, with the heads of Intelligence, 
Homeland Security, and any other key stakeholders, added to the Board. 
That recommendation, like the similar Strategic Posture 
recommendations, would bring back many of the advantages of the 
original Atomic Energy Commission, with political appointees who are 
``states-men and -women,'' who are deeply knowledgeable about the 
missions and/or technology, and who could, together, provide creative 
approaches and better integration of the advanced technical 
capabilities for the Nation's overall defense. It is close to, if not 
the best, solution for the future.
    Mr. Turner. 46) The labs are operated as federally funded research 
and development centers (FFRDCs). The FFRDC construct was created to 
allow the Federal Government to broadly determine ``what'' work needed 
to be done while the FFRDC determines ``how'' to accomplish the work. 
Federal Procurement Policy guidelines (OFPP Policy Letter 84-1) say 
that the Federal Government's monitoring of FFRDC performance ``shall 
not be as . . . to cause disruptions that are detrimental to the 
productivity and/or quality to the FFRDC's work.''
    <bullet>  Do you believe NNSA's current management and governance 
model for the labs operates in the spirit and intent of the FFRDC 
model? Why or why not?
    <bullet>  What might Congress do to ensure the FFRDC model is 
robust and executed appropriately?
    Dr. Robinson. 46) The FFRDC construct began and was used 
extensively during World War II, primarily on the premise that neither 
existing Government organizations nor private commercial organizations 
already had the means or the capability to attract the level of 
scientific and technical personnel needed to carry out high-priority R 
and D needs. FFRDCs were usually separate nonprofit organizations 
created for a specific purpose and for a specific Government agency 
(the War Department, and later, the Department of Defense), although a 
small number of FFRDCs have since been charted to simultaneously 
support several agencies (RAND, and MITRE.)
    A review of the FFRDC model by the OTA stated that ``GOCOs are not 
strictly FFRDCs,'' although there are great similarities, and indeed 
over the years, we at Sandia have carried out joint visitation 
interchanges with particular FFRDCs (at their requests) to share 
methodologies we each use for best ensuring the retention of key 
personnel and maintaining core technical competencies.
    Other highlights from the OTA Notes (available online) that are 
apropos to this question are: (here I have placed some items in Bold/
Italics)

    Why Federally Funded Research and Development Centers?

    <bullet>  FFRDC set up to provide objective assessments of military 
problems/programs of increasing complexity. They have long-term 
partnership relationships with the Federal Government--provides long-
term continuity. Federal Government's structure cannot attract needed 
scientific talent. FFRDCs act as honest-broker, so they need insulation 
from their customers as well as private sector.

    <bullet>  FFRDCs established as private nonprofit organization 
separate from the Government--so that they do not experience pressure 
to conform, from Federal Government or industry.

    <bullet>  Receive long-term access to information (sometimes 
classified) from both Federal Government and industry (which is why 
most FFRDCs are independent, nonprofit corporations, than university-
sponsored centers--universities' perception that classified information 
runs counter to open inquiry).

    Benefits

    <bullet>  FFRDCs maintain intellectual capital better than for-
profit (which may need to give up talent due to contract win or loss)
    <bullet>  FFRDCs can give Federal Government means of integrating 
proprietary information from multiple for-profit companies

    <bullet>  Lack of unified Federal Government regulations and 
policies:

        <bullet>  no protection for their function
        <bullet>  regulated by sponsoring agencies without 
        comprehensive policy framework
        <bullet>  subject to acquisition regulations

    Solved on case-by-case basis
    Assets of research center belong to Federal Government or center?
    How are assets disposed in the event of center closure?
    Results of study accessible to outside the sponsoring agency?

    Please note that today only the Department of Defense strictly has 
FFRDCs, and relocating a restructured NNSA along with the 3 nuclear 
weapons Labs to the DOD would permit such a structure quite naturally. 
From personnel experiences from the exchanges with the senior managers 
of DOD FFRDCs, I can state for sure that in the areas of the language 
you quoted in this question: sp., fed. gov.'s monitoring of FFRDC 
performance ``shall not be as . . . to cause disruptions . . . 
detrimental to productivity and/or quality to the FFRDC's work''--my 
conclusion is that the DOD generally has succeeded over the years in 
those aspects, while, as this whole document points out, NNSA within 
the DOE is failing badly. Thus there are few grounds to conclude that 
the current (DOE/NNSA) management model for the Labs ``operates in the 
spirit of the FFRDC model,'' rather ``it is quite the contrary.'' The 
proven track record of DOD ``not to micromanage'' their FFRDCs, but to 
remain strongly supportive of the FFRDC's independence in remaining 
closely interested in the work of their FFRDCs, and in depending on 
them to help the DOD solve its important scientific and technical 
problems, is also suggestive of the way the Labs functioned under the 
Army Corps of Engineers during the Manhattan Project, versus the myriad 
of problems that have appeared and grown since the AEC was morphed into 
what is now the Department of Energy. This is reminiscent of my 
February testimony to you where I said (on page 9):

          ``Regarding what to do, I kept asking myself, ``Why is it, in 
        the those years in which these organizations existed as GOCOs 
        under the U.S. Army Corps of Engineers, their successes were so 
        extraordinary and history making, but they have now degenerated 
        so badly? The answer as to what might be done to fix the 
        current situation almost suggests itself:

    ``Why not try going back to the much simpler organizational 
approach that functioned so well during the Manhattan Project?''
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MS. SANCHEZ
    Ms. Sanchez. 47) The NAS study committee recommends that ``NNSA, 
Congress, and top management of the Laboratories recognize that safety 
and security systems at the Laboratories have been strengthened to the 
point where they no longer need special attention. NNSA and Laboratory 
management should explore ways by which the administrative, safety, and 
security costs can be reduced, so that they not impose an excessive 
burden on essential science and engineering activities.''
    <bullet>  Does the NAS study committee have any examples of how 
these costs may be ``an excessive burden?''
    <bullet>  What evidence did the committee consider in reaching this 
conclusion? Is your conclusion that there are no longer safety risks in 
nuclear operations at the labs?
    Dr. Shank. 47) Our study did not investigate the safety risks in 
nuclear operations at the Laboratories. Nuclear operations represent a 
small fraction of the work performed at the Laboratories. Our comments 
are pertinent to the vast majority of the work that looks very much 
like activities taking place in industry. Members of the committee had 
extensive experience in industrial research laboratories. The hundred-
plus NNSA staff plus contractors perform oversight at a transaction 
level at each Laboratory. The Laboratories have hundreds of people 
responding to NNSA oversight. The performers of science and engineering 
work described the large amount of time they spend on an excessive 
formality of operations. To this point, several scientists and 
engineers complained that the burden was so great that it created a 
bias against experimental work. Finally, the sizes of the safety 
organizations at the Laboratories are outsized compared to such 
operations at industrial laboratories.
    Ms. Sanchez. 48) Who should have main line of responsibility to 
ensure nuclear safety and security? Is overseeing the safe operation of 
the Nation's nuclear weapons complex an inherently Governmental 
function? If so, should there not be strong DOE Headquarters and Site 
Office oversight functions for nuclear operations and their safety? 
Why/why not?
    Dr. Shank. 48) Nuclear operations represent a small fraction of the 
work at the Laboratories. We did not form an opinion on safety issues 
in nuclear operations in phase 1 of our study.
    Ms. Sanchez. 49) A number of employees, including the unions who 
provided testimony to the NAS panel and at least one former lab 
director, have expressed concern that the private for-profit model is 
harming the labs, in that many senior scientists have chosen to leave, 
and production and research is driven by performance-based incentives. 
The NAS report finds that the bureaucratic frustrations that are 
affecting all levels within the labs, ``are not traceable to the M&O 
contractor or the contracts themselves,'' and found that the lab 
directors' ``primary objective remains to manage the Laboratories in 
the public interest.''
    <bullet>  Do you think the criticism of some of these employees--
that the for-profit motive is harming the labs--is valid?
    <bullet>  What pressures, if any, result from a fee-based incentive 
system?
    <bullet>  Have you heard of any concerns that pressure to meet the 
fee-based incentives have led to any underreporting of safety incidents 
or any other problems?
    Dr. Shank. 49) I repeat here the answer to Question 24 [Now 
Question 6] that is very similar. We did not receive any testimony that 
fee-based incentives led to underreporting of safety incidents or any 
other problems.
    Answer to Question 6:
    Our committee took the issue of private versus public contractors 
and the influence of increased fee following the congressional action 
in 2004 very seriously. We sought out and listened to current and 
former employees of the Laboratories. One lab, Sandia has been managed 
by a private entity since its inception. The other two labs are now run 
by LLCs. Other than increased fee, the pre- and post-2004 contracts are 
very nearly the same. We asked the NNSA if the increased fee drove 
behavior in a way the public interest was at risk. The answer was no. 
We asked the laboratory directors whether fee drove their management 
decisions and they emphatically said no. We looked at turnover of the 
laboratory population and found that it is about 4% annually and that 
is unchanged before and after 2004. We talked with all levels of 
management and bench scientists to determine whether specific concerns 
could be traced to the contract change. We could find none. We did find 
the formation of the LLC cost each of the labs about $100 million 
dollars. We did find that at about the same time that the contracts 
changed there were modifications to the benefits of all the 
Laboratories including the LLC-managed labs. We found that in the case 
of Livermore there was a budget reduction that resulted in layoffs. We 
asked concerned laboratory staff members to help us to identify and 
quantify specific issues arriving from the new contracting paradigm to 
form a basis for commenting on the contract changes. We were unable to 
obtain verifiable information to guide us. We made a comment in our 
report that the issue of acting in the public interest is so important 
that although we were not able to identify problems, constant vigilance 
will be required going into the future.
    Ms. Sanchez. 50) Mr. Shank, in the question and answer session in 
response to the question of whether privatization of the labs 
contributed to the loss of senior personnel, that while conducting the 
NAS study you asked for ``a list of significant people that have left 
the laboratory that affect the laboratory operation for the people who 
expressed that concern. We were not given information that was 
different than what we were able to understand. We asked that from the 
labs, the lab directors, and from the people who made the accusations, 
or that experienced the concerns. We could not verify that on a major 
scale.'' What information were you given? Was there information you 
asked for and were not given? What assumptions were made in reaching 
your conclusions?
    Dr. Shank. 50) We asked staff that raised these concerns to supply 
us with the names of significant people that left the laboratory and 
did not receive such a list. We asked the Laboratories about the 
turnover at the laboratories and found that it was about 4% annually, 
before the contract changes, and about that same level up to the 
present. We asked the Laboratories if there was significant loss of key 
personnel and the answer was no.
    Ms. Sanchez. 51) What can and should be done to strengthen NNSA's 
ability to perform effective quality assurance? Does NNSA have the 
necessary expertise and leadership structure that is conducive to 
effective oversight?
    Dr. Shank. 51) NNSA has among its leadership and staff the 
necessary expertise and leadership to perform effective oversight. The 
problem is how the oversight is being performed. Our report describes 
the dysfunctional relationship between the Laboratories and NNSA 
oversight. In the answer to Question 7 [Now Question 99]. we talk about 
moving from costly and burdensome transactional oversight to auditing 
qualified systems. I repeat below the answer for Question 99.
    Answer to Question 99 given below for completeness.
    To address this question I think it is instructive to understand 
how we have come to the current situation. The response of Congress and 
the DOE to a series of single point failures at Laboratories and 
production facilities has been to create new structures, orders, and 
organizations to provide enhanced oversight at all DOE FFRDCs. The 
increase in compartmentalized oversight entities has led to an 
extraordinary burden for the Laboratories. The issue of trust arises 
because the Laboratories are treated as distrusted entities requiring 
large teams of people overseeing all transactions. This approach is 
costly, inefficient, and discourages the Science and Engineering Staff.
    There is a small fraction of the work at the Laboratories where a 
failure would have a high consequence and therefore require a high 
degree of operational formality. The rest of the work looks like work 
done in a typical industrial environment. I believe that necessary 
oversight could be done in a manner accomplished by other similar 
institutions. There are widely accepted systems and standards for 
overseeing safety, finance, human resources, and facility operations. A 
straightforward approach would be for the Laboratories to qualify 
systems in each of the operational areas. Then, a vastly reduced number 
of people could audit the systems. A major barrier to accomplishing 
something like this is to realize that maintaining the current 
oversight apparatus in place, which has been sized for transactional 
oversight, will prevent any of the advantages to ensue. Another concern 
is that a new approach needs to be created with the idea there will be 
failures in the future and that whatever system in place must be 
resilient to single point failures.

    Ms. Sanchez. 52) The NAS study committee recommends that ``NNSA, 
Congress, and top management of the Laboratories recognize that safety 
and security systems at the Laboratories have been strengthened to the 
point where they no longer need special attention. NNSA and Laboratory 
management should explore ways by which the administrative, safety, and 
security costs can be reduced, so that they not impose an excessive 
burden on essential science and engineering activities.''
    <bullet>  Does the NAS study committee have any examples of how 
these costs may be ``an excessive burden''?
    <bullet>  What evidence did the committee consider in reaching this 
conclusion? Is your conclusion that there are no longer safety risks in 
nuclear operations at the labs?
    Dr. Curtis. 52) I tried to point out in my oral comments before the 
Subcommittee that safety, environmental responsibility, security, and 
fiscal integrity are essential--indeed primary--public 
responsibilities. The public's trust demands their faithful execution 
and mission accomplishment is critically dependent upon the maintenance 
of high standards in these critical areas.
    We believe that rebalancing can occur and must occur while 
maintaining high standards of assurance in these systems. What we found 
was that the current operational formality was creating a bias against 
experimental work which is the very foundation of the scientific 
process. This situation, if allowed to persist, would assuredly over 
time detract from science and engineering quality and innovation.
    Your question is an important one. These laboratories do dangerous 
things. There are important safety risks that must be guarded against. 
Security is essential to be maintained as is fiscal integrity and 
environmental responsibility. If breaches occur, the laboratories' 
``permission'' to do this work on the public's behalf would assuredly 
be curtailed and their mission impaired. You are right to keep sharp 
focus on this responsibility.
    Ms. Sanchez. 53) Who should have main line of responsibility to 
ensure nuclear safety and security? Is overseeing the safe operation of 
the Nation's nuclear weapons complex an inherently governmental 
function? If so, should there not be strong DOE Headquarters and Site 
Office oversight functions for nuclear operations and their safety? 
Why/why not?
    Dr. Curtis. 53) This seemingly straightforward question actually 
goes to the heart of the managerial/governance problems at the 
laboratories. The Government--the Department of Energy and NNSA--have 
the fundamental responsibility for assuring that the work of the 
laboratories is conducted safely and that security is maintained. This 
duty is best discharged through oversight in much the same way the 
Congress holds departments and agencies responsible for the discharge 
of their public duties but obviously in much greater detail. The 
primary operational responsibility to ensure nuclear safety and 
security must reside with the laboratories themselves. The problem with 
the management governance system of our laboratories is that it is 
highly fragmented and lines are not clearly drawn resulting in 
confusion, frustration, and inefficiencies that prevent both effective 
oversight and effective operational control.
    Ms. Sanchez. 54) A number of employees, including the unions who 
provided testimony to the NAS panel and at least one former lab 
director, have expressed concern that the private for-profit model is 
harming the labs, in that many senior scientists have chosen to leave, 
and production and research is driven by performance-based incentives. 
The NAS report finds that the bureaucratic frustrations that are 
affecting all levels within the labs, ``are not traceable to the M&O 
contractor or the contracts themselves,'' and found that the lab 
directors' ``primary objective remains to manage the Laboratories in 
the public interest.''
    <bullet>  Do you think the criticism of some of these employees--
that the for-profit motive is harming the labs--is valid?
    <bullet>  What pressures, if any, result from a fee-based incentive 
system?
    <bullet>  Have you heard of any concerns that pressure to meet the 
fee-based incentives have led to any underreporting of safety incidents 
or any other problems?
    Dr. Curtis. 54) We did not find that the bureaucratic frustrations 
are traceable to M&O contractors or the contracts themselves. However, 
the potential for concern exists and vigilance is advised. From my 
personal point of view, the danger is that the contractor will be 
mostly concerned with the risk to the contractor's reputation and the 
risk that some failure could endanger the fee. This, in turn, could 
result in self-imposed operational formality that would be excessive 
and impair scientific and engineering quality. Again, we found no 
evidence of this, but we must acknowledge the potential exists.
    We did not encounter any evidence that the fee-based incentives 
have led to underreporting of safety incidents or other problems.
    Ms. Sanchez. 56) What can and should be done to strengthen NNSA's 
ability to perform effective quality assurance? Does NNSA have the 
necessary expertise and leadership structure that is conducive to 
effective oversight?
    Dr. Curtis. 56) NNSA and the Department of Energy have many highly 
qualified and talented individuals. But if the governance system is 
broken--as we believe it is--science quality will erode over time no 
matter the quality of the individuals involved.
    Moreover, it is generally conceded that the most effective 
mechanism for assuring quality is a disciplined peer review system. The 
peer reviewers must be drawn from a broader universe of experts than is 
possible to assemble in the Government itself. This is always a 
challenge for governmental intramural research. But it is especially 
difficult to do at the NNSA Laboratories given the highly classified 
and specialized nature of the work. The JASONs provide important 
assistance to the laboratories and other mechanisms have been employed, 
but it is at best a less than fully developed quality assurance system.

    Ms. Sanchez. 57) Do you agree with the findings and recommendations 
of the NAS report? Why/why not?
    Mr. Aloise. 57) While we have not fully evaluated the NAS report, 
we do agree that excessive oversight and micromanagement of contractors 
is not an efficient use of scarce Federal resources. However, the 
problems that GAO continues to identify, such as cost overruns on major 
projects, are not caused by excessive oversight but rather result from 
ineffective oversight by NNSA and DOE.
    Ms. Sanchez. 58) Do you believe NNSA has the tools it needs to 
conduct effective oversight? What changes would GAO recommend to 
improve efficiency and effectiveness of NNSA's management and 
governance of the labs? Specifically, do you think the site offices 
have the necessary training and subject matter expertise to effectively 
oversee performance, rather than just compliance?
    Mr. Aloise. 58) In February 2002, NNSA proposed reorganizing its 
entire operation to solve important, long-standing management issues. 
Specifically, NNSA proposed a new organizational structure that would 
(1) remove a layer of management by converting existing operations 
offices to one support office, (2) locate NNSA operational oversight 
close to laboratories and plants by strengthening its site offices, and 
(3) streamline Federal staff and hold Federal staff and contractors 
more accountable.
    NNSA site offices play a significant role in the day-to-day 
oversight of NNSA sites and contractors. We have, however, in past work 
found shortcomings in site office oversight, particularly in regard to 
security oversight. For example, we noted both security staffing 
shortages and inadequate security staff training at NNSA site 
offices.\9\ In addition, we believe careful Federal oversight of NNSA's 
modernization of the nuclear security enterprise will be critical to 
ensure that resources are spent in as an effective and efficient manner 
as possible. GAO agrees that excessive oversight and micromanagement of 
contractors' activities are not an efficient use of scarce Federal 
resources, but that NNSA's problems are not caused by excessive 
oversight but instead result from ineffective departmental oversight.
---------------------------------------------------------------------------
    \9\ GAO-07-36 and GAO-08-694.
---------------------------------------------------------------------------
    Ms. Sanchez. 59) What can and should be done to strengthen NNSA's 
ability to perform effective quality assurance? Does NNSA have the 
necessary expertise and leadership structure that is conducive to 
effective oversight?
    Mr. Aloise. 59) Given NNSA's record of weak management of its major 
projects, safety and security issues, and lack of basic enterprise-wide 
data, we believe that careful and capable Federal oversight is critical 
to an efficient and effective nuclear weapons program. GAO supports 
NNSA's efforts to move to more effective, performance-based oversight. 
As our testimony shows, NNSA's progress has been mixed.\10\ Based on 
our past and ongoing work, we believe important elements of performance 
based oversight include:
---------------------------------------------------------------------------
    \10\ GAO-12-473T.
---------------------------------------------------------------------------
    <bullet>  Well-trained Federal personnel, both in headquarters and 
in the field, with a thorough understanding of NNSA sites and programs;
    <bullet>  Contracts with measurable performance targets and 
financial incentives to meet these targets;
    <bullet>  Contractor assurance systems that provide detailed 
information on, among other things, achieving performance targets;
    <bullet>  Strong Federal leadership to hold NNSA contractors 
accountable for their performance; and
    <bullet>  Vigorous independent oversight in the crucial areas of 
safety and security.
    Ms. Sanchez. 60) Self-assessment: The labs conduct a self-
assessment for their performance evaluation, which is then reviewed by 
NNSA. Is this the most effective model, and how can NNSA improve its 
ability to conduct oversight without relying as much on the lab 
contractor?
    Mr. Aloise. 60) For significant areas such as security, DOE and 
NNSA have multitiered oversight requirements and practices that consist 
of periodic contractor self-assessments, Federal site office surveys, 
and inspections by DOE's Office Independent Oversight. Contractor self-
assessments are vitally important as they are conducted by personnel 
that are most familiar with site operations. Site office survey and 
independent inspections are important checks on self-assessments. 
Although this process is sound, we have found that, on occasion, it 
breaks down when site office expertise is not in place. For example, we 
reported on weaknesses in Livermore's contractor self-assessment 
program and the NNSA Livermore Site Office's oversight of the 
contractor. According to one DOE official, both programs were 
``broken'' and missed even the ``low-hanging fruit.'' The laboratory 
took corrective action to address these deficiencies, but we noted that 
better oversight was needed to ensure that security improvements were 
fully implemented and sustained.\11\
---------------------------------------------------------------------------
    \11\ GAO-09-321.
---------------------------------------------------------------------------
    In October 2008, we reported that DOE's Office of Health, Safety 
and Security--which, among other things, develops, oversees, and helps 
enforce nuclear safety policies at DOE and NNSA sites--fell short of 
fully meeting our elements of effective independent oversight of 
nuclear safety. For example, the office's ability to function 
independently was limited because it had no role in reviewing technical 
analyses that help ensure safe design and operation of nuclear 
facilities, and the office had no personnel at DOE sites to provide 
independent safety observations.\12\
---------------------------------------------------------------------------
    \12\ GAO, Nuclear Safety: Department of Energy Needs to Strengthen 
Its Independent Oversight of Nuclear Facilities and Operations, GAO-09-
61 (Washington, D.C.: Oct. 23, 2008). GAO first developed its elements 
of effective independent oversight of nuclear safety in 1987 when 
Congress was considering legislation to establish the Defense Nuclear 
Facilities Safety Board. Key elements include, among other things, 
independence, technical expertise, and enforcement authority.
---------------------------------------------------------------------------
    Ms. Sanchez. 61) Do you believe the public and national security 
would be best served with less oversight of the nuclear labs?
    Mr. Aloise. 61) No. Given NNSA's record of weak management of its 
major projects, safety and security issues, and lack of basic 
enterprise-wide data, we believe that careful and capable Federal 
oversight is critical and now even more important to sustain recent 
improvements in security and safety performance, especially in light of 
the tens of billions of dollars that NNSA expects to spend over the 
next decade on modernizing the nuclear security enterprise.
    Ms. Sanchez. 62) Should NNSA move toward more performance-based 
oversight? If so, how should this be done?
    Mr. Aloise. 62) Yes, GAO supports NNSA's efforts and has made a 
number of recommendations to support the agency's move to more 
effective, performance-based oversight.\13\ As our testimony shows, 
NNSA's progress has been mixed.\14\ Based on our past and ongoing work, 
we believe important elements of a performance-based oversight include:
---------------------------------------------------------------------------
    \13\ GAO-08-694 and GAO-09-321.
    \14\ GAO-12-473T.
---------------------------------------------------------------------------
    <bullet>  Well-trained Federal personnel, both in headquarters and 
in the field, with a thorough understanding of NNSA sites and programs;
    <bullet>  Contracts with measurable performance targets and 
financial incentives to meet these targets;
    <bullet>  Contractor assurance systems that contain detailed 
information on, among other things, achieving performance targets.
    <bullet>  Strong Federal leadership to hold NNSA contractors 
accountable for their performance.
    <bullet>  Vigorous independent oversight in the crucial areas of 
safety and security.

    Ms. Sanchez. 63) How would you measure adequate nuclear safety? 
Note that traditionally, the quality of worker safety has been measured 
by the rate of accidents and injuries, where success is reflected by 
low rates of accidents not necessarily their absence. In contrast, 
nuclear safety is predicated upon the avoidance of accidents.
    Dr. Anastasio. 63) Nuclear safety is based on an approach that 
encompasses many layers of defense. For any high consequence event to 
occur accidently there would have to be a failure of multiple layers 
simultaneously. Adequate nuclear safety would then consist of an 
adequate number of relatively independent layers (where failure in one 
layer does not cascade into a failure of another layer). Success would 
consist of a low rate of incidents in each of the layers and a low rate 
of coupling of incidents between layers.
    Ms. Sanchez. 64) What indicators did you use to measure the 
avoidance of low-probability, high-consequence accidents at your 
nuclear facilities?
    Dr. Anastasio. 64) I currently have no responsibility for any 
nuclear facilities (However, see Question 63).
    Ms. Sanchez. 65) How does the Work for Others support or detract 
from the nuclear deterrent mission?
    Dr. Anastasio. 65) Work for Others (WFO) activities executed across 
the NNSA complex supports, in many cases, our primary nuclear 
deterrence mission. In the case of Los Alamos, many nuclear weapons 
experts assist in WFO activities which provides them with additional 
avenues to develop and use their unique skill sets. This outlet is very 
important since they are doing very little new design or certification 
work. WFO also contributes to a strong foundation for the laboratory 
(See also Question 66).
    Ms. Sanchez. 66) We have seen a significant growth in investment in 
the labs. In that context, what can be done to provide stability in the 
workforce to ensure that we retain the excellence in scientific and 
engineering quality at the labs?
    Dr. Anastasio. 66) There has not been significant growth in 
investment in the labs, for example, the current funding of Los Alamos 
National Laboratory is approximately the same as it was in 2006.
    Excellence in science and engineering at the labs is dependent on 
the quality of the workforce and on the environment in which they work. 
As I stated in my testimony before the U.S. Senate Committee on Armed 
Services Subcommittee on Nuclear Forces on March 30, 2011 the following 
elements form a strong foundation for the laboratories:
    <bullet>  A strong national commitment to compelling national 
security missions;
    <bullet>  Stable and adequate funding;
    <bullet>  Diverse and broad cutting-edge scientific programs, which 
attract the best and brightest scientific talent; and
    <bullet>  Tools, facilities and infrastructure to accomplish the 
above.
    Ms. Sanchez. 67) I understand that recent unexpected experiment 
results have been a serious setback to meeting the performance 
milestones in the National Ignition Campaign, and that this setback has 
led to management decisions to postpone all other experiments on the 
NIF laser and to reallocate resources from other programs to an 
accelerated Ignition Campaign.
    <bullet>  Can you explain to the Committee how the shift from 
hypothesis-driven science to milestone-driven science has NOT been 
detrimental to the Labs' science missions?
    Dr. Anastasio. 67) I am not up-to-date on the status of or the 
challenges faced by the Ignition Campaign.
    Ms. Sanchez. 68) GAO has criticized NNSA in a long series of 
reports for not having consistent management data (such as cost 
accounting data) across all of its sites.
    <bullet>  Why hasn't more progress been made in requiring 
consistent data and bookkeeping?
    Dr. Anastasio. 68) This is a question best answered by the NNSA.
    Ms. Sanchez. 69) How do the conclusions of this report comport with 
your experiences with DOE nuclear safety requirements (i.e., rules, 
orders, manuals, and standards) for the nuclear weapons complex?
    <bullet>  Did you find these nuclear safety requirements to be 
burdensome? Could you provide any specific examples of burdensome 
nuclear safety requirements?
    Dr. Anastasio. 69) I do not know to which report this question is 
referring.
    Ensuring the safety of workers, the public and the environment in a 
way that is balanced with mission accomplishment is essential for 
success of the laboratory and the complex. One way to become out of 
balance is when requirements are put in place that can lead to a small 
reduction in safety risks while significantly increasing the risk to 
mission accomplishment. This led to the recommendation in my testimony 
before this Subcommittee that ``new requirements or interpretations of 
existing ones (by internal or external organizations) must be coupled 
with a cost-benefit analysis.''
    Ms. Sanchez. 70) Does the National Laboratories Directors Council, 
which reports directly to the Secretary of Energy, bypassing the NNSA 
reporting structure, disrupt oversight and contribute to a 
dysfunctional system where NNSA and the labs do not trust each other?
    Dr. Anastasio. 70) During my tenure as a Laboratory Director on the 
Council we generally addressed DOE-wide issues with the full 
participation of the NNSA Administrator. This council did not 
contribute to any lack of my trust of NNSA.
    Ms. Sanchez. 71) What is your perspective on the recent NNSA 
governance reform initiative in which the contractors assume more 
responsibility for oversight of compliance with nuclear safety 
requirements, while Federal oversight focuses on contractor systems for 
ensuring safety?
    <bullet>  What was the purpose and objectives of your contractor 
assurance system?
    <bullet>  What experience did you have with such a self-assessing 
contractor assurance system, and what are the specific advantages and 
disadvantages of this system?
    <bullet>  What did your contractor assurance system indicate about 
the need for more or less requirements, about the rigor of compliance 
with requirements, and about the need for more or less oversight?
    <bullet>  How did you ensure that you had adequately established a 
balance in priorities and resources between your safety programs and 
your missions?
    Dr. Anastasio. 71) During my tenure as Laboratory Director at LANL, 
the contractor assurance system (CAS) was one of the internal tools we 
used to manage the laboratory. The senior management team periodically 
set a balanced set of internal performance goals that spanned 
operations (including safety), mission, and science. Progress against 
those goals was monitored through CAS. If progress was lacking in an 
area I was able to see that, to engage the responsible senior manager, 
to make appropriate resources available, and to enlist the entire 
management team as needed for corrective action and resolution.
    Proper Federal oversight should be focused on outcomes and with the 
Laboratories held accountable for them. It should not be focused on the 
transactional issues of how specific safety requirements are achieved 
nor of the details of how CAS or any other management system works.
    Ms. Sanchez. 72) How can the operator of facilities/Line 
Management, DOE as owner of the facilities, and the public have 
confidence that contractor assurance systems are capable of detecting a 
decline in the safety posture of a facility or operation?
    <bullet>  How mature was this capability at your laboratory?
    <bullet>  In the areas of worker safety and high-risk operations 
such as those at nuclear facilities, could you describe how you ensured 
that performance was maintained at least at its previous level if not 
improved?
    <bullet>  Could you describe the key measures that you relied on to 
ensure that you avoided nuclear or other high-hazard accidents, and 
explain why you believe that those measures gave you sufficient 
confidence that the workers and the public were and continue to be 
afforded adequate protection?
    Dr. Anastasio. 72) Others should be confident in the Laboratory 
when established outcomes are being met. If a problem arises there 
should be clear indications that the seriousness of the problem is 
understood through prompt and appropriate actions by the Laboratory and 
its senior leaders.
    Ms. Sanchez. 73) Do you believe that your site had a good safety 
record?
    <bullet>  What indicators did you use to measure your laboratory's 
safety performance? What did you compare those indicators against to 
decide the quality of that performance? And why do you believe that 
those measures are adequate to evaluate the quality of safety at your 
laboratories?
    <bullet>  What indicators do you use to measure the nuclear safety 
performance of the facilities at your lab? What do you compare those 
measures against?
    <bullet>  How did/should those measures help you avoid the 
occurrence of a low-probability, high-consequence accident?
    Dr. Anastasio. 73) We measured our safety performance against 
annual goals set by the senior leadership team and against the 
performance of other large institutions with a similar mix of 
activities to LANL. While I do believe the LANL's safety record was 
trending in the right direction, I do not have the data at hand to 
provide a more detailed answer to this question.
    Ms. Sanchez. 74) The laboratories conduct some of the Nation's most 
sensitive activities, including designing, producing, and maintaining 
the Nation's nuclear weapons; supporting nonproliferation efforts; 
conducting efforts for other military or national security 
applications; and performing research and development in advanced 
technologies for potential defense and commercial applications.
    <bullet>  How do these different missions complicate oversight 
requirements?
    <bullet>  How do they support efficiencies and best use of taxpayer 
dollars?
    Dr. Anastasio. 74) Oversight should not be more complicated if 
there is oversight of outcomes, rather than of activities, with those 
responsible held accountable.
    A broad portfolio of national security science missions supports 
laboratory efficiency and is an effective use of taxpayer dollars.
    For example, with the funding challenges faced by NNSA, and the 
Government in general, there can be shortfalls in support for 
scientific capabilities necessary for NNSA. As I stated in testimony 
before the U.S. Senate Committee on Armed Services Subcommittee on 
Nuclear Forces on March 30, 2011, ``In order to mitigate the 
consequences of these shortfalls in support for our scientific 
capabilities, we have consciously found funding from other sponsors 
that utilize some of the same science as that needed by the weapons 
program, and in that way sustain and enrich our capabilities that 
reside in the more than 2,500 PhDs that are the core of our science 
base.''
    In addition, the broad portfolio of national security science 
programs ``serve to both attract top scientists to the Laboratory, and 
they also build up fundamental scientific capability that can then be 
further leveraged and applied to our core weapons program work.''

    Ms. Sanchez. 75) How would you measure adequate nuclear safety? 
Note that traditionally, the quality of worker safety has been measured 
by the rate of accidents and injuries, where success is reflected by 
low rates of accidents not necessarily their absence. In contrast, 
nuclear safety is predicated upon the avoidance of accidents.
    Dr. Miller. 75) The principles of good safety management are 
universal; the formality and rigor with which they are applied changes 
depending on the consequences of potential safety incidents. In my 
view, good safety management starts with the perspective that there is 
no such thing as an ``accident''--safety incidents are the consequence 
of breakdown of one or more of the safety systems: failure to properly 
analyze and recognize the hazards, failure to establish or follow 
proper procedures, failure to properly maintain or employ appropriate 
safety equipment, or human failure.
    The adequacy of a nuclear safety system is judged by rigorous 
evaluation and testing of the analysis of potential hazards, the 
procedures, the equipment and safety systems, and the people and their 
training. Evaluation and testing are performed by line management, and 
independently by the responsible managing institution and an outside 
agency. These multiple systems and the multiple levels of evaluation 
provide assurance of the adequacy of the nuclear safety system. 
Ultimately, in my view, the quality of the people doing the work is the 
most important ingredient. They are individually and collectively 
responsible and in the best position to judge the adequacy of hazard 
analyses, the procedures, the safety systems, and their own and their 
colleagues' level of training and proficiency. Because nuclear safety 
is of paramount importance, all operations at the Laboratory's nuclear 
facilities--and the condition of the facilities themselves--are managed 
in a very formal and robust manner with the rigor expected by all 
stakeholders. There are multiple layers of protection designed to 
preclude plausible accidents. As I describe in more detail below, the 
way by which we implement and maintain nuclear safety at LLNL provides 
key indicators and important means to gauge adequacy of nuclear safety. 
Three interrelated features are particularly important:
    <bullet>  A Documented Safety Analysis (DSA), which must be 
approved by DOE/NNSA before a facility can operate. The DSA describes 
the required safety systems, operating procedures, and personnel 
training, which provide multiple layers of protection against hazards 
and potential risks identified through thorough analysis. We are 
legally required to maintain these means for providing nuclear safety.
    <bullet>  Numerous and frequent internal and external audits and 
assessments, which, over the past decade, have clearly demonstrated 
that the safety systems and management programs in place at LLNL 
nuclear facilities are viable, effective, and compliant.
    <bullet>  Feedback from our nuclear facility workers, who would be 
the first personnel to be impacted by an accident. Based on their 
feedback, we take steps to resolve any concerns before they become 
potential safety issues. The workers confirm daily that overall they 
have strong confidence that the facility is being operated safely.
    Documented Safety Analysis (DSA)--The nuclear risk management 
process is codified in 10 CFR 830, Subpart B. It requires the 
development of a detailed DSA, which must be approved by DOE/NNSA 
before a facility can operate. The DSA thoroughly analyzes the hazards 
and potential accidents associated with the facility. Based on this 
analysis, facility safety systems and safety management programs are 
designated to prevent and/or mitigate plausible accidents. NNSA's 
acceptance of risk for the nuclear facility and approval to operate are 
contingent on these safety systems and programs being in place; their 
functionality must be maintained at all times by the contractor 
operating the facility. The operator is legally bound to ensure the 
operability and reliability of the designated safety systems and does 
so through a rigorous and well-documented maintenance, testing, and 
inspection program. Likewise, the operator is legally bound to 
implement formal safety management programs that meet the intent of the 
approved DSA.
    Audits and Assessments--LLNL nuclear facilities are subjected to 
numerous and frequent internal and external audits and assessments that 
review the effectiveness of the safety systems and management programs 
as well as their compliance with DOE and LLNL requirements. The results 
of these many assessments over the past decade clearly demonstrate that 
the safety systems and management programs in place at LLNL nuclear 
facilities are viable, effective, and compliant. These results are a 
good measure of the adequacy of our nuclear safety and provide high 
assurance that our nuclear facilities are being operated safely. Each 
and every worker at LLNL has STOP WORK authority if they sense an 
unsafe or hazardous situation or condition. Typically findings are 
identified in audits. If it were found that a safety management program 
was broken (i.e., not meeting its intent) or that a safety system was 
inoperable, by law LLNL would be required to shut down operation of the 
facility until the system or program was restored to proper function. 
Rather, the findings in LLNL audits have been of the type that are 
informative of potential weaknesses and used to continuously improve 
our programs. The minor nature of findings in audits and assessments--
and the Laboratory's timely responsive actions to improve--provide 
perhaps the most reliable measure of the adequacy of our nuclear 
safety.
    In addition to numerous nuclear-specific audits and assessments, 
our nuclear facilities also report data on a broader set of 
environmental, safety, and health (ES&H) measures employed by other 
hazardous facilities at the Laboratory. These ``conventional'' ES&H 
performance measures reflect the adequacy of nuclear safety because 
they are indicative of worker commitment to safety--a required 
foundation to sound nuclear safety.
    Feedback from workers--We gauge the adequacy of our nuclear safety 
via the feedback from our nuclear facility workers. These workers are 
on the front line in close proximity to the hazards. They would be the 
first to be impacted by an accident and are invariably the first to 
become aware of a potential safety issue or the failure of a mitigating 
feature. Through frequent meetings and discussions, we gather their 
feedback to identify and resolve potential issues early before they 
evolve into more significant safety problems. And the workers confirm 
daily that overall they have strong confidence that the facility is 
being operated safely.
    Ms. Sanchez. 76) What indicators did you use to measure the 
avoidance of low-probability, high-consequence accidents at your 
nuclear facilities?
    Dr. Miller. 76) We use a wide variety of indicators to judge the 
adequacy of the implementation of our nuclear safety systems--including 
standard ES&H measures such as injuries and first aid; information 
gained from informal facility walkthroughs observing general 
housekeeping and work practices and collecting worker feedback; and 
results of line management, institutional, and independent oversight 
evaluations and audits.
    A high-consequence accident is clearly something that must be 
avoided, and LLNL takes very seriously its obligation to the U.S. 
Government, its employees, and neighboring communities to ensure the 
safe and secure operation of its nuclear facilities. Unlike nuclear 
reactors, our facilities are not prone to major failure in the event of 
a loss of supporting utilities such as cooling water or facility power. 
As such, the potential accidents at LLNL are more bounded and can be 
more clearly defined than is the case for reactors. These potential 
accidents are thoroughly analyzed by safety professionals. Based on 
their results, limitations to allowed operations and mitigating 
engineered design features (to prevent operational missteps from 
leading to accidents) are established as a set of controls. Safety 
professionals ensure that these controls are consistent with national 
standards and DOE/NNSA orders. The controls are layered so that no 
single failure significantly raises the probability of an accident. 
Altogether, the set of controls ensure accidents do not occur.
    LLNL staff, as well as Federal oversight personnel, routinely 
assess the implementation of these controls to ensure robustness. The 
assessment results inform facility managers of any weaknesses in the 
implementation of the controls, who use the data to ensure that the 
facility remains far from any risk of a high-consequence accident. Any 
findings are characterized by level of importance or potential safety 
impact, which drives the urgency of resolving the issue and whether or 
not the operation should continue until the issue is resolved. All 
assessment findings, observations, and identified opportunities for 
improvement are captured as actionable items that are tracked to 
closure in a database that is part of our Contractor Assurance System. 
The adequacy of the closure in addressing the perceived need is also 
reviewed.
    Ms. Sanchez. 77) How does the Work for Others support or detract 
from the nuclear deterrent mission?
    Dr. Miller. 77) LLNL's engagement in programs and activities across 
the broad range of national security challenges strongly supports our 
nuclear deterrent mission and vice versa. Because of the core 
scientific, technical, and engineering capabilities required for our 
nuclear deterrent mission, the Laboratory can both synergistically and 
cost effectively support and make key contributions to a broad spectrum 
of projects and programs sponsored by other Federal agencies. These 
broader national security activities provide additional scientific and 
technical vitality and help to maintain the key capabilities required 
in our nuclear deterrent mission. Particularly in times of great fiscal 
constraint the synergism between all of the Laboratory's projects and 
programs is key to maintaining a world-class workforce and an 
institution able to address the Nation's most serious national security 
challenges.
    These projects (in my view, misnamed ``Work for Others'') that are 
part of our broad Nation security mission are a key component of our 
strategy for helping solve the country's most important problems and 
sustaining science and technology excellence and intellectual vitality 
at the Laboratory. Pursuit of a broad national security mission by the 
laboratories is a component of NNSA's Strategic Plan. Support of the 
strategy was also one of the top-level recommendations in the report 
issued by the National Academy of Sciences committee studying the 
quality of science and engineering and management of the NNSA national 
laboratories.
    Nuclear security is and will remain the core responsibility of the 
NNSA laboratories. Because of the Stockpile Stewardship Program, 
Livermore has unique capabilities and facilities that can be brought to 
bear on the Nation's most important challenges. We have long worked 
with other agencies (in cases, private industry) in the areas of 
defense and international security, energy and environmental security, 
and economic competitiveness. With the many challenges facing the U.S., 
expansion of these efforts serves the national interest and makes 
effective use of taxpayer dollars invested in the laboratories. A 
broader base of national security programs complements the Stockpile 
Stewardship Program--it is neither a distraction from nor a substitute 
for our principal mission.
    Ms. Sanchez. 78) We have seen a significant growth in investment in 
the labs. In that context, what can be done to provide stability in the 
workforce to ensure that we retain the excellence in scientific and 
engineering quality at the labs?
    Dr. Miller. 78) For the record, LLNL has not seen significant 
growth; in fact, the Laboratory has declined in size from 8846 heads in 
FY 2004 to 7832 heads in FY 2008 to 6670 heads in FY 2012 (beginning of 
third quarter). The recent growth in NNSA's budget has roughly 
stabilized the size of the Laboratory--we currently are slightly larger 
than our nadir in FY 2010 at 6430 heads.
    In my view, the NNSA laboratories are at their best when they are 
focused on very challenging and important mission driven problems whose 
solution requires sustained efforts over time. Having a set of 
recognized national security missions that are focused on our country's 
most challenging problems--together with program and financial 
stability--are the keys to attracting and retaining a high-quality 
scientific, technical, and engineering workforce.
    The Laboratory's most important asset is its people, and the most 
important factor in sustaining scientific and engineering excellence is 
attracting and retaining top-notch talent, which requires vigilance and 
sustained management attention. Over the years, we have been able to do 
so because the Laboratory offers the opportunity to work on problems of 
national importance and to apply cutting-edge science and technology to 
solve them. Hence, continued investment in the scientific and technical 
capabilities (e.g., high-performance computing) and facilities at the 
Laboratory is absolutely crucial. Without the cutting-edge facilities 
and capabilities, we will not be able to attract and retain talent; 
without the talent, we cannot sustain scientific and engineering 
excellence and unaddressed national security challenges will increase 
our collective peril.
    Another key factor in attracting and retaining top-notch talent is 
program stability. Vagaries about future budgets impact people's 
thinking about long term careers at an institution. The laboratories 
would greatly benefit from a clear and consistent message from 
successive administrations and Congresses that the work at the 
laboratories is important, together with stable funding. Dedicated to 
national service, our people and their families deserve a commitment of 
support!
    The presence of modern facilities, laboratories, and infrastructure 
is also important. We need to continually reinvest in facilities and 
infrastructure. Recapitalization has suffered in recent years. 
Readiness in Technical Base and Facilities (RTBF) funding to LLNL is 
the lowest in the NNSA complex and we are falling behind in basic 
upkeep of the infrastructure and its related services. At some point a 
recapitalization shortfall will affect our ability to do cutting-edge 
science and engineering.
    Finally, the ability to draw top talent to the Laboratory and 
sustain scientific and engineering excellence depends on sustaining a 
positive, productive work environment. In my testimony I emphasized 
that the NNSA laboratories are under severe stress in their ability to 
perform their vital missions because they are substantially and 
increasingly constrained by the manner in which Federal management and 
oversight is implemented. I concluded my testimony with the remark, 
``If the government continues down the path of treating the NNSA 
laboratories as contractors rather than trusted partners, engaging in 
excessive oversight, and treating the workforce as replaceable 
employees rather than exceptional people dedicated to public service, I 
wonder how much longer the national security laboratories will be able 
to sustain their greatness.'' The time for leadership and action is 
now!
    Ms. Sanchez. 79) I understand that recent unexpected experiment 
results have been a serious setback to meeting the performance 
milestones in the National Ignition Campaign, and that this setback has 
led to management decisions to postpone all other experiments on the 
NIF laser and to reallocate resources from other programs to an 
accelerated Ignition Campaign.
    <bullet>  Can you explain to the Committee how the shift from 
hypothesis-driven science to milestone-driven science has NOT been 
detrimental to the Labs' science missions?
    Dr. Miller. 79) As I explain in greater detail below, the National 
Ignition Campaign continues to make excellent progress on the grand 
challenge of achieving fusion ignition and burn. There have been no 
``recent unexpected experimental results'' that we characterize as ``a 
serious setback'' and I (and recent review committees) see no 
showstoppers to prevent the team from achieving ignition. Accordingly, 
there has been no decision to reallocate resources to accelerate the 
campaign. As the question recognizes, there is growing appreciation 
that the setting of calendar-specific milestones in a scientific 
discovery project as complex as achieving ignition can be detrimental.
    The National Ignition Facility (NIF)/National Ignition Campaign 
(NIC) is a mission- driven program that was established to meet 
important national security needs. NIF's capabilities are required in 
order to perform experiments to gather data about the performance of 
nuclear weapons as they begin to explode. The data is vitally important 
to validate the computer simulations that we use to assess the 
performance of aging weapons, make changes when necessary, and certify 
the performance of the those changes. Other types of NIF experiments 
gather key data about material properties at extreme conditions that 
are input into weapon simulation codes. Finally, data gathered at NIF 
also answers key questions scientists have about the universe, and the 
achievement of ignition at NIF is a necessary step toward developing 
fusion power as an essentially inexhaustible source of clean energy.
    Basically, we are working to three inter-related sets of 
milestones. NIC milestones are of two types: those associated with 
construction and performance of the NIF laser system and experimental 
diagnostics and those associated with experiments to achieve ignition. 
A third set of milestones pertains to experiments in support of 
stockpile stewardship and high-energy-density science. Many types of 
experiments in this third category do not require ignition and these 
types have figured into experimental plans to date. Achieving ignition 
is important, because it will enable the fielding of a wider range of 
stockpile stewardship and science experiments to gather important data.
    Construction of NIF and bringing it online with its supportive 
diagnostics and target fabrication capabilities have been spectacular 
successes. The laser, diagnostics systems, target fabrication, and 
operations are world class and are producing remarkable data of 
unparalleled quality. The laser system has proved to be remarkably 
reliable and precise in energy delivery, and this summer, NIF achieved 
record setting levels of power (500 trillion watts) and energy (nearly 
1.9 million joules)--exceeding design specifications.
    As researchers work toward achieving ignition, NIF is providing 
spectacular data in support of the Stockpile Stewardship Program. Most 
notably, NIF experiments provided data that allowed scientists to 
resolve a previously unexplained anomaly in nuclear weapons performance 
that was one of the factors driving the need for nuclear testing. 
Successful Stockpile Stewardship-supportive experimental campaigns in 
2012 focused on gathering data about material properties and the 
interaction of materials with intense radiation at nearly star-like 
conditions.
    Experiments at NIF continue to make extraordinary progress toward 
the goal of fusion ignition. The work, which is breaking new ground in 
understanding physical processes at conditions never studied in a 
laboratory before, is very challenging--requiring successive steps of 
conducting experiments, comparing results with simulations, and using 
the results to improve both the simulation models and the design of 
targets and next experiments. This is the process by which science 
progresses. In the last year of experiments, NIC experiments have 
successfully resolved most of the major physics concerns necessary to 
achieve ignition. Current work is focusing on resolving the remaining 
issues and integrating all of the pieces together.
    Recently two groups reviewed NIF/NIC progress in achieving ignition 
and announced their findings. Both reports praised NIF and its National 
Ignition Campaign's ``outstanding progress'' to date. As to the 
specific milestones in the NIC, one group expressed concern about 
achieving alpha heating (a key step toward ignition) in FY 2012; the 
other group wrote, ``These are not simple experiments. They involve 
investigating phenomena well beyond contemporary experience. A deadline 
imposed on an experimental discovery science program to achieve a 
particular result by a particular time at a particular cost is often 
unrealistic.'' Both committees reviewed plans for future experiments 
examining key aspects of implosion performance, and the path forward 
was praised in both reports. NNSA and the NIF team have agreed on plans 
for FY 2013 (subject to funding). They include both non- ignition 
Stockpile Stewardship/science experiments and ignition experiments--
bearing in mind that this is a mission-driven program but that 
milestones need to respect uncertainties in the pace of scientific 
discovery.
    Ms. Sanchez. 80) GAO has criticized NNSA in a long series of 
reports for not having consistent management data (such as cost 
accounting data) across all of its sites.
    <bullet>  Why hasn't more progress been made in requiring 
consistent data and bookkeeping?
    Dr. Miller. 80) For questions regarding NNSA's standards and 
procedures, I would refer you to NNSA for an appropriate answer. Let me 
simply note that consistent management data across all of the sites is 
a laudable objective, NNSA has collected considerable information on 
the matter, and working groups are addressing issues.
    I do have a concern and a caution that speak to one of the themes 
of my testimony: roles and responsibilities. It is clear that NNSA 
needs clear and consistent management data. There is a strong tendency 
in any bureaucracy to collect reams of detailed data and use that data 
to increase the level of ``micromanagement.'' NNSA needs to collect the 
data they need to do their job while avoiding the tendency to collect 
excessive data to increase their level of detailed project and activity 
oversight and management. It is also important to remember that each 
site faces a different set of issues and constraints so that a ``one-
size-fits-all solution'' to data management may be difficult to 
implement (i.e., costly and time-consuming) and turn out to be 
impractical for some sites.
    Ms. Sanchez. 81) How do the conclusions of this report comport with 
your experiences with DOE nuclear safety requirements (i.e., rules, 
orders, manuals, and standards) for the nuclear weapons complex?
    <bullet>  Did you find these nuclear safety requirements to be 
burdensome? Could you provide any specific examples of burdensome 
nuclear safety requirements?
    Dr. Miller. 81) Quite frankly, one of the largest burdens of the 
nuclear safety requirements is their impact on the workload of the 
safety professionals at our Laboratory. It is critically important for 
facility operators and managers to spend more time managing hands-on by 
walking around rather than managing through paperwork that adds little 
to assurance of real line safety. At LLNL, the number of oversight 
personnel is nearly equal to the number of facility staff available to 
respond to their issues. Consequently, the bulk of the work being 
performed by the facility staff centers on responding to issues raised 
by these oversight personnel instead of their being able to work on 
issues the facility management and those with hands-on operating 
experience believe to be important. The facility is forced into a non-
value-adding, overly strict regulatory compliance approach instead of 
focusing on those issues that will actually increase the margin of 
safety. This is an example of a focus of my testimony--the problem of 
excessive ``transactional oversight'' focused on detailed compliance 
rather than ``process oversight'' directed at critiquing our systems 
for identifying and cost-effectively enhancing nuclear safety 
performance.
    For the most part, DOE nuclear safety rules, standards and orders 
are not necessarily problematic in and of themselves. They simply 
define what must be done to operate a nuclear facility safely. In most 
cases, the orders are reasonable and represent what most operators 
believe is necessary for safe operations. However, many safety rules, 
standards, and order have become burdensome for one of two principal 
reasons: excessive documentation and/or onerous interpretation. In both 
cases, the result is reduced effort working on issues that the 
experienced nuclear safety experts within the Laboratory and nuclear 
facility managers consider to be most important. A prime example of the 
former case is NQA-1, which is burdensome because it requires, in my 
view, inordinately extensive documentation.
    Onerous interpretation is the source of the highest level of 
concern voiced by nuclear facility managers and operators. This arises 
from several interacting factors: loose interpretation of guidelines, 
oversight by many different personnel with differing agendas and (in 
many cases) without relevant operating experience, and an overly risk-
adverse interpretation of how to comply with the order. Those making 
the interpretation are not responsible for executing program work, nor 
do they have the responsibility to pay for the cost of implementation. 
As such, the resulting decisions are often extremely costly and require 
excessive manpower to implement. In too many cases, the net value to 
safety is negligible while the costs are significant.
    I have learned from personal experience the negative impact of 
excessive oversight that initiates excessive documentation. 
Documentation of processes and procedures and responses to audits and 
evaluations are best performed by the most knowledgeable senior workers 
and line managers. However, when these critical employees spend the 
majority of their time in their offices writing, they are not in the 
laboratory or the facility observing work, finding issues, and 
correcting them before they become problems.
    The impact of overly risk-averse interpretation is cumulative, 
invariably increasing over time. When reviewing the purpose and 
rationale behind nuclear safety orders, standards, and rules, one finds 
that the original intent has often been displaced by increasingly 
onerous interpretation. An example is the Unreviewed Safety Question 
(USQ) process. With the loss of both original intent and an established 
approach based on precedence, new and constantly-changing 
interpretations are effectively adding requirement across the complex 
and diverting USQ from the original intent of the process.
    Ms. Sanchez. 82) Does the National Laboratories Directors Council, 
which reports directly to the Secretary of Energy, bypassing the NNSA 
reporting structure, disrupt oversight and contribute to a 
dysfunctional system where NNSA and the labs do not trust each other?
    Dr. Miller. 82) The question engages two distinct issues: 
dysfunctionality within NNSA and engagement of NNSA/DOE with senior 
management of the laboratories. In my view, they are largely decoupled, 
e.g., the National Laboratories Directors Council has essentially 
nothing to do with dysfunctionality within NNSA. Almost the opposite, 
greater engagement of NNSA/DOE with laboratory managers would likely 
lead to a far more functional governance and oversight system.
    The main point I made in my testimony is that the core issue in 
governance and oversight is the loss of the sense of partnership and 
mutuality between NNSA/DOE and the national security laboratories. 
There is a lack of trust that prevents the Federally Funded Research 
and Development Center (FFRDC) model from functioning the way it 
should. The laboratories and NNSA are engaged in wide-ranging 
activities to address the problem.
    The situation at another FFRDC laboratory is quite different. The 
Jet Propulsion Laboratory (JPL) has a $1.5 billion budget and is 
managed by the California Institute of Technology for the National 
Aeronautics and Space Administration (NASA). NASA's governance 
structure consists of three management councils: an Executive Council, 
a Mission Support Council, and a Program Management Council. Each 
council includes JPL and NASA's other nine space/research centers as 
members (with 20 to 25 total membership). Moreover, NASA laboratories 
and research centers are fully integrated into NASA's organizational 
structure, directly providing input into decisionmaking, and work as 
valued partners in achieving mission success. Discussions with NASA and 
JPL personnel have made clear that the working relationship was 
constructive, without major concerns about governance, and providing 
effective oversight of the laboratories in a much simpler, less costly 
manner.
    Ms. Sanchez. 83) What is your perspective on the recent NNSA 
governance reform initiative in which the contractors assume more 
responsibility for oversight of compliance with nuclear safety 
requirements, while Federal oversight focuses on contractor systems for 
ensuring safety?
    <bullet>  What was the purpose and objectives of your contractor 
assurance system?
    <bullet>  What experience did you have with such a self-assessing 
contractor assurance system, and what are the specific advantages and 
disadvantages of this system?
    <bullet>  What did your contractor assurance system indicate about 
the need for more or less requirements, about the rigor of compliance 
with requirements, and about the need for more or less oversight?
    <bullet>  How did you ensure that you had adequately established a 
balance in priorities and resources between your safety programs and 
your missions?
    Dr. Miller. 83) I concluded my written statement to the committee 
with three ``Ts'': restore TRUST, eliminate TRANSACTIONAL oversight; 
and TURN OVER management to the people you hired to manage (the 
directors of the laboratories). Reform of NNSA governance of the 
laboratories must be based on mutual trust--that we are truly partners 
in successfully pursuing our national security mission. Without 
increased trust, it will be very difficult to make substantial 
improvements in NNSA governance of the laboratories and move to more 
efficient and effective oversight.
    There is much to be gained in cost efficiency by eliminating DOE/
NNSA transactional oversight in areas such as non-nuclear ES&H, where 
existing external regulations, regulatory bodies and certification to 
meeting recognized international standards should apply. Nuclear safety 
is both extremely important and different with regard to the existence 
of external regulations. In spite of this difference, there are marked 
advantages to transform the preponderance of external transactional 
oversight to self-assessment processes and striving for NNSA/DOE and 
Defense Nuclear Facilities Safety Board oversight to be more process-
oriented (e.g., largely directed at providing a critique of the 
Laboratory's self-assessment process). To the extent that the ongoing 
NNSA governance reform initiative succeeds in moving in this direction, 
I think it is a very positive step.
    In the highly specialized area of nuclear operations, we have found 
that self-assessments by the people closest to the work to be the most 
effective means for identifying weaknesses and suggesting areas for 
improvement. Such self-assessment activities can be planned (e.g., 
appropriately scoped and focused) and executed by personnel who are 
familiar with the nuclear facility, the nuances of nuclear operations 
and nuclear safety, and the detailed attributes of the site's safety 
programs. Assessments performed by less informed third parties not 
familiar with facility specifics often miss the mark and identify 
issues not pertinent to making changes that would tangibly improve 
nuclear safety.
    The role of the Contractor Assurance System (and/or a nuclear 
safety adjunct to it) is to track findings and the status of responsive 
actions; it also provides a framework for ensuring that an appropriate 
variety of processes are being looked at on some regular interval. More 
process-oriented oversight activities conducted by NNSA and/or the 
DNFSB to augment and complement rigorous self-assessment system would 
constitute an efficient, effective approach to assuring nuclear safety.
    Assessments and oversight of our nuclear facilities over the past 
decade have clearly demonstrated that the safety systems and management 
programs in place at LLNL nuclear facilities are viable, effective, and 
compliant. They are vital to assuring nuclear safety at LLNL to NNSA/
DOE, other stakeholders, and the public; changes should strive to make 
assessment and oversight processes more efficient while increasing 
their quality.
    Ms. Sanchez. 84) How can the operator of facilities/Line 
Management, DOE as owner of the facilities, and the public have 
confidence that contractor assurance systems are capable of detecting a 
decline in the safety posture of a facility or operation?
    <bullet>  How mature was this capability at your laboratory?
    <bullet>  In the areas of worker safety and high-risk operations 
such as those at nuclear facilities, could you describe how you ensured 
that performance was maintained at least at its previous level if not 
improved?
    <bullet>  Could you describe the key measures that you relied on to 
ensure that you avoided nuclear or other high-hazard accidents, and 
explain why you believe that those measures gave you sufficient 
confidence that the workers and the public were and continue to be 
afforded adequate protection?
    Dr. Miller. 84) As I answered to Question 75, three interrelated 
features in the way nuclear safety is implemented at LLNL provide the 
basis for having confidence in the quality of nuclear safety at LLNL: 
implementation of safety systems and management processes in accordance 
with a Documented Safety Analysis; frequent internal and external 
assessments and audits to assure that those systems and processes are 
working; and feedback from the experienced nuclear facility workers at 
the Laboratory. Laboratory and NNSA/DOE managers and their staffs fully 
engage in and interact through the many processes that implementation 
of nuclear safety entails. We need to work in partnership as a trusted 
team. Such teamwork would provide a much stronger basis for assurance 
that safety systems and safety management programs are effective and 
compliant than reliance on a large system to generate and manage 
compliance data.
    The Contractor Assurance System (CAS) at LLNL is a formal and 
mature program. CAS provides tracking data to substantiate (and provide 
assurance) to Laboratory and DOE/NNSA management with a high level of 
confidence that the nuclear facilities are being operated safely, 
securely, and in accordance with requirements. The CAS provides 
information about important safety-system elements such as assessments, 
notifications and reporting, issues tracking and resolution, feedback, 
and continuous process improvement.
    Consider, for example, audits and assessments of nuclear 
facilities, which range from less formal management observations and 
inspections to more rigorous management self- assessments to formal 
audits by external organizations. Each year, the Lab develops a 
detailed Institutional Assessment Plan (IAP) that identifies the number 
and type of assessments that will be performed and which safety 
management programs and functional areas will be assessed. Each safety 
management program is assessed no less frequently than once every three 
years. The breadth and depth of these assessments, coupled with the 
fact that formal planning ensures that all safety programs are assessed 
periodically, provides LLNL management and DOE with the confidence that 
a decline in safety posture will be detected. As I discussed in more 
detail in answer to Question 75, the results of the many assessments 
conducted over the past decade clearly demonstrate that the systems and 
processes in place at LLNL nuclear facilities are viable, effective, 
and compliant. These results are a good measure and provide assurance 
of nuclear safety quality.
    Ms. Sanchez. 85) Do you believe that your site had a good safety 
record?
    <bullet>  What indicators did you use to measure your laboratory's 
safety performance? What did you compare those indicators against to 
decide the quality of that performance? And why do you believe that 
those measures are adequate to evaluate the quality of safety at your 
laboratories?
    <bullet>  What indicators do you use to measure the nuclear safety 
performance of the facilities at your lab? What do you compare those 
measures against?
    <bullet>  How did/should those measures help you avoid the 
occurrence of a low-probability, high-consequence accident?
    Dr. Miller. 85) I believe that safety and quality are critical 
ingredients in everything we do; it is a continuous focus and is as 
important as breathing. Even one injury is too many because it means 
that a friend or colleague has been hurt.
    While I served as LLNL Director, one of my top priorities was to 
reorient the safety culture at the Laboratory and focus first on why 
safety is so important to us and then on how to improve it: we focus on 
safety because we care deeply about the health and welfare of our 
family, friends, and colleagues. Among many steps, my actions included 
emphasizing safety in my interactions with employees, promoting safety 
through Laboratory-wide communications campaigns, encouraging employee 
input on best safety practices, and setting high expectations that all 
senior managers exhibit leadership in safety. I am pleased that Parney 
Albright, my successor, carries forward this emphasis on safety.
    As an example, I instituted (and Parney continues to hold) Monthly 
Performance Reviews, which are attended by Laboratory senior managers 
and representatives from the NNSA Livermore Site Office. We review 
progress in all aspects of Laboratory performance, including frank 
discussion of problems, setbacks, and pending issues--with action items 
assigned. The discussions benefit from high-level statistics and trends 
(including data gathered through the Contractor Assurance System). In 
particular, discussion of safety trends and issues are part of the 
fixed agenda that deals with problems and concerns.
    The leading indicators of safety performance are very positive. The 
number of Total Recordable Cases (TRC) and the number of Days Away, 
Restricted, or Transferred (DART) are the lowest they have been over 
the past decade. Since the contract transition at the end of Fiscal 
Year 2007, both indicators are nearly 100 percent reduced: TRC from 
2.59 to 1.31 and DART from 1.00 to 0.52. (In 2010, the average for 
private industry was 3.5 and 1.8, respectively.)
    Another indicator of a strengthening safety culture is external 
certification. In 2011, LLNL received Occupational Health and Safety 
Assessment Series (OHSAS) 18001 accreditation for its safety management 
system for integrating safety considerations into work planning and 
controls. Achieving and maintaining OHSAS 18001 standards is recognized 
as an industry best practice. Of course, the Laboratory's strengthened 
safety culture--marked by improvements in conventional ES&H performance 
measures and external certification of our safety systems--encompasses 
the workers in LLNL nuclear facilities.
    Ms. Sanchez. 86) The laboratories conduct some of the Nation's most 
sensitive activities, including designing, producing, and maintaining 
the Nation's nuclear weapons; supporting nonproliferation efforts; 
conducting efforts for other military or national security 
applications; and performing research and development in advanced 
technologies for potential defense and commercial applications.
    <bullet>  How do these different missions complicate oversight 
requirements?
    <bullet>  How do they support efficiencies and best use of taxpayer 
dollars?
    Dr. Miller. 86) The preponderance of issues related to burdensome 
oversight relate to operational aspects of the Laboratory--not mission-
related aspects. In addition to daily oversight by the NNSA site office 
personnel, more than 1,000 audits and inspections have been conducted 
in FY 2012 by the site office, NNSA Headquarters, and DOE. Internally, 
LLNL performed nearly 300 self-assessments in FY 2012, of which about 
70 percent were driven by requirements. By far, the majority of these 
audits and inspections were in the area of ES&H, followed by security. 
The work performed as part of our NNSA nuclear security mission 
(stockpile stewardship and nuclear nonproliferation) is the most 
complex from an operational viewpoint. Much of our work for other 
federal agencies makes use of operational capabilities and facilities 
that we have because of the nuclear security mission.
    As I explained in my answer to Question 77, the outstanding 
capabilities of LLNL and the other NNSA laboratories are being and 
should be used to address a broader set of national security issues. We 
apply our cutting-edge science and technology to develop innovative 
solutions to problems in the areas of defense and international 
security, energy and environmental security, and economic 
competitiveness. This strategy is good for the country and makes best 
use of taxpayer dollars invested in these centers of scientific and 
technical excellence.

    Ms. Sanchez. 87) How would you measure adequate nuclear safety? 
Note that traditionally, the quality of worker safety has been measured 
by the rate of accidents and injuries, where success is reflected by 
low rates of accidents not necessarily their absence. In contrast, 
nuclear safety is predicated upon the avoidance of accidents.
    Dr. Robinson. 87) Throughout my time at Sandia, the primary 
methodology for focusing on what was important with respect to ensuring 
nuclear safety was through applying Probabilistic Risk Assessments, 
which was originally a Sandia Lab creation, although it is now applied 
worldwide for this and other purposes. It allows one to think through 
the risks and consequences and to determine actions that provide the 
maximum mitigation for such low probability, but high consequence, 
risks. However, as I am certainly out of date as to current practices 
at Sandia in metrics for nuclear safety, having retired 6 years ago, I 
have requested help from Sandia in answering this and several other 
questions.
    I will submit these more fulsome answers at a later date.
    Ms. Sanchez. 88) What indicators did you use to measure the 
avoidance of low-probability, high-consequence accidents at your 
nuclear facilities?
    Dr. Robinson. 88) The common tool used is to conduct probabilistic 
risk assessments (PRA) of various possibilities. This tool was 
originally developed at Sandia National Laboratories--for the 
evaluation of relative risks to safety of the design, construction, 
storage, transport, and operation of nuclear weapons, and has been 
subsequently applied worldwide for a variety of other safety-related 
analysis problems. In particular, it has been employed for safety 
analyses by the U.S. Nuclear Regulatory Commission to ensure that the 
operation of nuclear power-generating plants pose no undue risks to 
public health and safety. Sandia, in particular, and other national 
laboratories, assist the NRC in the further enhancement and uses of the 
PRA tools.
    Over the past five decades, PRA has become a well-established field 
and is now used by many organizations, to ensure that risks are 
properly prioritized, in order to identify which risks/hazards can have 
the most impacts on safety of complex systems worldwide. Since in 
nuclear weapons matters, information related to the identification of 
any such vulnerabilities are automatically deemed ``classified,'' these 
will not be discussed here. Sandia would be pleased to provide experts 
to discuss those matters further within an appropriate venue.
    Ms. Sanchez. 89) How does the Work for Others support or detract 
from the nuclear deterrent mission?
    Dr. Robinson. 89) I believe this question has nearly a complete 
overlap with previous Question 55 [Now Question 45], where I have 
written a long and complete answer. I urge you to review that answer.
    Ms. Sanchez. 90) We have seen a significant growth in investment in 
the labs. In that context, what can be done to provide stability in the 
workforce to ensure that we retain the excellence in scientific and 
engineering quality at the labs?
    Dr. Robinson. 90) Diversity in funding sources that have resulted 
from the efforts within Sandia and the other two Labs to become true 
National Security labs rather than only nuclear weapons labs, have had 
a remarkable set of outcomes for the institutions.
    First, and directly apropos to this Question, is the increase in 
the independent sources of funds and independent management of now a 
larger multiplicity of Federal, military, intelligence, homeland 
security (and even some private) entities have provided a greater 
ability for the Lab managers to ``guide their own organizations 
futures'' and expand their overall service to the Nation. Of course the 
greater breadth of technical assignments and efforts is making the Labs 
far more interesting research institutions, and due largely to the 
synergism and the expansion of overall capabilities with the growth of 
``Work for Others'' Federal entities (WFO). For example, the level of 
major breakthroughs and innovations have never been higher. (These have 
very often still provided the critical factors to secure the Nation's 
security, and greater reduce the loss of lives in wartime. I would 
recommend that the HASC might task the ``HSCI'' to review and validate 
my report (here) on the number and quality of major national security 
contributions.
    Ms. Sanchez. 91) I understand that recent unexpected experiment 
results have been a serious setback to meeting the performance 
milestones in the National Ignition Campaign, and that this setback has 
led to management decisions to postpone all other experiments on the 
NIF laser and to reallocate resources from other programs to an 
accelerated Ignition Campaign.
    <bullet>  Can you explain to the Committee how the shift from 
hypothesis-driven science to milestone-driven science has NOT been 
detrimental to the Labs' science missions?
    Dr. Robinson. 91) I am unaware of any decision to change the 
direction of the National Ignition Campaign as of today. There has been 
``a lot of water under the bridge'' since the NIF was first proposed, 
and admittedly some strong ``overselling'' of the concept, and I was a 
frequent critic of the effort, almost exclusively on the basis that the 
costs it would require were too great a burden on the nuclear weapons 
program--the highest priority of all programs--which was already seeing 
a decrease in funding, higher inflations, and many more unanticipated 
needs within the Stockpile Stewardship Program. For those reasons I 
have mostly avoided further contact with the NIF program since I 
retired.
    However, the NIF device was completed 3 years ago, and is currently 
firing laser pulses at implosion targets and diagnosing them. I am told 
by independent reviewers of the NIF and the NIC that the laser 
engineering and optical train have proved to be amazing 
accomplishments, and the device appears to have met the desired 
specifications on energy per pulse, energy uniformity, spot sizes, and 
timing. Reviewers have also begun examining the first ignition 
experiments and report excellent performance of the unique new 
diagnostics designed and built for the NIF experiments. The experiments 
are generating fusion neutrons, which are of major importance step to 
bring up any large physics machine (like large particle accelerators); 
as when you have a desired signal for the parameter you want to 
maximize, successive variations can often then lead you to maximize the 
level of that parameter. That is the current stage, and doubtless the 
careful analysis of the current experiments will shed light on some of 
the missing physics, and lead to both progress toward their September 
milestone and to elucidation of its prospects for ignition.
    Let me include here a report from a recent review by Dr. Steve 
Koonin of the NIC:

          ``It has long been recognized that achieving thermonuclear 
        ignition in the laboratory is a technical grand challenge 
        undertaking, 50 years in the making. It is first, and foremost, 
        a research project, and we all recognize that the goal is not 
        necessarily compatible with near-term NIC project milestones 
        and schedules as currently driven by programmatic 
        considerations.''

    Those statements indicate to me that neither the senior NNSA 
management nor the Lab involved have lost their way. LLNL is truly at 
the threshold of learning new physics that could not have been known 
prior to actually undertaking the current experimental campaign. While 
I cannot, nor could anyone (in my opinion), predict where it will yet 
lead; but after the enormous commitments of funds to get to this point, 
I believe it would make little sense to curtail the funding at this 
point, just because an important milestone has not yet met, regardless 
of the past histories I mentioned above.
    My understanding is that the milestone definition and the September 
2012 deadline originated from a review of the program which NNSA/DOE 
requested be performed by the JASONs (a think-tank of talented 
university scientists supported through a DOD FFRDC (MITRE).) However, 
the September date arose from making predictions that no one could have 
made with any clarity, as it is the case that important physics is 
still missing, and that ``Mother Nature will control the process'' in 
any case. The NIT experimenters are on a good path to elucidate the 
physical processes that are now preventing ignition, and may yet be 
able to overcome these difficulties in future experiments. But I 
believe the statements of former Under Secretary Koonin (above) are 
pretty much ``right on'' in realizing that ultimately ignition in the 
laboratory is a research goal as well as a programmatic goal, and that 
they understand that, while the milestone was undoubtedly important in 
getting to this point, there is no better plan now than continuing to 
perform more good experiments!
    Ms. Sanchez. 92) GAO has criticized NNSA in a long series of 
reports for not having consistent management data (such as cost 
accounting data) across all of its sites.
    <bullet>  Why hasn't more progress been made in requiring 
consistent data and bookkeeping?
    Dr. Robinson. 92) The GAO is swimming upstream against the accepted 
and successful practices of private institutions across the Nation when 
attempts to force ``Government-like'' accounting systems on these 
institutions were made. Government accounting, in general, is 
exceptionally bureaucratic, and with the great diversity of financial 
issues for the extant variety of organizations: ``One size does not fit 
all.''
    I believe there is one overarching principle for having successful 
alignment of accounting and work functions, that does apply to all 
enterprises, businesses, or even Laboratories: ``You should organize 
your bookkeeping the way you need to run (i.e. manage and operate) your 
business, and never vice versa. When I began my tenure as Sandia's 
President and Laboratories Director, one condition that was crystal 
clear then was that the home-built software system--which had 
originated more than 35 years earlier, had far outrun its usefulness in 
managing such a large and complex enterprise. The symptoms were clear: 
It was very difficult for anyone to easily find out the real costs for 
almost any function, or even purchased items, because of the 
proliferation of overheads and other ``institutional taxes.'' After 
analyzing and discussing the situation with Sandia's managers at all 
levels, we learned that the staff's trust in the central accounting had 
waned to the point that a great many organizations ran their own 
``spheres of interest'' using commercial project management software; 
so that in reality we had many hundreds of ``independent'' data 
systems. After making a decision to turn to commercial Enterprise 
Management software, we had to choose whether to purchase such software 
either ``tailored for Government use'' or ``tailored for business 
use.'' A thorough examination of these alternatives showed that the 
latter was designed to make decisions based on costs for a great 
diversity of work activities, and that still the system was capable of 
``rolling up costs'' in any way that one needed to in order to feed 
into larger/inflexible cost accounting budget categories. The choice of 
the (Oracle) business option product allowed us to also perform much 
wider benchmarking with many large private laboratories, and to help us 
identify whether our costs in particular areas were competitive or not. 
We have used this system for nearly 20 years now with excellent 
success. This commercial software gave our staff easier systems to 
learn and to apply, and to tailor the operating systems to fit the 
individual systems to better manage each of our functions.
    Lastly, I would appoint that the world's largest single Government 
accounting organization DCAS (for Defense Contracts Administration 
Services) does not, repeat not, attempt to dictate a ``one size fits 
all'' accounting system for its contractors, but rather it conducts an 
examination of a firm's books in ``a pre-award audit'', to determine 
whether or not the company's financial bookkeeping meets ``Federal Cost 
Accounting Standards'', and DCAS is available to follow the procurement 
as it progresses to be sure the declared processes are used. This would 
be a far superior intellectual approach for dealing with cost 
accounting within DOE organizations and its suppliers, taking note that 
DOE ``contracts out'' the vast majority of its budgeted funds. If I 
could, I would suggest that this latter DCAS model does fit the model 
most of the reviews have suggested be the simplifying basis for GOCOs, 
with the Government specifying ``What?'', but not trying to dictate 
``How?''
    Ms. Sanchez. 93) How do the conclusions of this report comport with 
your experiences with DOE nuclear safety requirements (i.e., rules, 
orders, manuals, and standards) for the nuclear weapons complex?
    <bullet>  Did you find these nuclear safety requirements to be 
burdensome? Could you provide any specific examples of burdensome 
nuclear safety requirements?
    Dr. Robinson. 93) As I stated above for Question 77 [Now Question 
87], I am certainly out of date as to current practices at Sandia in 
metrics for nuclear safety, having retired 6 years earlier. I have 
requested help from Sandia in answering this question, who replied with 
this response: For DOE nuclear facilities, the safety requirements are 
based on 10CFR830 Nuclear Safety Management (primarily Subpart B--
Safety Basis Requirements). There are numerous DOE orders, standards, 
and guidance documents used by nuclear facilities, which allow for 
fairly consistent management data. We all use the same threshold 
quantities, develop safety documents based on the same approved safe 
harbors and development guidance, use analysis tools in the approved 
DOE ``tool box'', use the same general process for managing changes 
(i.e. unreviewed safety questions), and are periodically assessed by 
the same DOE HQ entity (Chief of Defense Nuclear Safety). If a 
``burdensome'' requirement is defined as a requirement providing no or 
minimal value-added benefit; then we would be hesitant to identify 
specific examples of burdensome nuclear safety requirements. There are 
specific safety benefits for all these nuclear safety requirements. The 
rigor and scrutiny for a nuclear facility should be higher than the 
average nonnuclear facility since the potential consequences can be 
significantly greater. What we find can be burdensome is the overly 
conservative interpretation (often by external organizations) of what 
are essentially good requirements.
    Examples:
    <bullet>  Not being able to use the latest dose conversion factors 
for initial hazard categorization without doing additional significant 
analysis.
    <bullet>  Different interpretations about what is meant by 
challenging the evaluation guidelines.
    <bullet>  What is the appropriate deposition velocity.
    <bullet>  Interpretation of the appropriate level of detail for 
analysis and documentation.
    Ms. Sanchez. 94) Does the National Laboratories Directors Council, 
which reports directly to the Secretary of Energy, bypassing the NNSA 
reporting structure, disrupt oversight and contribute to a 
dysfunctional system where NNSA and the labs do not trust each other?
    Dr. Robinson. 94) This question is, I believe chasing a ``red 
herring.'' There has been the practice, ever since I can remember, of 
past Secretaries of Energy establishing a forum of multiple Laboratory 
Directors to meet with him/her to discuss major issues. These have only 
occurred quite infrequently, i.e. never on a schedule that would even 
allow these to either substitute for, replace, or even supplement, 
regular meetings of responsible Department officials with the Secretary 
of Energy. Usually, the Lab Directors invited are chosen in order to 
help prepare for joint briefings (e.g. the Secretary and the Lab 
Directors) to the Congress, such as the Hearings to discuss the Annual 
Assessment Memoranda prepared by the Directors and transmitted by the 
Secretary of Energy and the Secretary of Defense to the President and 
to both houses of the Congress. In my experience, there never were such 
meetings without the head of the NNSA (and usually one or two others 
senior NNSA officials) present.
    I found the comment from the NAS Review Committee regarding ``a 
lack of trust'' to be profound and justified, but I do not think any 
meetings involving the Secretary are in any way a factor affecting 
trust. Rather, I would ascribe the lack of trust to: (1) the lack of 
effective communications across the NNSA and the DOE and its 
Laboratories, (2) the many overlapping responsibilities of NNSA Program 
Managers and Laboratory officials, and (3) the dysfunctional 
arrangement of some DOE components who still have absolute rule over 
some functions within the Laboratories, without involvement of the 
NNSA, and (4) a failure of management and leadership of DOE and NNSA to 
organize and manage the burgeoning oversight offices at Headquarters or 
in the field.
    Ms. Sanchez. 95) What is your perspective on the recent NNSA 
governance reform initiative in which the contractors assume more 
responsibility for oversight of compliance with nuclear safety 
requirements, while Federal oversight focuses on contractor systems for 
ensuring safety?
    <bullet>  What was the purpose and objectives of your contractor 
assurance system?
    <bullet>  What experience did you have with such a self-assessing 
contractor assurance system, and what are the specific advantages and 
disadvantages of this system?
    <bullet>  What did your contractor assurance system indicate about 
the need for more or less requirements, about the rigor of compliance 
with requirements, and about the need for more or less oversight?
    <bullet>  How did you ensure that you had adequately established a 
balance in priorities and resources between your safety programs and 
your missions?
    Dr. Robinson. 95) At the time I retired from Sandia in January, 
2006, the NNSA governance initiative was just in its earliest stages. I 
requested from Sandia their views on this subject and they provided the 
following status comments:
    This new NNSA governance reform initiative has some promise, but 
would need to go much further to create the change needed. This effort 
is still embryonic; it is fair to be skeptical until it is fully 
implemented. There are still hundreds of detailed milestones in the 
current performance measuring system used by NNSA and hundreds of 
Federal employees overseeing these. As long as that is the case, the 
focus will be on each small action and transaction that makes a 
strategic focus almost impossible. As long as there are an excessive 
number of employees in multiple offices conducting oversight (which is 
the case now) the flexibility to balance safety and mission in the most 
effective way becomes extremely difficult.
    The history at the labs is that their own internal audits and 
reviews of their systems identify the areas that need improvement. The 
multiple external audits by multiple agencies that often follow the 
internal audits and reviews seldom add much value. In fact, they 
distract and absorb the time of people who should spend time addressing 
the internal findings.
    There is a clear need for the Government to provide oversight. It 
needs to be strategic. Right now it is still largely down in the weeds.
    Ms. Sanchez. 96) How can the operator of facilities/Line 
Management, DOE as owner of the facilities, and the public have 
confidence that contractor assurance systems are capable of detecting a 
decline in the safety posture of a facility or operation?
    <bullet>  How mature was this capability at your laboratory?
    <bullet>  In the areas of worker safety and high-risk operations 
such as those at nuclear facilities, could you describe how you ensured 
that performance was maintained at least at its previous level if not 
improved?
    <bullet>  Could you describe the key measures that you relied on to 
ensure that you avoided nuclear or other high-hazard accidents, and 
explain why you believe that those measures gave you sufficient 
confidence that the workers and the public were and continue to be 
afforded adequate protection?
    Dr. Robinson. 96) I have requested help from Sandia in answering 
these questions since the contractor assurance system was in its 
earliest stages when I retired in January, 2006. I am certainly out of 
date as to current practices for contractor assurance at Sandia, and I 
have requested help from Sandia in answering this and several other 
questions.
    Sandia empowers every employee to stop any activity or duty they 
believe is dangerous. There are no repercussions for protecting 
themselves and fellow workers. In fact, safety is a priority at Sandia 
because our unique nuclear weapons mission is ``always/never.'' A 
nuclear weapon must always work if authorized by the President of the 
United States. A nuclear weapons must never work at all other times. 
For the ``never'' part of the analogy, Sandia designs and qualifies 
unique components that are specifically tailored to serve in the role 
of ``never'' devices. These strong-links or weak-links are key to 
safety, in order to ensure that the respective protections remain in 
place and functioning, beyond the point at which the ability of the 
system to detonate disappears. Sandia thinks about safety every day 
because it their job.
    Sandia also conducts mandatory training based on the job criteria. 
Not only does Sandia remind their employees to use common sense safety 
tools like protective glasses and ear protectors, but constantly 
training and retraining on other safety concerns is included on such 
less obvious safety concerns as static electricity or trips and falls.
    Let me here cite a few approaches that we developed for dealing 
with worker safety in the high-risk operations within nuclear 
facilities.
    The highest combined risk for worker safety and nuclear safety 
risks were in the Pulsed Power facilities: Z Machine, Atlas, etc. The 
variety of hazards and the seriousness of the risks all ranked very 
high in Probabilistic Risk Assessments. Line responsibility was 
assigned the responsibility along with their technical program 
responsibilities, noting how essential it was for close integration of 
all experiments and operations for maximizing employee safety against 
the very diverse set of hazards: extremely high radiation levels during 
pulses, energetic system explosion hazards, extremely high voltages and 
currents, falling hazards from highly, elevated experimental location, 
drowning hazards from vessels filled with oil or deionized-water, and 
huge magnetic forces during tests of some components.
    Yet, the safety performances--even with this variety of high hazard 
activities--always scored at the top or near to the top of all Sandia 
facilities. The risk-informed safety rules that were in use proved 
exceptionally successful at the pulsed power sites. The quality process 
structure in place with the key employee and managers closed the loop 
between the employees, whose Health and Safety would be at risk 
(including their very lives), and guaranteed that there was full and 
first-hand knowledge of those risks and the means and controls 
(structural and controls) that were in place to mitigate these hazards. 
Risk-informed safety regulations were continuously stressed to all 
employees within these facilities and were shown to improve the already 
high performance levels of these activities.
    Ms. Sanchez. 97) <bullet>  Do you believe that your site had a good 
safety record?
    <bullet>  What indicators did you use to measure your laboratory's 
safety performance? What did you compare those indicators against to 
decide the quality of that performance? And why do you believe that 
those measures are adequate to evaluate the quality of safety at your 
laboratories?
    <bullet>  What indicators do you use to measure the nuclear safety 
performance of the facilities at your lab? What do you compare those 
measures against?
    <bullet>  How did/should those measures help you avoid the 
occurrence of a low-probability, high-consequence accident?
    Dr. Robinson. 97) Yes, and provably so. The first written question 
asked by Chairman Michael Turner, which I answered on Feb. 22, 2012, 
was very similar. In my answer I cited that ``when the DOE was formed, 
the safety performance of the DOE laboratories in total was very sound 
(with the nuclear weapons labs being top performers in that set). Yet, 
the DOE continued to require that even more spending be devoted to 
Safety efforts, even though the statistics on workplace injuries, lost 
workday incidents, and accidental deaths was superior--and by 
substantial rates--to those of U.S. industry in general.'' Further, I 
cited the relative performance levels for the DOE Labs against 
appropriate industry-wide levels for:
    (1)   lost workday case incidences and lost workday incidences (per 
se) for comparison to Bureau of Labor Statistics of U.S. Industry;
    (2)   fatalities per 100,000 workers for comparison to National 
Safety Council for U.S. Industry;
    (3)   motor vehicle accidents per 1 million miles for comparison to 
National Safety Council for U.S. Industry; and
    (4)   worker radiation exposures per 100,000 workers for comparison 
to NRC Commercial statistics.
    In all cases the relative performance levels of the DOE Labs were 
substantially better.
    For more recent data, I requested help from Sandia on current data 
comparisons on similar statistics. Sandia National Laboratories 
analyzed the data available from 2006-2011, and these data are shown in 
the histogram below:
    Analysis of injury and illness rates from the calendar years of 
2006-2011 led to the following results:
        <bullet>  Total Recordable Case Rate shows Sandia's average 
        over the 5 years to be 1.755 compared to the Industry rate of 
        3.92 from 2006 through 2010.
        <bullet>  Sandia's average Days Away Restricted, Transferred 
        Case Rate was 0.68 compared to 2 for the Industry.
        <bullet>  The average Days Away Case Rate for Sandia was 0.29 
        compared to 1.16 for the Industry.
    Sandia's average fatality rate (fatalities per 100,000 workers) 
from 2006-2011 was 2.8. The industry average for those 5 years was 3.8.
    Sandia's motor vehicle accident rate (motor vehicle accidents per 
one million miles) measures injuries from motor vehicle accidents per 
one million miles. The average rate for the 5-year period is 0.5. The 
injury rate for the entire population is 0.8.
    The total effective dose (TED) in rem at Sandia National 
Laboratories averaged .05 for 2006-2011. The average TED at NRC 
Licensed facilities was 0.1.

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Ms. Sanchez. 98) The laboratories conduct some of the Nation's most 
sensitive activities, including designing, producing, and maintaining 
the Nation's nuclear weapons; supporting nonproliferation efforts; 
conducting efforts for other military or national security 
applications; and performing research and development in advanced 
technologies for potential defense and commercial applications.
    <bullet>  How do these different missions complicate oversight 
requirements?
    <bullet>  How do they support efficiencies and best use of taxpayer 
dollars?
    Dr. Robinson. 98) Let me add to the list of diverse missions 
``highly compartmented programs,'' where very strict access controls 
must be in place. Although such programs have existed within the three 
Laboratories for at least 50 years or more, they have increased in 
numbers and size over the past decade. Different arrangements were 
required for the conduct of these programs, because their accesses are 
so strictly restricted by the parent agencies (including those owned by 
the DOE). All it is clearly recognized that the extremely high 
importance of many of these programs meant there could be no 
compromises of the existence or nature of these programs due to serious 
injuries or death resulting from them. Once again our placing the 
responsibility for safety and security as a strict line management 
function for such programs has required greater commitment from 
managers at all levels to carry the responsibility for technical/
mission success of these programs simultaneously with responsibility 
for the environmental and safety and health performances. An 
exceptional record of success in all aspects of these programs attests 
to the fact, that it is feasible to achieve sound safety and security 
performances in these unique circumstances with a philosophy of strict 
limitations on the number of support staff who can have access. 
Agreements have been forged at the highest levels of DOE and NNSA of 
how oversight will be carried out, and these represent the best of the 
past practice of a deep, trusting partnership between the Government 
and the Labs. Compartmented programs within the Labs have demonstrated 
high levels of cost effectiveness as well. The unique requirements to 
accomplish these important programs while greatly limiting the number 
of staff (because of obvious security concerns) should be the proof 
that large staffs are not necessary to achieve effective results and 
protect both workers, the public, and the environment.
    There are many other examples, where the capabilities created 
within the laboratories for one national security program, can 
instantly be put into use for solving unique and critical problems that 
arise on very short timescales. The emergency request last year by the 
Department of Defense for Sandia Laboratories to adapt an existing 
launch vehicle and to tailor a ballistic missile defense missile 
interceptor vehicle to intercept and destroy a failed Russian satellite 
with a large inventory of liquid hydrazine on-board (for propulsion 
gas), before the satellites orbit had decayed to the point of 
reentering the earth's atmosphere and crashing into the earth, is a 
recent example of what is possible by harvesting past investment in the 
Labs by many agencies to address other national needs. That mission was 
a splendid success, and demonstrated what can be uniquely accomplished 
by the concentration of multidisciplined scientists and technicians 
with a diversity of fully-functional facilities within such 
institutions.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. HEINRICH
    Mr. Heinrich. 99) The NAS study committee says the loss of trust 
has resulted in an increased ``aversion to risk,'' and that ``a major 
byproduct of this has been to create a bias against experimental work, 
because of the onerous processes sometimes required before running an 
experiment. The bias is problematic because experimental science is at 
the very heart of the scientific method.''
    How does the NAS study committee think the ``trust'' that it says 
has been lost could be restored? Please explain how this aversion to 
risk impacts the ability of the labs to conduct high-quality science 
and engineering and perform their mission.
    Dr. Shank. 99) To address this question I think it is instructive 
to understand how we have come to the current situation. The response 
of Congress and the DOE to a series of single point failures at 
Laboratories and production facilities has been to create new 
structures, orders, and organizations to provide enhanced oversight at 
all DOE FFRDCs. The increase in compartmentalized oversight entities 
has led to an extraordinary burden for the Laboratories. The issue of 
trust arises because the Laboratories are treated as distrusted 
entities requiring large teams of people overseeing all transactions. 
This approach is costly, inefficient, and discourages the Science and 
Engineering Staff.
    There is a small fraction of the work at the Laboratories where a 
failure would have a high consequence and therefore require a high 
degree of operational formality. The rest of the work looks like work 
done in a typical industrial environment. I believe that necessary 
oversight could be done in a manner accomplished by other similar 
institutions. There are widely accepted systems and standards for 
overseeing safety, finance, human resources, and facility operations. A 
straightforward approach would be for the Laboratories to qualify 
systems in each of the operational areas. Then, a vastly reduced number 
of people could audit the systems. A major barrier to accomplishing 
something like this is to realize that maintaining the current 
oversight apparatus in place, which has been sized for transactional 
oversight, will prevent any of the advantages to ensue. Another concern 
is that a new approach needs to be created with the idea there will be 
failures in the future and that whatever system in place must be 
resilient to single point failures.
    Mr. Heinrich. 100) In 2009, the Strategic Posture Commission said 
the President, ``should assign formal responsibility to the Secretaries 
of Energy, Defense, and Homeland Security and the Director of National 
Intelligence for the programmatic and budgetary health of the 
Laboratories.''
    Do you agree? How would such a structure operate--how should it be 
designed?
    Dr. Shank. 100) This is not a topic that our committee examined. I 
do believe all of these entities have a stake in the success of the 
Laboratories. Lowering the barrier for all of the entities to make 
investments and create facilities in the Laboratories would be a 
positive step.

    Mr. Heinrich. 101) The NAS report notes that the ``evolution'' of 
the labs from nuclear weapons labs to ``national security labs'' with a 
broader mission set is well under way. The report says that expansion 
of the labs' missions to new arenas ``offers the prospect of increasing 
the Laboratories' appeal to top-quality scientists and engineers while 
also serving important national security missions. Thus, the quality of 
science and engineering, being preconditioned on attracting high-
quality people, depends in the long run on successfully making this 
transition to National Security Laboratories.''
    Does the NAS believe the governance and management structure for 
the labs is set up to facilitate this expansion into new, nonnuclear 
work? If so, how should it be changed to better enable this broader 
mission?
    Dr. Curtis. 101) We do believe that the governance and management 
structure of the laboratories is set up to facilitate the expansion 
into new, nonnuclear work. NNSA has done a good job reaching out to the 
Department of Defense and the Department of Homeland Security and the 
intelligence community to help coordinate this broader national 
security agency. This enriched suite of activities at the laboratories 
has contributed significantly to laboratory recruitment and to the 
execution of the laboratories' core nuclear weapons responsibilities.
    Mr. Heinrich. 102) Technology transfer remains a critical tool that 
can help businesses create jobs and strengthen their competitiveness. I 
was pleased to see the President recently direct our national 
laboratories to increase the rate of technology transfer to the 
commercial marketplace. Has the increased ``aversion to risk'' that the 
NAS study committee found also impacted tech transfer? What steps can 
Congress take to foster growth in the area of tech transfer?
    Dr. Curtis. 102) The Committee did not focus specifically on 
impediments to technology transfer to help business create jobs and 
strengthen their competitiveness. The subject, however, is very 
important and a matter that the laboratories in the past devoted a 
great deal of attention to. This clearly may be a matter that the 
Subcommittee would wish to take up with NNSA.

    Mr. Heinrich. 103) In 2009, the Strategic Posture Commission said 
the President, ``should assign formal responsibility to the Secretaries 
of Energy, Defense, and Homeland Security and the Director of National 
Intelligence for the programmatic and budgetary health of the 
laboratories.''
    Do you agree? How would such a structure operate--how should it be 
designed?
    Dr. Anastasio. 103) The Commission recommended making 
organizational changes regarding the NNSA--that the NNSA be established 
``as an independent agency reporting to the President through the 
Secretary of Energy''; ``the NNSA, as an independent agency, should 
have a budget separate from any other entity'' and ``this budget be 
reviewed by the Defense Appropriations Subcommittees of the House and 
Senate''; and that a formal mechanism be established ``for the 
Secretaries of Energy, Defense, State, and Homeland Security and the 
Director of National Intelligence to approve the NNSA strategic plan 
and to comment on its budget in broad detail before it is submitted to 
the Office of Management and Budget.''
    Given the challenges to date of implementing the NNSA act, an end 
state that results in NNSA as an independent agency is very appealing. 
As the Commission makes clear there are many issues associated with 
making that model a success, such as to whom does this new independent 
agency report? How is its budget developed within the Administration? 
How is its budget established by the Congress? How is a broad national 
security mission for NNSA implemented? The Commission developed answers 
to these questions that they could agree with and that they thought 
could be implemented at the time. The answers to these questions are 
very important, but it is essential that the national security 
leadership, Administration and Congress all agree on the answers and 
they successfully implement all of them.

    Mr. Heinrich. 104) The NAS report notes that the ``evolution'' of 
the labs from nuclear weapons labs to ``national security labs'' is 
well under way, and that this will enable an expansion of the labs' 
work solving national security problems for many different Federal 
agencies. Within NNSA, this is called ``Work for Others,'' or ``WFO.'' 
The NAS notes, and I agree, that this evolution is critical to the 
future vitality of the labs.
    What steps could Congress take to make WFO work easier, more 
efficient, and more effective?
    Dr. Robinson. 104) I am very pleased to address this question, as I 
openly professed for many years that the nuclear weapons labs, as one 
of the last bastions of defense science and technology, must apply 
their knowledge to counter any and every threat to our Nation's 
security. We at Sandia outlined this view as a quest to become ``true 
national security labs.'' This has now become a reality at Sandia, and 
is progressing at the other two Labs.
    I must be constrained in my discussion of how we have achieved this 
(due to classification and compartmentation rules). Without breaching 
security, I can unabashedly say that, just as the technology created 
by, and at, the Labs did in fact lead to ending World War II, our 
recent technology advances have similarly been so significant as to end 
modern, recent conflicts. The details of these facts cannot yet be 
revealed today, but I invite you to ask those in command for Lab 
contributions to recent U.S. conflicts, if they believe that our latest 
contributions, as we had achieved with our partners at Los Alamos made 
the breakthrough which ``won'' World War II, recent technology 
advances, by one or more of the nuclear weapons labs, have been the 
keys to winning other recent major conflicts.
    I urge you to pursue this issue with vigor, for nothing will 
convince you more readily of the importance of these Labs in protecting 
America's future, and cause you to award us the autonomy from the 
Federal bureaucracy to which we have been subjected for more than 40 
years! I already stressed in my written HASC Statement that the DOE has 
long since lost the recipe for being wise custodians of science and 
technology ``for the national interest.'' It is that basis that drove 
my recommendation that only major actions by the Congress have a chance 
to ``save the Labs'' before it is too late.
    The recommendations of the Strategic Commission, the DSB on Nuclear 
Capabilities, and my own recommendation (in my written statement) to 
recreate the labs (and a modified NNSA) within the Department of 
Defense--all of these have merit to recover these ``national 
treasures'' from their current state of mismanagement. In further 
defense of my own proposal, may I point out that the Department of 
Defense and the Military Services are more committed to the success of 
the nuclear weapons/national security labs than any other entity is 
likely to ever achieve. It thus belongs there!

                                  <all>

</pre></body></html>
